APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of
Arizona
(July 16, 2019). . . . . . . . . . . . . . . . . . . 1a
Appendix B Memorandum Decision in the Arizona
Court of Appeals, Division One
(September 18, 2018) . . . . . . . . . . . . 19a
Appendix C Order Under Advisement - Post
Conviction Relief Ruling in the
Superior Court of Arizona, Maricopa
County
(December 23, 2015) . . . . . . . . . . . . . 27a
Appendix D S u s p e n s i o n
of
Sentence Unsupervised Probation in the
Superior Court of Arizona, Maricopa
County
(July 22, 2013). . . . . . . . . . . . . . . . . . 35a
Appendix E Waiver of Preliminary Hearing with
Plea Agreement in the Superior Court
of Arizona, Maricopa County
(July 22, 2013). . . . . . . . . . . . . . . . . . 41a
Appendix F Release
Questionnaire
in the
Maryvale Justice Court, State of
Arizona, Maricopa County
(July 2, 2013). . . . . . . . . . . . . . . . . . . 51a

ii
Appendix G Amended Petition for Post-Conviction
Relief in the Superior Court of
Arizona, Maricopa County
(September 10, 2014) . . . . . . . . . . . . 59a
Appendix H Response to Petition for PostConviction Relief in the Superior
Court of Arizona, Maricopa County
(October 24, 2014) . . . . . . . . . . . . . . . 88a
Appendix I Evidentiary Hearing - Reporter’s
Transcript of Proceedings before the
Honorable Phemonia L. Miller in the
Superior Court of Arizona, Maricopa
County
(October 27, 2015) . . . . . . . . . . . . . . . 96a
Appendix J Petition for Review in the Arizona
Court of Appeals, Division One
(November 22, 2016) . . . . . . . . . . . . 153a
Appendix K Response to Petition for Review in the
Supreme Court of Arizona
(December 10, 2018) . . . . . . . . . . . . 172a
Appendix L Respondent’s Supplemental Brief in
the Supreme Court of Arizona
(March 25, 2019) . . . . . . . . . . . . . . . 191a

iii
Appendix M Brief of Amici Curiae Arizona
Attorneys for Criminal Justice, the
Pima County Public Defender, and the
Federal Public Defender for the
District of Arizona in Support of
Respondent in the Supreme Court of
Arizona
(April 8, 2019) . . . . . . . . . . . . . . . . . 214a
Appendix N Brief of the Arizona Attorney General
as Amicus Curiae in the Supreme
Court of Arizona
(April 8, 2019) . . . . . . . . . . . . . . . . . 243a
Appendix O Oral Argument Schedule
(May 7, 2019). . . . . . . . . . . . . . . . . . 258a

1a

APPENDIX A
IN THE
SUPREME COURT OF
THE STATE OF ARIZONA
No. CR-18-0514-PR
[Filed July 16, 2019]
_______________________
STATE OF ARIZONA,
)
Petitioner,
)
)
v.
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ,
)
Respondent.
)
_______________________ )
Appeal from the Superior Court in Maricopa County
The Honorable Phemonia L. Miller,
Judge Pro Tempore
No. CR2013-430489-001
AFFIRMED
Memorandum Decision of the Court of Appeals
Division One
1 CA-CR 16-0793 PRPC
Filed Sept. 18, 2018
AFFIRMED
____________

2a
COUNSEL:
Ray A. Ybarra Maldonado (argued), Juliana C.
Manzanarez, Law Office of Ray A. Ybarra Maldonado,
PLC, Phoenix, Attorneys for Hector Sebastian NunezDiaz
William G. Montgomery, Maricopa County Attorney,
Karen Kemper, Deputy County Attorney (argued),
Phoenix, Attorneys for State of Arizona
Mark Brnovich, Arizona Attorney General, Drew C.
Ensign (argued), Deputy Solicitor General, Phoenix,
Attorneys for Amicus Curiae Arizona Attorney General
John Walters, Office of the Pima County Public
Defender, Tucson; Jon M. Sands, Federal Public
Defender, Keith J. Hilzendeger (argued), Assistant
Federal Public Defender, Phoenix; Grant D. Wille,
Ralls & Reidy, P.C., Tucson, Attorneys for Amici
Curiae Arizona Attorneys for Criminal Justice, Pima
County Public Defender, and the Federal Public
Defender for the District of Arizona
____________
CHIEF JUSTICE BALES authored the opinion of the
Court, in which JUSTICES TIMMER, BOLICK and
PELANDER (RETIRED) joined. JUSTICE BOLICK,
joined by JUSTICE PELANDER, filed a concurring
opinion. JUSTICE LOPEZ, joined by VICE CHIEF
BRUTINEL and JUSTICE GOULD, filed an opinion
concurring in the result.
____________

3a
CHIEF JUSTICE BALES, opinion of the Court:
¶1
In this case involving post-conviction relief, the
State argues that the lower courts erred in concluding
that Hector Sebastion Nunez-Diaz, an undocumented
immigrant, received ineffective assistance of counsel
when he entered a guilty plea resulting in his
mandatory deportation. The State contends that
because Nunez-Diaz was deportable without regard to
his plea, he cannot establish a claim of ineffective
assistance or, alternatively, that any constitutional
violation was harmless. Because Nunez-Diaz suffered
severe and mandatory consequences (including a
permanent bar from reentry) as a result of the plea he
entered due to counsel’s deficient advice, we agree with
the trial court and the court of appeals that he received
ineffective assistance of counsel justifying postconviction relief.
I.
¶2
We defer to a trial court’s findings of fact unless
clearly erroneous. State v. Hulsey, 243 Ariz. 367, 377
¶ 17 (2018). Nunez-Diaz was stopped for speeding and
found in possession of small amounts of
methamphetamine and cocaine. He was subsequently
charged with possession or use of a dangerous drug and
possession or use of a narcotic drug, each a class 4
felony. See A.R.S. §§ 13-3407(A)(1), -3408(A)(1). The
record does not reflect that Nunez-Diaz had any prior
criminal history.
¶3
Upon his arrest, Nunez-Diaz’s family began
searching for an attorney. Their chief concern was
avoiding Nunez-Diaz’s deportation. They met with an

4a
attorney from a Phoenix law firm experienced in
criminal defense and immigration law, who informed
them that although Nunez-Diaz had a difficult case, it
was possible to avoid deportation. Reassured by this
meeting, Nunez-Diaz’s family chose to retain that firm,
and the firm assigned a criminal defense attorney to
Nunez-Diaz’s case.
¶4
The State offered a plea deal that would reduce
the charges Nunez-Diaz was facing to a single count of
possession of drug paraphernalia, a class 6
undesignated felony. See A.R.S. § 13-3415(A). Counsel
advised Nunez-Diaz to take the plea. He did.
Consistent with the plea agreement, the trial court
suspended sentencing and placed Nunez-Diaz on
eighteen months’ unsupervised probation.
¶5
Nunez-Diaz was transferred to the custody of
United States Immigration and Customs Enforcement
(“ICE”). He was informed that, because of his plea, he
could not bond out of custody and would be deported.
This alarmed both Nunez-Diaz and his family, who
returned to the law firm. There, an immigration
attorney told the family that because of the plea,
nothing could be done to keep Nunez-Diaz in this
country. The family found new counsel who was able to
negotiate for Nunez-Diaz’s voluntary removal to
Mexico, where Nunez-Diaz has remained.
¶6
Nunez-Diaz then initiated post-conviction relief
proceedings pursuant to Arizona Rule of Criminal
Procedure 32. He claimed he received ineffective
assistance of counsel in violation of the Sixth
Amendment to the United States Constitution. In his
pleadings, he avowed that his primary concern in

5a
considering the plea offer was his immigration status
and he would not have entered the plea if his counsel
had accurately advised him of the immigration
consequences.
¶7
After holding an evidentiary hearing, the trial
court ruled that Nunez-Diaz had established ineffective
assistance of counsel under Strickland v. Washington,
466 U.S. 668 (1984). The court found overwhelming
evidence that “counsel’s actions fell below an objective
standard [of reasonableness].” Counsel had
“misrepresented the immigration consequences to
defendant,” and failed to inform Nunez-Diaz that his
removal would be guaranteed if he accepted the plea.
As a “direct result of [counsel’s] failure,” Nunez-Diaz
was prejudiced by forfeiting his chance at trial and
thus his only chance at avoiding removal. Accordingly,
the trial court ordered that Nunez-Diaz’s guilty plea be
set aside.
¶8
The court of appeals granted the State’s petition
for review, and a divided panel denied relief. See State
v. Nunez-Diaz, 1 CA-CR 16-0793 PRPC, 2018 WL
4500758, at *1-*2 ¶¶ 1, 13 (Ariz. App. Sept. 18, 2018)
(mem. decision). The court concluded that Nunez-Diaz
had “established he suffered from both deficient
performance and prejudice when he entered” his plea.
Id. at *2 ¶ 10. The burden then shifted to the State to
demonstrate that the constitutional deficiency was
harmless, which it failed to do. Id. ¶ 11. The dissenting
judge argued that, because Nunez-Diaz was deportable
regardless of his plea, there was no prejudice and thus
no constitutional claim. Id. at *3 ¶ 14 (Morse, J.,
dissenting).

6a
¶9
We granted review to consider whether
deportable immigrants can show prejudice if their
lawyers’ deficient performances lead them to plead
guilty and suffer attendant immigration consequences
– a recurring issue of statewide importance.
II.
¶10 The Sixth Amendment guarantees a defendant
the right to counsel. U.S. Const. amend. VI; see also
Wong Wing v. United States, 163 U.S. 228, 238 (1896)
(holding that “even aliens” are protected by the Fifth
and Sixth Amendments). The right to counsel includes
the right to effective assistance of counsel. Strickland,
466 U.S. at 686 (quoting McMann v. Richardson, 397
U.S. 759, 771 n.14 (1970)). To demonstrate that
counsel’s assistance was so deficient as to require
reversal of a conviction, a defendant must show both
that “counsel’s representation fell below an objective
standard of reasonableness” and “a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Id. at 688, 694. Even if a defendant proves a
constitutional violation, however, post-conviction relief
will be denied if the state proves “beyond a reasonable
doubt that the violation was harmless.” Ariz. R. Crim.
Proc. 32.8(c). This Court reviews a trial court’s ruling
on a petition for post-conviction relief for an abuse of
discretion. State v. Miles, 243 Ariz. 511, 513 ¶ 7 (2018).
A.
¶11 To satisfy Strickland’s first prong, a defendant
must demonstrate that counsel’s assistance was
constitutionally deficient. Padilla v. Kentucky, 559 U.S.

7a
356, 366 (2010). Generally, plea counsel “need do no
more than advise a noncitizen client that pending
criminal charges may carry a risk of adverse
immigration consequences.” Id. at 369. When the
consequences of a plea are clear, however, “the duty to
give correct advice is equally clear” and counsel must
inform their client of those consequences. Id.
¶12 This case is one in which counsel was obliged to
give correct advice about the clear consequences of a
plea. Nunez-Diaz’s plea resulted in a conviction that
falls under 8 U.S.C. § 1227(a)(2)(B). Such a conviction
renders a noncitizen, other than a lawful permanent
resident, ineligible for discretionary relief from
removal, see, e.g., 8 U.S.C. § 1229b(b)(1)(C), and would
permanently prevent that individual from ever
returning to this country, 8 U.S.C. § 1182(a)(2)(A)(i)(II).
The trial court found that competent counsel “could
have easily” explained the adverse immigration
consequences of the plea and that there was
“overwhelming evidence” that counsel’s assistance was
constitutionally deficient. At oral argument in this
Court, the State conceded that plea counsel’s assistance
fell below an objective standard of reasonableness. We
agree - the first prong of Strickland has been satisfied.
B.
¶13 Strickland’s second prong requires that a
defendant show counsel’s errors had a prejudicial
effect. See Padilla, 559 U.S. at 369. When a claim of
ineffective assistance of counsel stems from plea
proceedings, a defendant must show a reasonable
probability that, “but for counsel’s errors, he would not
have pleaded guilty and would have insisted on going

8a
to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985). To do
so, it must “have been rational under the
circumstances” for a defendant to refuse a plea and go
to trial. Padilla, 559 U.S. at 372.
¶14 It is not irrational for a defendant to go to trial
when trial represents the only, albeit slim, chance that
a defendant can avoid severe and certain immigration
consequences. Lee v. United States, 137 S. Ct. 1958,
1968 (2017). In Lee, defendant Lee received inaccurate
advice from plea counsel that resulted in him signing
a plea that guaranteed deportation. Id. at 1963. The
“determinative issue” in Lee’s decision-making had
been the avoidance of deportation. Id. Thus, Lee
initiated post-conviction relief proceedings, claiming
ineffective assistance of counsel. Id.
¶15 The Supreme Court ultimately sided with Lee.
Id. at 1969. Although a defendant must ordinarily
“show that he would have been better off going to trial,”
this is only true when a defendant’s decision turns on
his prospects at trial. Id. at 1965. Lee’s decision,
though, turned on what was most likely to keep him in
the country – he would not have entered his plea had
he been accurately advised of the immigration
consequences. Id. at 1965, 1967. Although Lee was
almost certain to lose at trial, “that ‘almost’ could make
all the difference.” Id. at 1969. It was not irrational for
Lee to try for a “Hail Mary” win in order to avoid the
“particularly severe penalty” of deportation. Id. at
1967-68.
¶16 Lee controls our resolution of this case. The trial
court found that had Nunez-Diaz been accurately
advised, he would not have accepted his plea, opting

9a
instead to continue plea negotiations or proceed to
trial. A plea here resulted automatically in the outcome
that Nunez-Diaz most sought to avoid – immediate and
permanent removal. If Nunez-Diaz had gone to trial
and been convicted, the presumptive sentence on the
more serious charge – possession or use of a dangerous
drug – would have been 2.5 years’ imprisonment,
A.R.S. § 13-702(D), and he could have been sentenced
to probation on both charges, A.R.S. § 13-901.01(A). Cf.
Lee, 137 S. Ct. at 1967 (indicating that it would not be
irrational for a defendant to opt for trial if there was
only a slight difference between the terms of the plea
deal and the worst outcome at trial). Although his
chances of winning at trial, and thus avoiding
automatic immigration consequences, were “highly
improbable,” it would not have been irrational for
Nunez-Diaz to reject the plea. See id.
¶17 The State essentially argues that Lee only
applies to those who are lawfully present in this
country. This misreads Lee – it turned not on Lee’s
immigration status but on whether he was “prejudiced
by the ‘denial of the entire judicial proceeding.’” 137 S.
Ct. at 1965 (quoting Roe v. Flores-Ortega, 528 U.S. 470,
483 (2000)). Moreover, the cases the State relies on to
support its argument were decided before Lee and their
reasoning does not survive. Compare United States v.
Batamula, 823 F.3d 237, 243 (5th Cir. 2016) (en banc)
(stating that, because defendant was already
removable, he had not offered a rational reason for
wanting to proceed to trial), with Lee, 137 S. Ct. at
1966-68 (holding that it was rational to insist on going
to trial on the off-chance, albeit remote, a defendant
could avoid deportation).

10a
¶18 Because Nunez-Diaz has established a
constitutional violation, he is entitled to post-conviction
relief unless the State meets its burden of proving
beyond a reasonable doubt that the violation was
harmless. Ariz. R. Crim. P. 32.8(c). The State contends
there was no harm here because Nunez-Diaz was
deportable under § 1227(a)(1)(B) and would have been
removed regardless of his plea.
¶19 We disagree. “There is a vast difference for an
unauthorized alien between being generally subject to
removal and being convicted of a crime that subjects an
unauthorized alien to automatic, mandatory, and
irreversible removal.” Diaz v. State, 896 N.W.2d 723,
733 (Iowa 2017). As the court of appeals noted, the
record does not establish that Nunez-Diaz would
necessarily have been removed had he gone to trial and
been acquitted. There are many reasons that a
deportable immigrant may not be removed. Daniel A.
Horwitz, Actually, Padilla Does Apply to Undocumented
Defendants, 19 Harv. Latino L. Rev. 1, 8-10 (2016).
Deportable immigrants are potentially eligible for
cancellation of removal or adjustment of status under
§ 1229b(b)(1), but persons with a drug conviction under
§ 1227(a)(2)(B) are not eligible for such discretionary
relief.
¶20 Moreover, due to his plea, Nunez-Diaz was
permanently barred from ever returning to this
country. Ordinarily, an unlawfully present person who
is removed may seek readmission after a period of
three or ten years. 8 U.S.C. § 1182(a)(9)(B)(i). A
conviction that falls under § 1227(a)(2)(B), however,
imposes a permanent bar on such persons from ever

11a
returning. § 1182(a)(2)(A)(i)(II). Such a consequence
can hardly be called harmless.
III.
¶21 Although Nunez-Diaz may have had little chance
of winning at trial, he was entitled to effective
assistance of counsel in deciding whether to take that
chance or to accept a plea offer. He gave up his right to
trial based on his counsel’s deficient advice, which
assured the outcome he most feared. The trial court did
not abuse its discretion in granting post-conviction
relief, and we affirm the ruling of the trial court and
the decision of the court of appeals.
BOLICK, J., joined by PELANDER, J. (RETIRED),
concurring.
¶22 I concur fully with the Court’s opinion. I write
separately to question Lee v. United States, the United
States Supreme Court precedent that dictates the
outcome here. 137 S. Ct. 1958 (2017). Lee creates a
highly unbalanced two-tiered system for criminal
defendants seeking relief from convictions for
ineffective assistance of counsel: one for aliens subject
to deportation and one for most other defendants.
¶23 The baseline decision for ineffective assistance of
counsel claims is Strickland v. Washington, 466 U.S.
668 (1984). There the Court set forth two requirements
for setting aside a conviction: (1) deficient attorney
performance of constitutional magnitude and
(2) resulting prejudice to the defendant. Id. at 687. The
second requirement, which is solely at issue here,
“requires showing that counsel’s errors were so serious

12a
as to deprive the defendant of a fair trial, a trial whose
result is reliable.” Id. Specifically, “the defendant must
show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different,” id. at 694,
which requires considering “the totality of the
evidence” presented. Id. at 695.
¶24 For the ordinary defendant seeking to overturn
a conviction for ineffective assistance of counsel, this
showing is a “high bar.” Padilla v. Kentucky, 559 U.S.
356, 371 (2010). Certainly, if the guilty verdict would
have been essentially a fait accompli even absent
deficient performance by counsel, the conviction will be
sustained. See Strickland, 466 U.S. at 694.
¶25 Not so, where, as here, a defendant is facing
deportation and counsel erred in explaining the
potential immigration consequences of a plea deal. In
Lee, the Court purported to apply Strickland, but the
standard actually applied in Lee could not be more
different. See 137 S. Ct. at 1964. Strickland requires
that the defendant show prejudice by proving that
there is a reasonable probability that the ultimate
outcome would have been different but for counsel’s
deficient performance. See 466 U.S. at 694; see also
Missouri v. Frye, 566 U.S. 134, 147 (2012). Thus, under
Strickland’s articulation of prejudice, the ineffective
assistance of counsel claim in Lee would have failed.
Indeed, in accepting the plea deal, the defendant in Lee
admitted his guilt and there was no indication on
appeal that he had a viable defense, establishing that
the result of a trial would be all but a foregone
conclusion that would almost certainly lead to

13a
deportation but possibly to greater jail time as well. See
137 S. Ct. at 1966; see also Menna v. New York, 423
U.S. 61, 62 n.2 (1975) (per curiam) (“[A] counseled plea
of guilty is an admission of factual guilt so reliable
that, where voluntary and intelligent, it quite validly
removes the issue of factual guilt from the case.”).
¶26 Nonetheless, the Lee Court held that a defendant
has the right to have a guilty plea set aside even where
the defendant has not shown that the ultimate outcome
from proceeding to trial would be different. 137 S. Ct.
at 1966–69. In other words, Lee’s holding extends to
situations where no viable defense exists to the
charges, and thus, deportation and other immigration
consequences, as well as jail time, are almost certain
results of going to trial. Id. For the vast majority of
alien defendants like the one in Lee, there is no
difference in outcome between proceeding to trial or
taking the plea. Even so, under Lee, a defendant facing
immigration consequences gets to attempt a “Hail
Mary” pass in a new trial, id. at 1967, while defendants
in other contexts who likewise faced almost certain
conviction at trial don’t even get to the line of
scrimmage.
¶27 The Lee majority cited Hill v. Lockhart, 474 U.S.
52 (1985), for the proposition that when a defendant
receives ineffective assistance of counsel in connection
with a guilty plea, a different standard for evaluating
prejudice applies. See Lee, 137 S. Ct. at 1965. But Hill
expressly embraced Strickland’s two-part requirement
in that context, 474 U.S. at 58–59, and subsequent
cases that applied Hill required the defendant to show
that a different outcome was likely absent the

14a
ineffective assistance of counsel, see Lee, 137 S. Ct. at
1973 (Thomas, J., dissenting) (discussing cases). As the
dissenting opinion by Justices Thomas and Alito
demonstrates, Lee grossly diverges from Strickland,
and thus was wrongly decided. Id. at 1969–75. Because
Lee creates unequal treatment with regard to
ineffective assistance of counsel claims and places
unnecessary burdens on Arizona courts, I hope the
Supreme Court will reconsider that decision.
LOPEZ, J., joined by BRUTINEL, V.C.J., and GOULD,
J., concurring in the result.
¶28 I concur in the Court’s resolution because Lee v.
United States, 137 S. Ct. 1958 (2017), controls the
outcome in this case. I write separately to clarify my
view concerning what constitutes prejudice under Lee
and Strickland v. Washington, 466 U.S. 668 (1984),
when a defendant, previously subject to deportation,
suffers adverse immigration consequences as a result
of a plea he entered due to counsel’s deficient advice.
¶29 Here, as the majority notes, Nunez-Diaz’s plea
resulted in a conviction that, under 8 U.S.C.
§ 1227(a)(2)(B)(i), renders a noncitizen, other than a
lawful permanent resident, ineligible for discretionary
relief from removal, 8 U.S.C. § 1229b(b)(1)(C), and
permanently prevents future admission into the United
States, 8 U.S.C. § 1182(a)(2)(A)(i)(II). Supra ¶ 12. The
State conceded that Nunez-Diaz’s plea counsel failed to
meet an objective standard of reasonableness under
Strickland when advising him about the immigration
consequences of the plea. Thus, the only question is

15a
whether Nunez-Diaz’s counsel’s error resulted in
prejudice under Strickland. Supra ¶ 12.
¶30 The majority concludes that Nunez-Diaz has
established prejudice because his plea resulted in his
automatic deportation and loss of potential
discretionary relief from removal and permanently
prevents his future lawful admission into the United
States. Supra ¶¶ 16, 19–20. Although permanent
exclusion of admission into the country under 8 U.S.C.
§ 1182(a)(2)(A)(i)(II) constitutes prejudice under
Strickland if the sanction is exclusively the result of
the plea conviction, I note that deportation and
ineligibility for discretionary relief from removal under
8 U.S.C. § 1229b(b)(1)(C) do not constitute prejudice
under Strickland if a defendant is previously subject to
removal as a deportable alien pursuant to 8 U.S.C.
§ 1227(a)(1)(B). See, e.g., United States v. Batamula,
823 F.3d 237, 242–43 (5th Cir. 2016) (holding that
defendant “has failed to put forward a rational
explanation of his desire to proceed to trial” where his
deportability was “a fait accompli before he pleaded
guilty”); cf. United States v. Donjuan, 720 F. App’x 486,
490 (10th Cir.) (2018) (reasoning that an illegal alien
cannot establish prejudice on an ineffective assistance
claim due to deportation because their deportation was
a result of their illegal presence, not their attorney’s
erroneous advice), cert. denied, 139 S. Ct. 590 (2018).
¶31 The majority rejects the State’s suggestion “that
Lee only applies to those who are lawfully present in
this country” because Lee “turned not on . . .
immigration status but on whether [Lee] was
‘prejudiced by the denial of the entire judicial

16a
proceeding.’” Supra ¶ 17 (quoting Lee, 137 S. Ct. at
1965). The majority may be correct, but it misses an
important point. Lee, like the defendant in Padilla,
was lawfully in the United States, entered a guilty plea
pursuant to counsel’s deficient advice concerning
adverse immigration consequences, and became subject
to deportation solely as a result of his plea conviction.
Lee, 137 S. Ct. at 1962; Padilla v. Kentucky, 559 U.S.
356, 359–60 (2010). In other words, Lee and Padilla
established Strickland prejudice because their decision
to proceed to trial was rational because they never
would have been subject to deportation but for their
convictions.
¶32 In contrast, Nunez-Diaz cannot prove Strickland
prejudice here based on his subsequent deportation
because he was already subject to removal (and an ICE
detainer) as a deportable alien under 8 U.S.C.
§ 1227(a)(1)(B) at the time of his plea conviction. Under
Lee, a defendant must prove that there exists a
“reasonable probability that, but for counsel’s errors, he
would not have pleaded guilty and would have insisted
on going to trial.” 137 S. Ct. at 1965 (quoting Hill v.
Lockhart, 474 U.S. 52, 59 (1985)). As the majority
notes, supra ¶ 13, a defendant makes such a showing
by proving that going to trial would have been rational
under the circumstances. Here, it would not have been
rational for Nunez-Diaz to go to trial to avoid
deportation when he was deportable no matter the
outcome of the case. See, e.g., Batamula, 823 F.3d at
242–43; Donjuan, 720 F. App’x at 490.
¶33 Likewise, Nunez-Diaz fails to meet his burden to
show prejudice based on the loss of discretionary relief

17a
under 8 U.S.C. § 1229b(b) because such relief is too
speculative. See, e.g., Mejia Rodriguez v. Reno, 178 F.3d
1139, 1148 (11th Cir. 1999) (“[A]n attorney’s deficient
representation does not deprive an alien of due process
if the deficient representation merely prevents the
alien from being eligible for suspension of deportation
. . . . [S]uch discretionary relief [is] too speculative, and
too far beyond the capability of judicial review, to
conclude that the alien has actually suffered prejudice
from being ineligible for suspension of deportation.”);
Rosario v. State, 165 So. 3d 672, 673 (Fla. Dist. Ct.
App. 2015) (“The possibility for an adjustment in
status, a matter within the exclusive discretion of
federal officials, is too speculative and not a proper
basis to support prejudice for a Padilla claim.”).
Although Lee’s election to try for a “Hail Mary” win at
trial despite virtually no prospect for success may have
been rational to attempt to avoid a deportation that
would occur only as a result of a conviction, supra ¶ 15,
Lee’s reasoning does not apply here. Nunez-Diaz’s
victory (avoiding deportation) required not just a “Hail
Mary” win at trial, but also a “Hail Mary” win in
subsequent immigration proceedings. In other words,
even if Nunez-Diaz prevailed at trial, he would remain
deportable and would avoid deportation only if a
federal official exercised discretion to allow him to
remain in the United States despite his illegal status.
A chance at such discretionary relief is too speculative
to constitute cognizable prejudice.1
1

Even if loss of eligibility for discretionary relief from removal
under 8 U.S.C. § 1229b(b) constituted Strickland prejudice, such
eligibility is predicated on, among other things, the deportable
alien’s continuous physical presence in the United States for at

18a
¶34 However, this approach does not categorically
preclude Lee’s application to those unlawfully present
in the United States (as the State urges) but rather
recognizes that Strickland prejudice requires a showing
that counsel’s deficient advice caused a nonspeculative, material harm. Although Nunez-Diaz’s
deportation following his plea conviction and his loss of
possible discretionary relief fail to establish prejudice
under Strickland, I concur in the majority’s conclusion
that his permanent bar to admission into the United
States constitutes prejudice. Supra ¶ 20. This adverse
immigration consequence, like the deportations in
Padilla and Lee, is a direct material harm that is
exclusively the result of his plea conviction. I cannot
conclude that, under Lee, it was irrational for NunezDiaz to try for a “Hail Mary” win at trial in order to
avoid the permanent bar to admission to the United
States.
¶35 Finally, although Lee controls the result in this
case, I agree with Justice Bolick’s statements in his
concurring opinion expressing concern about Lee’s
“unequal treatment with regard to ineffective
assistance of counsel” and its “unnecessary burdens on
Arizona courts.” Supra ¶ 27.

least ten years prior to application for relief. 8 U.S.C.
§ 1229b(1)(A). Based on the record, Nunez-Diaz failed to establish
his eligibility for such relief.

19a

APPENDIX B
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION IS NOT
PRECEDENTIAL AND MAY BE CITED ONLY AS
AUTHORIZED BY RULE.
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
No. 1 CA-CR 16-0793 PRPC
[Filed September 18, 2018]
__________________________
STATE OF ARIZONA,
)
Petitioner,
)
)
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ,
)
Respondent.
)
__________________________ )
Petition for Review from the Superior Court
in Maricopa County
No. CR2013-430489-001
The Honorable Phemonia L. Miller,
Judge Pro Tempore
REVIEW GRANTED; RELIEF DENIED
______________________________

20a
COUNSEL
Maricopa County Attorney’s Office, Phoenix
By Karen B. Kemper
Counsel for Petitioner
Law Office of Ray A. Ybarra Maldonado, PLC, Phoenix
By Ray A. Ybarra Maldonado
Counsel for Respondent
______________________________
MEMORANDUM DECISION
Judge Lawrence F. Winthrop delivered the decision of
the Court, in which Judge Kent E. Cattani joined.
Presiding Judge James B. Morse Jr. dissented.
______________________________
W I N T H R O P, Judge:
¶1
The State of Arizona petitions this court for
review of the superior court’s order granting the
petition for post-conviction relief filed by Hector
Sebastion Nunez-Diaz. We have considered the petition
for review and, for the reasons stated, grant review but
deny relief.
¶2
Nunez-Diaz was charged with possession or
use of a dangerous drug (methamphetamine) and
possession or use of a narcotic drug (cocaine), each a
class 4 felony. The record does not reflect that NunezDiaz had a prior criminal history. He pled guilty to
possession of drug paraphernalia, a class 6
undesignated felony, and pursuant to the plea
agreement, the court suspended sentencing and placed
him on eighteen months’ unsupervised probation.
Shortly afterward, Immigration and Customs

21a
Enforcement officials took him into custody, subject to
being deported, and he agreed to a “voluntary
departure” in lieu thereof, while represented by a
different attorney for his immigration proceedings.
¶3
Nunez-Diaz filed a petition for post-conviction
relief, claiming his plea counsel was ineffective for
failing to secure a plea or disposition of his charges
that would have protected his ability to remain in the
United States, and not advising him that his plea
would result in his being subject to mandatory
deportation. The superior court ordered an evidentiary
hearing.
¶4
Nunez-Diaz appeared via Skype and
telephone at the evidentiary hearing, and the superior
court took testimony from him, his sister, and his plea
counsel. Nunez-Diaz testified that his plea counsel told
him there would be no problems with the plea and with
his immigration status if he entered the plea. He
testified that he would not have signed the plea
agreement had he been advised of the specific
immigration consequences of the plea and that he was
subject to mandatory deportation. His sister testified to
meeting with an immigration lawyer from the same
firm to which plea counsel belonged, and she was told
the firm would help Nunez-Diaz with his immigration
issues after his plea. Based on this meeting, they hired
the firm to represent Nunez-Diaz. Representation was
then assigned to a different attorney in the firm.
¶5
Plea counsel testified she had explained to
Nunez-Diaz that there would be “immigration
consequences” to the plea, based on the type of plea.
She admitted she had advised Nunez-Diaz the plea

22a
“could have consequences for immigration,” but
conceded she did not tell him the plea would “certainly”
have immigration consequences. In other words,
counsel did not tell Nunez-Diaz that he was subject to
being held without bond and subject to mandatory
deportation.
¶6
The superior court granted relief, and ordered
the plea set aside after concluding plea counsel’s
performance fell below an objective standard and that
Nunez-Diaz was prejudiced by the ineffective
assistance of his counsel. The State’s motion for a
rehearing was denied.
¶7
The State filed a petition for review, arguing
the superior court erred in finding a colorable claim
and that Nunez-Diaz did not meet his burden to show
entitlement to relief under Strickland v. Washington,
466 U.S. 668, 687 (1984), superseded by statute on other
grounds, Antiterrorism and Effective Death Penalty
Act of 1996, Pub. L. No. 104-132, 110 Stat. 1214 (1996).
We review the grant or denial of post-conviction relief
for an abuse of discretion. State v. Jenkins, 193 Ariz.
115, 118, ¶ 5 (App. 1998). Based on the evidence
presented at the hearing, we find no such abuse.
¶8
To show ineffective assistance of counsel, a
party seeking relief must show both deficient
performance by counsel and prejudice. Strickland, 466
U.S. at 687. We must “consider whether the defendant
was prejudiced by the ‘denial of the entire judicial
proceeding . . . to which he had a right.’” Lee v. United
States, 137 S. Ct. 1958, 1965 (2017) (quoting Roe v.
Flores-Ortega, 528 U.S. 470, 483 (2000)). “[T]he
defendant can show prejudice by demonstrating a

23a
reasonable probability that, but for counsel’s errors, he
would not have pleaded guilty and would have insisted
on going to trial.” Id. (citation and internal quotations
omitted). The requirements for counsel include
advising a client subject to immigration consequences
of “the risk of deportation.” Padilla v. Kentucky, 559
U.S. 356, 367 (2010), abrogated in part on other
grounds by Chaidez v. United States, 568 U.S. 342, 347
(2013).
¶9
Arizona Rule of Criminal Procedure 32.8(c)
states in relevant part: “The defendant has the burden
of proving factual allegations by a preponderance of the
evidence.” The superior court credited Nunez-Diaz’
testimony, as well as that of his sister. The court thus
found that “defense counsel misrepresented the
immigration consequences to defendant.”
¶10 “It is for the trial court to resolve conflicting
testimony and to weigh the credibility of witnesses.”
State v. Alvarado, 158 Ariz. 89, 92 (App. 1988) (citation
omitted). By making this credibility finding, the
superior court found that Nunez-Diaz had established
he suffered from both deficient performance and
prejudice when he entered a plea not understanding
the immigration consequences of pleading guilty.
¶11 The burden of proof then shifted to the State
to prove “beyond a reasonable doubt that the
[constitutional] violation was harmless.” Ariz. R. Crim.
P. 32.8(c). This it failed to do. Although there was
testimony that Nunez-Diaz was generally advised there
would be “immigration consequences,” as noted above,
he testified that he would not have signed the plea

24a
agreement had he been advised of the specific
immigration consequences of the plea.
¶12 The superior court did not abuse its
discretion in finding that counsel was deficient and
that, given the goals of Nunez-Diaz and the possible
penalties and consequences had he gone to trial,
Nunez-Diaz was prejudiced by the faulty advice.1 The
State failed to show beyond a reasonable doubt that
relief should have been denied.
¶13

Accordingly, we grant review but deny relief.

MORSE, J., dissenting:
¶14 I respectfully dissent. The record below
indicates that (i) Nunez-Diaz did not have legal
immigration status in the United States,
(ii) Immigration and Customs Enforcement officials
had placed a detention hold for removal proceedings
against him prior to his guilty plea, and (iii) NunezDiaz agreed to voluntary departure and did not contest
removal after his conviction. Based on this record,
Nunez-Diaz was a deportable alien prior to his
conviction, see 8 U.S.C. § 1227(a)(1)(B), and his only
potential claim of prejudice arises from the possibility
of discretionary relief from removal under 8 U.S.C.

1

Although we agree with our dissenting colleague that Nunez-Diaz
was a deportable alien prior to his conviction, see U.S.C.
§ 1227(a)(1)(B), the record below does not establish that he
necessarily would have been deported had he gone to trial and
been acquitted of the charges.

25a
§ 1229b.2 Under these circumstances, the superior
court erred in finding that Nunez-Diaz established
prejudice. See United States v. Batamula, 823 F.3d 237,
243 (5th Cir. 2016) (en banc) (“Because Batamula was
already deportable under § 1227(a)(1)(C)(i) before he
pleaded guilty under the two-count information, it
would not have been rational for him to proceed to trial
in the hopes of avoiding deportability under another
subsection of § 1227.”); see also United States v.
Donjuan, 720 F.App’x 486, 490 (10th Cir. 2018)
(unpublished) (“The consequence of Defendant’s guilty
plea was not removal, as was the situation in Padilla.
Instead, the guilty plea made Defendant ineligible to
receive the discretionary relief of cancellation of
removal, which is fundamentally different than a
lawful resident alien being subject to removal due to a
guilty plea.”); United States v. Sinclair, 409 F.App’x
674, 675 (4th Cir. 2011) (unpublished) (noting that
despite the lack of proper immigration warnings, the
defendant’s “substantial rights were unaffected because
he was an illegal alien and therefore his guilty plea had
no bearing on his deportability”); Garcia v. Tennessee,
425 S.W.3d 248, 261 n.8 (Tenn. 2013) (noting that
“courts have consistently held that an illegal alien who
pleads guilty cannot establish prejudice” under Padilla

2

Notably, the petitioner in Padilla cited 8 U.S.C. § 1227(a)(1) and
affirmatively argued that “only lawfully admitted immigrants can
plausibly allege prejudice from conviction of a deportable offense.
Illegal aliens generally cannot, absent a colorable pending or
future claim to legal immigration status, because illegal presence
is grounds for removal independent of the conviction.” Reply Brief
of Petitioner, 2009 WL 2917817 at *17-18, in Padilla v. Kentucky,
559 U.S. 356 (2010).

26a
and collecting cases); Texas v. Guerrero, 400 S.W.3d
576, 588-89 (Tex. Crim. App. 2013) (“Unlike Jose
Padilla, appellee was an undocumented immigrant and
was deportable for that reason alone, both in 1998 and
today. Had appellee gone to trial with counsel and been
acquitted he would not have been transformed into a
legal resident. . . . The prospect of removal therefore
could not reasonably have affected his decision to waive
counsel and plead guilty.”); United States v. Aceves,
2011 WL 976706, at *5 (D. Haw. Mar. 17, 2011) (“Had
he gone to trial instead of pleading guilty, he would not
have been transformed into a legal resident. This is so
even if he had been acquitted. In other words, it was
not his conviction that made him removable.”); but see
United States v. Arce-Flores, 2017 WL 4586326 (W.D.
Wash. Oct. 16, 2017) (rejecting argument that, as a
matter of law, illegal aliens cannot demonstrate
prejudice under Padilla).

27a

APPENDIX C
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2013-430489-001 DT
[Dated December 23, 2015]
[Filed December 30, 2015]
__________________________
STATE OF ARIZONA
) KAREN B KEMPER
)
v.
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ (001)
) RAY ANTHONY YBARRA
__________________________ )
COMMISSIONER PHEMONIA L. MILLER
CLERK OF THE COURT
Y. King
Deputy
COURT ADMIN-CRIMINAL-PCR
UNDER ADVISEMENT - POST CONVICTION
RELIEF RULING
After an Evidentiary Hearing on October 27, 2015,
the Court took the Defendant’s Motion for PostConviction Relief under advisement.
Due to the complexity of the issues, the Court finds
that extraordinary circumstances existed in this case

28a
which required this court to consider this matter longer
than the time required under Arizona Rules of
Procedure 32.8(d).
The Court has considered the initial motions and
associated pleadings, the testimony and exhibits
introduced at the evidentiary hearing, and the
arguments of counsel. The Court has observed the
demeanor of the witnesses while testifying and the
following findings are based on the evidence as well as
the Court’s assessment of credibility:
The following evidence
Evidentiary Hearing:

was

presented

at

the

• On June 29, 2013, the Defendant was charged
with one count of Possession of Dangerous Drugs
and Possession of Narcotic drugs, both class four
felonies.
• Defendant’s sister, Maria Josefina Nunez-Diaz
testified that she and her family met with Frank
Carrizoza, an attorney at Alcock & Associates to
discuss her brother’s case. They informed the
attorney that they were really concerned about
defendant’s case because he was not a citizen of
the United States. She further testified that the
attorney went as far as to draw a diagram
depicting the criminal and immigration process
and the plan to minimize any exposure and help
him with immigration court. The family met
with the attorney on more than one occasion.
The family retained the attorney because they
were told there would be no immigration
consequences.

29a
• Despite meeting with Mr. Carrizoza, defendant’s
case was assigned to another attorney, Julia
Cassels.
• On July 8, 2013, at the preliminary hearing,
Defendant met with Ms. Cassels. A motion to
continue the preliminary hearing was filed.
Defendant indicated that Ms. Cassels met with
him three times for about 10-15 minutes each
time.
• Ms. Cassels indicated that she met with
Defendant on July 12, 2013 and went over the
immigration consequences with him. She also
indicated that she referred defendant’s family to
the head of the Immigration Department in her
office.
• Ms. Cassels testified that Defendant could either
go to TASC (suspended prosecution) or plead to
Possession of Drug Paraphernalia, a Class 6
undesignated felony. However, because of
defendant’s non-bondable status, he was not
eligible for TASC.
• Ms. Cassels indicated that she tried to get a
solicitation offer for Defendant, but her request
was denied. She further stated that she learned
that the plea was the “kiss of death” before
defendant took the plea.
• Ms. Nunez-Diaz indicated that she met with Ms.
Cassels after her brother’s first court date. She
was told that the preliminary hearing was
continued because there was a way to help her
brother by meeting with someone else so that he
could be free and immigration would not be bad.
• Defendant testified that Ms. Cassels informed
him that he was not going to have any

30a

•

•
•
•
•

•

•

consequences pleading guilty nor would he have
any immigration consequences because her office
had attorneys for that and it would not be a
problem.
Defendant further testified that he relied on the
statements from his attorney and entered into
the plea agreement. Defendant also stated that
although the court told him there might be
immigration consequences, he signed the plea
because his attorney said there would be no
immigration consequences.
Defendant trusted his attorney because she
assured him there would be no problems.
Defendant further testified that if his attorney
would have told him of the consequences, he
would not have signed the plea.
On July 22, 2013, Defendant plead guilty to
Possession of Drug Paraphernalia, a Class 6
undesignated felony and was sentenced.
Ms. Nunez-Diaz further testified that after
defendant entered into the plea and was
sentenced, the attorney said there was nothing
she could do. That the matter was now in
immigration hands. This made Ms. Nunez-Diaz
and her family upset.
Ms. Nunez-Diaz also testified that Ms. Cassels
referred them to another attorney in her office,
who said there was nothing they could do to help
defendant because he pied guilty to Possession
of Drug Paraphernalia.
Defendant was processed through Immigration
and Customs Enforcement and was transferred
to the Eloy Detention Center. Once in
immigration court, defendant had problems. He

31a
tried to contact his attorney at Alcock and
Associates, but did not receive a response.
• Ms. Nunez-Diaz and her family contacted
another attorney about Defendant’s immigration
consequences.
• Defendant later hired the attorney to represent
him at the removal proceedings. Defendant was
ineligible for bond and subjected to mandatory
detention because of the Possession of Drug
Paraphernalia conviction. In order to minimize
the damage, Defendant agreed to be deported
back to Mexico.
CONCLUSIONS OF LAW
The issue before the Court is whether Defendant’s
counsel was ineffective. Deciding this issue is a
question of credibility on the facts.
To establish a claim of ineffective assistance of
counsel, a petitioner must show that counsel’s actions
fell below an objective standard of reasonableness and
that petitioner was prejudiced by the alleged ineffective
assistance of counsel. Summers v. Schriro, 2009 WL
1531847 (D. Ariz), Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 252, 2064 (1984). In ineffective
assistance of counsel claims, the prejudice requirement
focuses on whether counsel’s constitutionally
ineffective performance affected the outcome of the plea
process. ... Summers, supra, Hill v. Lockhart, 474 U.S.
52, 59, 106 S.Ct. 366, 370.
As the Arizona Standard 18, RAJI (Criminal) 3rd
instructs, this Court considers the following when
determining who is credible on a given fact: the

32a
witness’s ability to see or hear or know the things the
witness testified to; the quality of the witness’s
memory; the witness’s manner while testifying;
whether the witness has any motive, bias, or prejudice;
whether the witness is contradicted by anything the
witness said or wrote before trial, or by other evidence;
and the reasonableness of the witness’s testimony
when considered in the light of the other evidence.
Consider all of the evidence in light of reason, common
sense, and experience. Standard 18, RAJI (Criminal)
3rd; Credibility of Witnesses.
The Court finds Defendant’s testimony and Maria
Josefina Nunez-Diaz’s testimony credible.
As part of determining credibility, the trier of fact
must consider whether a witness’s testimony is
contradicted by anything the witness said or wrote
before trial or by other evidence. In this case, the
State’s evidence was directly contradicted by the
Defendant’s witness, Maria Josefina Nunez-Diaz. Ms.
Nunez-Diaz stated that the reason her family retained
Alcock and Associates is so that her brother could avoid
any immigration consequences. She further testified
that after the first hearing she was told by Ms. Cassels
representative that the hearing was continued and
they were working to get her brother free and so that
immigration wouldn’t be bad. She further stated that
at the second hearing defendant entered into a plea
and was sentenced. She spoke to Ms. Cassels and was
told there was nothing else she could do.
The Court can also consider the reasonableness of
the witness’s testimony when considered in the light of
the other evidence, in determining the credibility of the

33a
witness. The Court finds the testimony of Ms. NunezDiaz not only credible but also reasonable. After Ms.
Cassels told Ms. Nunez-Diaz and her family there was
nothing she could do, they became upset. This is a
reasonable reaction in light of the fact they were told
the attorney could help with the immigration case.
Additionally, it was also a reasonable reaction for
defendant to call Alcock and Associates when he
learned that there would be immigration consequences
as a result of his plea. When defendant and did not get
a response, it was reasonable for defendant and his
family to contact another immigration attorney.
In this case, the Defendant presented overwhelming
evidence that his court-appointed counsel’s actions fell
below an objective standard. Defendant has shown that
counsel’s ineffective performance affected the outcome
of the plea process. The Court finds that defense
counsel misrepresented the immigration consequences
to defendant. Counsel was well aware that the
defendant and his family were concerned about the
immigration consequences because of defendant’s
status in the United States. One of the main reasons
Alcock and Associates was retained was because
defendant’s family was told there would be no
immigration consequences. Counsel referred
defendant’s family to an immigration attorney;
however, counsel failed to refer the defendant to an
immigration attorney prior to him entering into the
plea. An immigration attorney from counsel’s firm
could have easily spoken to the defendant about the
immigration consequences. Based on the evidence
presented, this court finds that counsel’s actions fell
below an objective standard of reasonableness.

34a
The second prong of the ineffective assistance of
counsel claim is for the defendant to show that he was
prejudiced by the ineffective assistance of counsel. In
this case, Defendant has shown that he was prejudiced
by the ineffective assistance of counsel. Defendant was
placed in removal proceedings because of the
consequences of the Possession of Drug Paraphernalia
conviction and later deported to Mexico. Defendant
would not have signed the plea if he was adequately
advised of the immigrations consequences. The court
finds that as a direct result of Ms. Cassel’s failure to
properly advise Defendant of his immigration
consequences, defendant was placed in removal
proceedings and was held without bond. Furthermore,
the reason defendant was unable to attend the TASC
program no longer exists in light of the ruling in LopezValenzuela v. Arpaio, 770 F. 3rd 772(9th Cir. 2014)
For these reasons, IT IS ORDERD granting
Defendant’s Petition For Post-Conviction Relief.
IT IS ORDERED setting aside Defendant’s plea of
guilty.
IT IS ORDERED signing this minute entry as a
formal written order of the Court.
/s/Phemonia L. Miller
JUDICIAL OFFICER OF THE SUPERIOR COURT
PHEMONIA L. MILLER
COMMISSIONER/JUDGE PRO TEM
Docket Code 187

Form R000A

Page 5

35a

APPENDIX D
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2013-430489-001 DT
[Dated July 22, 2013]
[Filed July 24, 2013]
__________________________
STATE OF ARIZONA
) HEATHER LEE KIRKA
)
v.
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ (001)
)
DOB: XX/XX/1986
) JULIA CASSELS
__________________________ )
COMMISSIONER PHEMONIA L. MILLER
FOR COMMISSIONER MONICA GARFINKEL
CLERK OF THE COURT
M. Cabral
Deputy
APO-SENTENCINGS-CCC
APPEALS-CCC
CITS - CCC SPANISH
DISPOSITION CLERK-CSC
RFR

36a
SUSPENSION OF SENTENCE - UNSUPERVISED
PROBATION
11:04 a.m.
Courtroom 2A - South Court Tower
State’s Attorney:

Casey Mundell for Heather
Kirka
Defendant’s Attorney: Julia Cassels
Defendant:
Present
Interpreter:
Fernando Venegas
A record of the proceedings is made by audio and/or
videotape in lieu of a court reporter.
Let the record reflect prior to the proceeding,
Fernando Venegas is sworn to act as interpreter of the
Spanish language.
Count(s) 1: WAIVER OF TRIAL: The Defendant
knowingly, intelligently and voluntarily waived all
pertinent constitutional and appellate rights and
entered a plea of guilty.
IT IS THE JUDGMENT of the Court Defendant is
guilty of the following:
OFFENSE: Count 1 (Amended): Possession of Drug
Paraphernalia
Class 6 Undesignated Felony
A.R.S. § 13-3401, 13-3407, 13-3415, 13-3418, 13-610,
12-269, 13-701, 13-702, 13-801, 13-707, 13-802, 13901.01(D) and 13-901.01(H)(4)
Date of Offense: June 29, 2013
Non Dangerous - Non Repetitive

37a
IT IS ORDERED suspending imposition of sentence
and placing defendant on Unsupervised Probation to be
monitored by the Adult Probation Department (APD)
in accordance with APD’s Compliance Monitoring
Standards:
Count 1 Probation Term: 18 months
To begin 07/22/2013.
Conditions of probation include the following:
Condition 11 - Actively participate and cooperate in
the following program(s):
Substance Abuse Counseling
Condition 15: Restitution, Fines and Fees:
FINE: Count 1 - Total amount of $1372.50, which
includes surcharges of 83%, monthly payment and
beginning date to be determined by the Adult
Probation Department.
Fine is to be paid to the Arizona Drug Enforcement
Fund.
Count 1: Time payment fee pursuant to A.R.S. § 12116 in the amount of $20.00 payable on a date to be
determined by the Adult Probation Department.
PENALTY ASSESSMENT - A.R.S. §12-116.04:
Count 1 - $13.00 payable on a date to be determined by
the Adult Probation Department.
Investigative Agency:
Phoenix Police Department

38a
Count 1: $15.00 to the Drug Lab Remediation
payable on a date to be determined by the Adult
Probation Department.
All amounts payable through the Clerk of the
Superior Court.
Condition 17: Complete a total of 24 hours of
community restitution. Complete 5 per month.
Complete these hours at a site approved by the APD.
Condition 22: Other - Defendant must show proof of
completion of terms 11 and 17 no later than April 22,
2014.
IT IS FURTHER ORDERED that Defendant shall
submit to fingerprint identification processing by the
Maricopa County Sheriff’s Office if directed to do so by
the Adult Probation Department. The Adult Probation
Department shall direct any Defendant placed on
probation who has not already had a State
Identification Number (SID) established to submit to
fingerprint processing.
Defendant is advised pursuant to A.R.S. § 13-805
that failure to maintain contact with the Probation
Department may result in the issuance of:
1. A criminal restitution order in favor of the
state for the unpaid balance, if any, of any fines, costs,
incarceration costs, fees, surcharges or assessments
imposed.
2. A criminal restitution order in favor of each
person entitled to restitution for the unpaid balance of
any restitution ordered.

39a
IT IS ORDERED granting the Motion to Dismiss
the following: Count 2.
IT IS FURTHER ORDERED Defendant be released
from custody for this case only.
IT IS FURTHER ORDERED that Defendant must
submit to DNA testing for law enforcement
identification purposes in accordance with A.R.S. §13610.
Defendant has waived the preparation of a
presentence report.
11:09 a.m. Matter concludes.
Docket Code 110

Form R110-13

Page 3

40a
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
COMMISSIONER PHEMONIA MILLER FOR
COMMISSIONER MONICA GARFINKEL
CLERK OF THE COURT
M. Cabral
Deputy
Date: 07/22/13
No. CR 2013-430489-001
STATE v. Nunez-Diaz
Let the record reflect that the Defendant’s right
index fingerprint is permanently affixed to this
sentencing order in open court.

/s/Phemonia L. Miller
JUDICIAL OFFICER OF THE SUPERIOR COURT
(right index fingerprint)

41a

APPENDIX E
IN THE SUPERIOR COURT
OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA
SUPERIOR COURT CASE # CR 2013-430489-001
[Filed July 22, 2013]
__________________________
STATE OF ARIZONA
)
)
vs.
)
)
HECTOR SEBASTION
)
NUNEZ DIAZ
)
DOB: XXXX, 1986
)
Booking No. P985421
)
)
Defendant
)
__________________________ )
WAIVER OF PRELIMINARY HEARING
WITH PLEA AGREEMENT
DECLARATION by defendant as follows
Defendant is represented by his/her attorney Julia
Cassels 021578
/s/HND G

I hereby voluntarily waive my right to a
preliminary hearing understanding that
I will be held to answer and an
information will be filed charging me with

42a
having committed:
Count 1: Possession or Use of Dangerous
Drugs, a class 4 felony;
Count 2: Possession of Narcotic drugs a
class 4 felony;
Committed on June 29, 2013
This is a non dangerous, non repetitive offense
under the criminal code.
/s/HND G

I understand and acknowledge that:

A. I have a right to a preliminary hearing.
B. I am represented by an attorney now. Further,
I know I have a right to an attorney for all
further proceedings in this case. If I cannot
afford one, then one will be appointed to
represent me at this preliminary hearing as well
as in the Superior Court for all purposes
including trial, free of charge.
C. I am giving up the right to confront and crossexamine witnesses.
D. I am giving up the right to present evidence in
my behalf and that I am giving up the right to
have the magistrate determine if there is
sufficient evidence against me to establish
probable cause to hold me to answer in the
Superior Court on the above stated charges, as
well as the right to a dismissal of charges
against me if the evidence is insufficient.
***

43a
/s/HND G

1. The State of Arizona and the defendant
hereby agree to the following disposition
of this case:

Plea: The defendant agrees to waive the
preliminary hearing and plead guilty to: Count 1
(as amended): Possession of Drug
Paraphernalia a class 6 undesignated felony,
in violation of A.R.S. 13-3401, 13-3407, 13-3415,
13-3418, 13.610, 12-269, 13-701, 13-702, 13-801,
13-707, 13-802, 13-901.01(D),
and 13901.01(H)(4), committed on June 29, 2013.
This is a non dangerous, non repetitive offense
under the criminal code.
Terms: On the following understandings, terms,
and conditions:
The crime carries a presumptive sentence of 1.0
years; a minimum sentence of 0.5 years (0.33 years
if trial court makes exceptional circumstances
finding); and a maximum sentence of 1.5 years (2.0
years if trial court makes exceptional circumstances
finding). Probation IS available. Restitution of
economic loss to the victim and waiver of
extradition for probation revocation procedures are
required. The maximum fine that can be imposed is
$150,000 plus an 83% surcharge plus $20 probation
surcharge, plus a $13 assessment pursuant to ARS
12-116.04 (for crimes occurring on/after 07/20/2011),
plus $15 assessment pursuant to ARS 13-3423 (for
crimes occurring on or after 08/02/12).. If the
defendant is sentenced to prison, the defendant
shall also be sentenced to serve a term of
community supervision equal to one seventh of the

44a
prison term to be served consecutively to the actual
period of imprisonment. If the defendant fails to
abide by the conditions of community supervision,
the defendant can be required to serve the
remaining term of community supervision in prison.
Special conditions regarding sentence, parole, or
commutation imposed by statute (if any) are: If the
Defendant is eligible for sentencing under
ARS §13-901.01, the court shall require
participation in an appropriate drug
treatment or education program. Defendant
shall submit to DNA testing for law
enforcement purposes pursuant to A.R.S. 13610. If offense is designated a misdemeanor,
the maximum penalty is six months jail plus a
fine of $2,500 plus an 84% 83% surcharge.
/s/HND G

2. The parties stipulate to the following
additional terms: The defendant shall
be placed on unsupervised probation
with compliance monitoring. The
Defendant shall pay a fine of $750
plus an 83% surcharge for a total fine
of $1372.50. The offense shall not be
designated a misdemeanor unless or
until the defendant successfully
completes all terms of probation.

/s/HND G

3. The following charges are dismissed, or
if not yet filed, shall not be brought
against the defendant: Count(s) 2.

/s/HND G

4. This agreement serves to amend the
complaint or information, to charge the
offense to which the Defendant pleads,

45a
without the filing of any additional
pleading. However, if the plea is rejected
by the court or withdrawn by either party,
or if the conviction is subsequently
reversed, the original charges and any
charges that are dismissed by reason of
this plea agreement are automatically
reinstated.
/s/HND G

5. If the Defendant is charged with a
felony, he hereby waives and gives up his
rights to a preliminary hearing or other
probable cause determination on the
charges to which he pleads. The
Defendant agrees that this agreement
shall not be binding on the State should
the Defendant be charged with or commit
a crime between the time of this
agreement and the time for sentencing in
this cause: nor shall this agreement be
binding on the State until the State
confirms all representations made by the
Defendant and his attorney, to-wit:
Defendant avows to having no more
than prior felony convictions and
that (s)he was NOT on felony
probation release, parole, or
community supervision at the time of
this offense. The Defendant is not
eligible for sentencing pursuant to
A.R.S. 13-901.01 (Proposition 200).
Defendant further avows that (s)he
has no other pending felony matters
in any jurisdiction. If the Defendant

46a
fails to appear for sentencing, the court
may disregard the stipulated sentence
and impose any lawful sentence which is
the same as or exceeds the stipulated
sentence in the plea agreement. In the
event the court rejects the plea, or either
the State or the Defendant withdraws the
plea, the Defendant hereby waives and
gives up his right to a preliminary
hearing or other probable cause
determination on the original charges.
/s/HND G

6. Unless this plea is rejected by the court
or withdrawn by either party, the
Defendant hereby waives and gives up
any and all motions, defenses, objections,
or requests which he has made or raised,
or could assert hereafter, to the court’s
entry of judgment against him and
imposition of a sentence upon him
consistent with this agreement. By
entering this agreement, the Defendant
further waives and gives up the right to
appeal.

/s/HND G

7. The parties hereto fully and completely
understand and agree that by entering
into a plea agreement, the defendant
consents to judicial factfinding by
preponderance of the evidence as to any
aspect or enhancement of sentence and
that any sentence either stipulated to or
recommended herein in paragraph two is
not binding on the court. In making the

47a
sentencing determination, the court is not
bound by the rules of evidence. The
State’s participation in this plea
agreement is conditional upon the Court’s
acceptance its terms conditions or
provisions. If after accepting this plea the
court concludes that any of the plea
agreement’s terms conditions or
provisions regarding the sentence or any
other aspect of this plea agreement are
inappropriate. it can reject the plea. If the
court decides to reject any of the plea
agreement’s terms conditions or
provisions, it must give both the state and
the Defendant an opportunity to
withdraw from the plea agreement.
Should the Court reject this plea
agreement, or the State withdraws from
the agreement, the Defendant hereby
waives all claims of double jeopardy and
all original charges will automatically be
reinstated. The Defendant in such case
waives and gives up his/her right to a
probable cause determination on the
original charges.
/s/HND G

8. I understand that if I am not a citizen
of the United States that my decision to
go to trial or enter into a plea agreement
may have immigration consequences.
Specifically, I understand that pleading
guilty or no contest to a crime may affect
my immigration status. Admitting guilt
may result in deportation even if the

48a
charge is later dismissed. My plea or
admission of guilt could result in my
deportation or removal, could prevent me
from ever being able to get legal status in
the United States, or could prevent me
from becoming a United States citizen. I
understand that I am not required to
disclose my legal status in the United
States to the court.
/s/HND G

9. If the court decides to reject the plea
agreement provisions regarding
sentencing and neither the State nor the
Defendant elects to withdraw the plea
agreement, then any sentence either
stipulated to or recommended herein in
paragraph 2 is not binding upon the
court, and the court is bound only by the
sentencing limits set forth in paragraph 1
and the applicable statutes.

/s/HND G

10. This plea agreement in no way
restricts or limits the ability of the State
to proceed with forfeiture pursuant to
A.R.S. §§13-4301 et seq.; 13-2314 or 321993, if applicable. Nor does the plea
agreement in any way compromise or
abrogate any civil action, including an
action pursuant to A.R.S. § 13-2301 et
seq. or the provisions of A.R.S. §§ 132314(G) or 13-4310.
I have read and understand the
provisions of pages one and two of this
agreement. I have discussed the case and

49a
my constitutional rights with my lawyer.
I understand that by pleading GUILTY I
will be waiving and giving up my right to
a determination of probable cause, to a
trial by jury to determine guilt and to
determine any fact used to impose a
sentence within the range stated above in
paragraph one, to confront, crossexamine, compel the attendance of
witnesses, to present evidence in my
behalf, my right to remain silent, my
privilege against self-incrimination,
presumption of innocence and right to
appeal. I agree to enter my plea as
indicated above on the terms and
conditions set forth herein. I fully
understand that if, as part of this plea
agreement, I am granted probation by the
court, the terms and conditions thereof
are subject to modification at any time
during the period of probation. I
understand that if I violate any of the
written conditions of my probation, my
probation may be terminated and I can be
sentenced to any term or terms stated
above in paragraph one, without
limitation.
I have personally and voluntarily placed my initials in
each of the above boxes and signed the signature line
below to indicate I read and approved all of the
previous paragraphs in this agreement, both
individually and as a total binding agreement.
Date 7/22/13 Defendant /s/Héctor Núñez Díaz

50a
I have discussed this case with my client in detail and
advised him of his constitutional rights and all possible
defenses. I believe that the plea and disposition set
forth herein are appropriate under the facts of this
case. I concur in the entry of the plea as indicated
above and on the terms and conditions set forth herein.
Date 7/22/13 Defense Counsel/s/Julia Cassels 021578
I have reviewed this matter and concur that the plea
and disposition set forth herein are appropriate and are
in the interest of justice.
Date 7/22/13 Prosecutor /s/E. Pedicone 029094

51a

APPENDIX F
IN THE MARYVALE JUSTICE COURT COURT
STATE OF ARIZONA, COUNTY OF MARICOPA
[Filed July 2, 2013]
****FINAL**** RELEASE QUESTIONNAIRE
DEFENDANT’S
NUNEZ-DIAZ

NAME

HECTOR

SEBASTION

DOB 1986-XX-XX BOOKING NO. P985421
ALIAS(ES) _________________
CASE NO. PF2013430489001
A. GENERAL INFORMATION
Charges
1 Cts. 13-3407A1 DANGEROUS DRUG-POSS/USE F4
1 Cts. 13-3408A1 NARCOTIC DRUG-POSSESS/USE
F4
Pursuant to A.R.S. §41-1750 ten-print
fingerprints were taken of the arrested person?
9 Yes : No
If yes, PCN = _________________________
Pursuant to A.R.S. §13-610 one or more of the
above charges requires the arresting agency to
secure a DNA sample from the arrested person?
9 Yes : No

52a
If yes, does the defendant have a valid DNA
sample on file with AZDPS? 9 Yes 9 No
If no, Arresting Agency has taken
required sample? 9 Yes 9 No
Offense Location: 5850 W INDIAN SCHOOL
ROAD
Offense Date: 2013-06-29
Arrest Location: 5850 W INDIAN SCHOOL
PHOENIX AZ 85033
Date: 2013-06-29 Time: 02:15
B. PROBABLE CAUSE STATEMENT
1. Please summarize and include the facts which
establish probable cause for the arrest:
ON 062913 AT APPROXIMATLEY 0157
HOURS DEF. WAS CONTACTED AT 5850
WEST INDIAN SCHOOL ROAD IN
REFERENCE TO A TRAFFIC STOP FOR A
TRAFFIC VIOLATION. DEF. WAS OBSERVED
TRAVELING EASTBOUND ON INDIAN
SCHOOL ROAD FROM 67TH AVE
TRAVELING 50MPH IN A 40MPH ZONE. A
TRAFFIC STOP WAS CONDUCTED. AFTER
DEF. WAS CONTACTED HE WAS NOT ABLE
TO PROVIDE I.D. DEF. WAS THEN ASKED
TO EXIT THE VEHICLE FOR THE CRIMINAL
VIOLATION OF OPERATOR FAIL TO
PROVIDE I.D.
AFTER DEF. PROVIDED HIS INFO A
RECORDS CHECK WAS CONDUCTED AND
HE WAS FOUND TO HAVE NO VALID
DRIVERS LICENSE. DEF. WAS THEN

53a
SEARCHED AND FOUND TO HAVE A SMALL
AMOUNT OF METH IN HIS RIGHT FRONT
COIN POCKET TUCKED INSIDE A DOLLAR
BILL. AFTER CONTINUING THE SEARCH A
SMALL CLEAR PLASTIC BAGGY
CONTAINING COCAINE WAS FOUND IN
DEF. FRONT LEFT PANTS POCKET. DEF.
WAS THEN PLACED IN CUSTODY AND
TRANSPORTED TO THE MARYVALE
PRECINCT. DEF. CHARGED WITH
POSSESSION OF NARCOTIC DRUGS AND
POSSESSION OF DANGEROUS DRUGS AND
POSSESSION OF DRUG PARAPHERNALIA.
C. OTHER INFORMATION (Check if applicable)
1. 9 Defendant is presently on probation, parole or
any other form of release involving other charges
or convictions:
Explain:
2. List any prior:
Arrests?
Convictions?
F.T.A.’s?
3. Is there any indication the defendant is:
9 An Alcoholic?

9 An Addict?

9 Mentally disturbed?

9 Physically Ill?

4. 9 Defendant is currently employed
With whom
How long:

54a
5. Where does the defendant currently reside? 8422
WEST ROMA AVENUE PHOENIX, AZ 85037
With whom
How long: _____ years _____ months _____ days
6. What facts indicate the defendant will flee if
released?
Explain:
7. What facts does the state have to oppose an
unsecured release? Explain:
D. CIRCUMSTANCES OF THE OFFENSE(Check
if applicable)
1. 9 Firearm or other weapon was used
Type:
9 Someone was injured by the defendant
9 Medical attention was necessary
Nature of injuries: N/A
2. 9 Someone was threatened by the defendant
Nature and extent of threats:
3. If property offense, value of property taken or
damaged:
9 Property was recovered
4. Name(s) of co-defendant(s):

55a
E. CRIMES OF VIOLENCE
1. Relationship of defendant to victim:
9 Victim(s) and defendant reside together
2. How was the situation brought to the attention
of the police?
9 Victim 9 Third Party

9 Officer observed

3. 9 There are previous incidents involving these
same parties
Explain:
4. Is defendant currently the subject of:
9 An order of protection
9 Any other court order
9 Injunction against harassment
Explain:
F. DOMESTIC VIOLENCE ISSUES (Check if
applicable) Defendant’s actions
9 Threats of homicide/suicide/bodily harm
9 Control/ownership/jealousy issues
9 Prior history of DV
9 Frequency/intensity of DV increasing
9 Access to or use of weapons
9 Violence against children/animals
9 Multiple violations of court orders

56a
9 Crime occurs in public
9 Kidnapping
9 Depression
9 Stalking behavior
G. CIRCUMSTANCES OF THE ARREST (Check if
applicable)
1. Did the defendant attempt to:
9 Avoid arrest 9 Resist arrest 9 Self Surrender
Explain:
N/A
2. 9 Defendant was armed when arrested
Type:
3. : Evidence of the offense was found in the
defendant’s possession
Explain: DEF. HAD METH IN HIS RIGHT
FRONT COIN POCKET
4. Was the defendant under the influence of alcohol
or drugs at the time of the offense?
: Yes
9 No
9 Unk
H. DRUG OFFENSES
1. If the defendant is considered to be a drug
dealer, please state the supporting facts:
2. What quantities and types of illegal drugs are
directly involved in the offense? COCAINE AND
METH

57a
: Drug field test completed
: Defendant admission of drug type
Approximate monetary value: $50.00
3. Was any money seized?
9 Yes : No
Amount: $
I. ADDITIONAL INFORMATION
1. Military Service:
Has the defendant served in the military
services of the United States? 9 Yes : No
9 Unknown
If yes, currently on active duty? 9 Yes 9 No
Branches Served In: _____ _____ _____
(AF - Air Force AR - Army CG - Coast Guard
MC - Marine Corp MM - Merchant Marines NG
- National Guard NV - Navy RS - Reserves)
2. Is the defendant homeless?
9 Yes : No 9 Unknown
**If a fugitive arrest, a Form IVA must also be
completed**
I certify that the information presented is true to the
best of my knowledge.
MESCHNARK, RAYMOND/8389
ARRESTING OFFICER/SERIAL NUMBER

58a
AZ0072300/602-495-5008
ARREST AGENCY/DUTY PHONE NUMBER
2013-06-29
DATE
201301147982/AZ0072300
DEPARTMENTAL REPORT NO.
/
DEPARTMENTAL REPORT NO.
/
DEPARTMENTAL REPORT NO.

59a

APPENDIX G
JAZMIN J. ALAGHA
State Bar No. 026302
LAW OFFICE OF RAY A. YBARRA MALDONADO,
PLC
2637 N. 16th Street, Unit 1
Phoenix, Arizona 85006
Phone: 602-910-4040
Fax: 602-910-4000
jazmin@abogadoray.com
IN THE SUPERIOR COURT OF
THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA
CR 2013-430489-001
[Filed September 10, 2014]
_______________________
State of Arizona,
)
)
Plaintiff,
)
)
vs.
)
)
Hector Nunez Diaz,
)
)
Defendant )
_______________________ )
AMENDED PETITION FOR
POST-CONVICTION RELIEF

60a
Petitioner, Hector Nunez Diaz, by and through
counsel undersigned, hereby requests that this Court
hold an evidentiary hearing and, thereafter, order his
guilty plea withdrawn.
This petition is based upon Rules 32.1(a) and 32.8
of the Arizona Rules of Criminal Procedure (“ARCP”),
the right to effective assistance of counsel as required
by the Sixth and Fourteenth Amendments to the
United States Constitution, Article 2, Sections 3, 4 and
24 of the Arizona Constitution, his right to due process,
and the following memorandum of points and
authorities.
Pursuant to Rule 32.5 Counsel hereby states that
every ground knowing to him for vacating judgment or
sentence is contained herein.
MEMORANDUM OF POINTS AND
AUTHORITIES
I. Facts
On June 29, 2013, Mr. Hector Nunez Diaz was
arrested and charged by direct complaint on July 2,
2013 with one count of Possession of Dangerous Drugs
and one count of Possession of Narcotic Drugs.
Mr. Hector Nunez Diaz notified his family who
promptly retained Alcock & Associates to represent
him in his pending criminal matter. During their initial
consultation, Mr. Nunez-Diaz’s family advised an
Alcock & Associates representative that they were
concerned because Mr. Nunez-Diaz was undocumented
as well. They were advised that they would resolve the
case in a way that would minimize any exposure and

61a
help him out in immigration court. The attorney aht
they met with, Frank Carrizoza, went as far as to draw
a diagram depicting the criminal and immigration
process and explaining the plan that would be taken to
protect Hector Nunez Diaz. Despite the fact that Mr.
Carrizoza met with the family on two differnet
occasions and was their point of contact, Alcock &
Associates assigned Ms. Julia Cassels to represent Mr.
Nunez Diaz.
Mr. Nunez-Diaz was set for a preliminary hearing
in Early Disposition Court (EDC) on July 8, 2013. Ms.
Cassels filed a motion to continue the preliminary
hearing for two weeks due to being newly retained on
the case. Commissioner Garfinkel reset the matter for
a preliminary hearing on July 22, 2013.
On July 22, 2013, Mr. Nunez-Diaz was presented
with a plea for the charges to be reduced to a class 6
undesignated felony in exchange for him to plead guilty
to possession of drug paraphernalia. At the hearing,
the standard advisement was conducted. However,
prior to the formal hearing, Hector was told it was the
best plea available to him and the higher charges
would be dropped.
He was also under the impression that he would be
referred to an immigration attorney with Alcock &
Associates and they would continue to take care of his
matter. The plea was to possession of drug
paraphernalia, a class 6 undesignated felony. This plea
was the original plea offered by the State. A review of
the file does not indicate, Ms. Cassels, or any other
attorney from her office, submitted any deviation

62a
request or alternative plea given Mr. Nunez-Diaz
immigration considerations.
Additionally, the file does not indicate that Hector
Nunez Diaz properly advised of the immigration
consequences. There are simply, no notes in this
matter. As such, there is no indication that Ms. Cassels
advised him of the immigration consequences and
despite the original consideration and goals, i.e. to
preserve his ability to fight his immigration case in
immigration court, were ignored.
To the contrary, Alcock and Associates were
repeatedly told about the priorities and immigration
considerations in the representation of the case. Such
considerations were flat out ignored. See Exhibit A.
Affidavit of Maria Josefina Nunez Diaz; also Exhibit B.
Affidavit of Hector Nunez Martinez.
Maria Josefina Nunez Diaz, sister of Hector Nunez
Diaz, acted as his spokesperson in Mr. Nunez Diaz
case. She signed the formal contract and met with the
attorneys on at least three occasions, each time
reiterating the immigration concerns of her brother.
She met with attorneys from Alcock and Associates on
July 1, 2013 and July 5, 2013, each time told that they
would take care of any immigration concerns. Exhibit
A. Affidavit of Maria Josefina Nunez Diaz, at 1 para.
1& 7. Additionally, these concerns were addressed prior
to the entry of any plea with lead counsel, Ms. Cassels.
Exhibit A. Affidavit of Maria Josefina Nunez Diaz, at
2 para. 11-13. Again, the family was assured that they
need not worry since the charges would be minimal it
would not affect Mr. Nunez Diaz immigration situation.
Exhibit A. Affidavit of Maria Josefina Nunez Diaz, at

63a
2 para. 13. Hector Nunez Martinez, father of Hector
Nunez Diaz, was present when these assurances were
made. See Exhibit B. Affidavit of Hector Nunez
Martinez at 1 para. 5; 2 at para. 11
Most notably, Ms. Cassels acknowledges that she
had direct knowledge of Mr. Hector Nunez Diaz
immigration consequences. In her own words, she
addresses the court at the time of sentencing regarding
Mr. Nunez Diaz and the families desire to keep fighting
the case despite the fact that Mr. Nunez Diaz’
immigration fate was destined for failure upon signing
the plea.
At sentencing the following exchange takes place:
THE COURT: Ms. Cassels?
MS. CASSELS: Yes, Your Honor. We’d ask that you
place Mr. Nunez-Diaz on a short term of unsupervised
probation.
I’d also ask that you allow the probation department
to make a determination as to when payment on the
fines should begin, given that Mr. Nunez-Diaz is in a
little bit of limbo as to what his custody status will be
in the next little bit here.
His family is present in the courtroom, they’re in
about the middle row there. And they’re very concerned
about him, and they’ll do everything they can to assist
him once he’s released.
Change of Plea Transcript, State of Arizona v. Hector
Sebastian Nunez Diaz, CR2013-430489-001, p. 11
(previously submitted.)

64a
Moreover, Ms. Cassels makes these remarks and
alludes to the fact that Mr. Nunez Diaz may have a
fighting chance at immigration, knowing that no such
research or defensive actions were taken to protect Mr.
Nunez Diaz’s exposure. Similar insight into the
communications between Ms. Cassels and Mr. Nunez
Diaz is evidenced in the transcript when Mr. Nunez
Diaz informs the court that he would like to be
released. Change of Plea Transcript, State of Arizona
v. Hector Sebastian Nunez Diaz, CR2013-430489-001,
p. 12 (“Well, I ask for forgiveness for everyone. I am
remorseful and I learn my lesson. And I would like to
be released. That’s all.”) (Previously submitted.)
Upon returning to Maricopa County Jail, Hector
Nunez Diaz was processed through the Immigration
and Customs; Enforcement 287(g) officer and was
transferred to the Eloy Detention Center. Hector
Nunez Diaz’ family hired Jillian Kong-Sivert, Esq. to
represent him in removal proceedings. Counsel advised
Hector Nunez Diaz that he was unfortunately ineligible
for immigration bond as he was subject to mandatory
detention under the Immigration and Nationality Act
(“INA”) §236(c) due to his plea he took. The reason that
he was ineligible for bond and subject to mandatory
detention was because a conviction for possession of
drug paraphernalia is classified as a “controlled
substance offense” under the immigration laws of the
United States. Under INA §236(c), an individual with
a controlled substance offense conviction is subject to
mandatory detention and an immigration judge is
jurisdictionally barred from granting bond. See §INA
236(c).

65a
Had immigration considerations been considered in
plea negotiations, however, Mr. Nunez Diaz could have
pled to Solicitation to Possess Marijuana as opposed to
actual possession, he would have been eligible for bond
as a “solicitation” offense is not considered to be a
controlled substance offense for purposes of mandatory
detention. See Coronado Durzao v. INS, 123 F.3d 1322,
1326 (9th Cir. 1997).Moreover, a conviction for drug
paraphernalia renders Mr. Nunez Diaz ineligible for
various potential remedies.
A. Ms. Cassels should have been aware of the
fact that a conviction for possession of
paraphernalia would have a severe impact on
Hector’s Nunez Diaz immigration status in
this country.
Ms. Cassels should have been aware of the severe
impact, including deportation and subjection to
mandatory detention, that a plea to drug paraphernalia
would have on Mr. Nunez Diaz for two reasons. First,
Ms. Cassels firm, Alcock and Associates employs three
full-time immigration attorneys, Katie Sarreshteh,
Claudia Lopez, and Jordan Clegg (who ultimately
reviewed Mr. Nunez Diaz file post-conviction and who
was immediately able to spot that such a conviction
would secure his deportation). See Exhibit C. Alcock
and Associates website (attorney printout),
www.alcocklaw.com
Second, the availability of such information is
readily available. A free legal chart regarding
immigration consequences prepared in part by the
Maricopa County Office of the Public Defender is
widely available among criminal lawyers in Maricopa

66a
County. This chart clearly indicates that A.R.S. 133405 (Possession of Drug Paraphernalia) is “NOT A
SAFE PLEA; will have severe consequences and cause
both deportability and inadmissibility.... ” See Excerpt
from Quick Reference Chart and Annotation for
Determining Immigration Consequences of Selected
Arizona Offences, p. 15, Exhibit D (emphasis in
original).
In addition, Mr. Nunez Diaz is not eligible for state
rehabilitative relief under the Federal First Offender’s
Act as this relief was discontinued for immigration
cases in the 9th Circuit by the Court’s holding in NunezReyes v. Holder on July 14, 2011. See, Nunez-Reyes v.
Holder, 602 F.3d 1102, 1104 (9th Cir. 2011)(overruling
Lujan-Armendariz v. INS, 222 F.3d 728 (9th Cir. 2000)
for purposes of convictions received on or after July 14,
2011.)
B. The plea to drug paraphernalia recommended by
Ms. Cassels had severals5yjtyui9] negative
immigration consequences not known to Mr.
Nunez Diaz at the time he’;signed the plea
Upon being transferred to immigration custody, the
U.S. Department of Homeland Security determined
that Mr. Nunez Diaz was to be held detained, without
bond, pending the outcome of his immigration
proceedings. Subsequently, Ms. Jillian Kong Sivert was
able to avoid his deportation and secured a voluntary
departure/return in his case. Mr. Nunez Diaz outside
the United States awaiting disposition of this matter so
that he may reopen his immigration proceedings and
re-enter the United States some day in the future.

67a
As a direct result of Mr. Nunez Diaz plea, which
was accepted on the advice of his attorney, he is out of
the country and away from his family for the last year.
This could have been remedied by a plea to Solicitation
to Possess a Controlled Substance rather than
possession of drug paraphernalia. A review of the
formal file as received per the orders of this Court gives
no indication that any of this information was reviewed
or that Ms. Cassels requested this alternative plea
from the State. Likewise, the file provides no indication
that Mr. . Nunez Diaz was affirmatively advised of the
severe consequences the plea would have on his
immigration status, which was priority, and that he
knowingly and voluntarily chose to take that plea and
ignore such consequences.
II. Issue
Whether, under the prevailing processional norms
of this community, Ms. Julia Cassels, rendered
ineffective assistance of counsel to Mr. Nunez Diaz
during the plea process by failing to provide specific
advice about the immigration consequences of the
resulting conviction and whether the court erred in not
individually advising him of the possible immigration
consequences of the criminal conviction.
III. Law and Arguments
A. General Principles Governing PCRs
A petition for post-conviction relief (“PCR”) provides
a remedy for constitutional error during the plea
process. See McMann v. Richardson, 397 U.S 759, 90
S.Ct. 1441 (1970). An allegation of ineffective
assistance of counsel is encompassed in ARCP Rule

68a
32.1; a claim that the defendant’s conviction was the
result of ineffective assistance is a violation of both the
United States and Arizona Constitutions. See State v.
Herrera, 183 Ariz. 642, 646, 905 P.2d 1377, 1381 (Ariz.
App. 1995); State v. Febles, 210, Ariz. 589,595, 115 P.3d
629, 636 (Ariz. App. 2005).
In order to be entitled to an evidentiary hearing on
a Rule 32 petition, the petitioner must present a
“colorable claim for relief.” State v. Puls, 176 Ariz. 273,
275, 860 P.2d 1326, 1328 (Ariz. App. 1993). A colorable
claim is one which, if the allegations are true, might
have changed the outcome of the trial verdict. Id. In
short, it is a claim that, factually, has the appearance
of validity. State v. Verdugo, 183 Ariz. 135, 139, 901
P.2d 1165, 1169 (Ariz. App. 1995).
If an evidentiary hearing is granted, the burden is
on the petitioner to prove the actual allegations by a
preponderance of the evidence. Id. A PCR is addressed
to the sound discretion of the trial court, and there is a
strong presumption that counsel acted reasonably
competently. Herrera, supra, at 647 and 1382, Febles,
supra, at 596 and 636; see also, Strickland v.
Washington, 466 U.S. 668, 689 (1984). There is no
question that the constitutional right to counsel is the
right to effective counsel, whether that counsel is
appointed or retained. United States v. Cronic, 466 U.S
648, 654 (1984); Strickland, supra, at 685-686, 690.
The proper measure of an attorney’s performance is
“reasonableness under prevailing professional norms.”
Id. In State v. Ysea, the Arizona Supreme Court held
that:

69a
Under Arizona law, a finding of ineffective
assistance of counsel requires that a defendant
show: (1) trial counsel performed deficiently
under prevailing professional norms; and
(2) counsel’s deficiency prejudiced the defendant.
[Citations omitted.] A defendant who makes
both of these showing is entitled to have his or
her conviction reversed. [Citation omitted.]
State v. Ysea, 191 Ariz. 372, 377, 956 P. 2nd 499, 504
(1998). In addition, the United States Supreme Court
has held that a fair trial is imperative:
in giving meaning to the requirement...we must
take its purpose-to ensure a fair trial- as the
guide. The benchmark for judging any claim of
ineffectiveness must be whether counsel’s
conduct so undermined the proper functioning of
the adversarial process that the trial cannot be
relied on as having produced a just result.
Strickland, supra, at 692-693.
B. Legal Arguments
Mr. Nunez diaz has established a colorable claim
that he was denied effective assistance of counsel
during the plea proceedings in this case. In Padilla v.
Kentucky, the United States Supreme Court held that,
“counsel must inform her client whether his plea
carries a risk of deportation.” Padilla v. Kentucky, 130
S.Ct. 1473, 1486 (2010).
In the present case, Ms. Cassels file provides no
indication that Mr. Nunez Diaz was properly advised of
the immigration consequences of the plea and that he

70a
chose to voluntarily and knowingly ignore and/or accept
such consequences and take the plea to drug
paraphernalia anyway. Indeed, the file is void of any
documentation that such consequences were ever
addressed via independent legal research,
consultations with one of the three fulltime
immigration attorneys in Ms. Cassels firm, or via the
Immigration Consequences Handbook.
No action appears to be have been taken to fully
advise Mr. Nunez Diaz of the clear immigration
consequences that would result as the file is void of any
documentation whatsoever.
The relevant portion of the Immigration and
Nationality Act relating to convictions for controlled
substance offenses clearly states that such a
conviction will have serious consequences. 8 U.S.C
§1182(a)(2)(A)(i) states that, “any alien convicted of, or
who admits having committed, or who admits
committing acts which constitute the essential
elements of – (II) a violation (or a conspiracy or attempt
to violate) any law or regulation of a State, the United
States, or any foreign country relation to a controlled
substance (as defined in section 802 of title 21) is
inadmissible.”
The plain language of the statute is clear – an alien
is inadmissible for a controlled substance conviction.
Further, binding 9th Circuit precedent clearly indicates
that a plea to Solicitation to Possess Marijuana will
shield an alien from the adverse consequences of
deportation and mandatory detention that ordinarily
stem from a controlled substance violation. See
Coronado Durazo, supra.

71a
Had Ms. Cassels made a diligent inquiry into Mr.
Nunez Diaz’s immigration situation and advised him of
the preclusive effect on relief of this conviction, the
outcome would have been different and Mr. Nunez Diaz
would be not have been eligible for a bond and
potentially other remedies before the immigration
court. Here, Ms. Cassels did not even request any other
plea than the first plea offered. She did not request a
plea to Solicitation to Possess a Narcotic Substance
from the County Attorney’s Office. Had she done so,
there is a good chance that the plea would have been
modified as the county attorney regularly offers pleas
to Solicitation to Possess a Narcotic Substance in first
time possession cases.
Had Ms. Cassels complied with the prevailing
norms of the legal community, she would have
consulted with one of the three on staff immigration
attorneys at her firm and would have immediately
known that a plea to drug paraphernalia would have
serious negative immigration consequences. She could
then have requested an alternative plea based on the
advice of such attorneys and/or she could have
researched 9th Circuit law regarding controlled
substance offenses.
Had Ms. Cassels acted effectively she would have
complied with Padilla and “informed her client whether
the plea carries a risk of deportation.” Padilla v.
Kentucky, supra. Instead, she made an affirmative
representation to Mr. Nunez Diaz that the plea would
not have significant immigration consequences. This
affirmative representation rises to the level of
ineffective assistance of counsel. But for this ineffective

72a
assistance of counsel, Mr. Nunez Diaz would have been
eligible for a bond and could have fought his case
outside of immigration custody and been alongside his
family. Instead, he was subject to mandatory detention,
any remedies available were significantly thwarted,
and he finds himself outside the United States waiting
for his case to reopen and fight his case.
The fact of the matter is, the conviction Ms. Cassels
recommended had such severe immigration
consequences (placing Mr. Nunez Diaz in deportation
proceedings and being held without bond) that failing
to advise him of such consequences constitutes
ineffective assistance of counsel. Not giving specific
advice of each of those consequences of the conviction
in this case constitutes ineffective assistance of counsel
pursuant to Padilla. Under these circumstances, it is
evident that (1) trial counsel performed deficiently
under prevailing professional norms; and (2) counsel’s
deficiency prejudiced the defendant. Accordingly, Mr.
Nunez Diaz has established a claim for ineffective
assistance of counsel under the standard set forth by
the Arizona Supreme Court in State v. Ysea, supra at
377.
Additionally, the court denied due process to Mr.
Nunez Diaz in failing to individually advise Mr. Nunez
Diaz of the immigration consequences of his guilty
plea. The transcript does not mention that Mr. Nunez
Diaz was advised individually of his rights, nor does it
contain the standard immigration warning commonly
given before please of guilty are accepted by the court.
The transcript states the following:

73a
THE COURT: Mr. Nunez-Diaz, you were present
this morning when I went over your constitutional
rights and the immigration advisement; is that correct?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Do
constitutional rights?

you

understand

your

THE DEFENDANT: Yes, Your Honor.
THE COURT: Any
constitutional rights?

questions

about

your

THE DEFENDANT: No, Your Honor.
THE COURT: Do you understand the immigration
advisement?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Any questions about the immigration
advisement?
THE DEFENDANT: No, Your Honor.
Change of Plea Transcript, State of Arizona v.
Hector Sebastian Nunez Diaz, CR2013-430489-001, p.
8-9 (previously submitted.) The Court should have
individually addressed Hector Nunez Diaz the
potential immigration consequences, as opposed to
simply asking him if he had any questions about a
series of rights that were read to a larger group due to
the fact that Mr. Nunez Diaz was under the impression
that Ms. Cassels and the firm of Alcock & Associates
would be formulating a plea agreement that would
minimize his exposure in immigration court. Moreover,
an individualized advisal would have protected the

74a
spirit and the language of the Arizona Rules of
Criminal Procedure. Rule 17.2 of the Arizona Rules of
Criminal Procedure states the following:
[b]efore accepting a plea of guilty or no contest,
the court shall address the defendant
personally in open court, informing him or
her of and determining that he or she
understands the following:...(f.) That if he or she
is not a citizen of the United States, the plea
may have immigration consequences,
Specifically the court shall state, “If you are not
a citizen of the United States., pleading guilty or
no contest to a crime may affect your
immigration status. Admitting guilt may result
in deportation even if the charge is later
dismissed. Your plea or admission of guilt could
result in your deportation or removal, could
prevent you from ever being able to get legal
status in the United States, or could prevent you
from becoming a United States citizen.” The
court shall also give the advisement in this
section prior to any admission of facts sufficient
to warrant finding of guilt, or prior to any
submission on the record. The defendant shall
not be required to disclose his or her legal status
in the United States to the court.
Arizona Rules of Criminal Procedure, Rule 17.2.
(emphasis added). Mr. Nunez Diaz was not addressed
personally, but rather in a group, which contained an
undefined number of people with under
undeterminable circumstances. The transcript states
the following: “THE COURT: Mr. Nunez-Diaz, you

75a
were present this morning when I went over your
constitutional rights and the immigration advisement;
is that correct?--....” Change of Plea Transcript, State of
Arizona v. Nunez Diaz, CR2013-430489-001, p. 8
(previously submitted.) It is unclear how many people
were in the group and whether the group advisement
took place over a video screen or in open court. It is also
unclear at what time the advisement took place, all is
stated is that it was in the morning. The change of plea
transcript lists the time that the proceeding began as
10:57 a.m.. An advisement given to Mr. Nunez Diaz in
the morning, in a group, is not addressing him
personally in open court and advising him of the
possible immigration consequences of his plea as
required by Rule 17.2.
IV.Conclusion and Requests
The allegations in this petition are sufficient to
raise a colorable claim of ineffective assistance of
counsel during the plea proceedings and a violation of
due process during the change of plea hearing. They
have the factual appearance of validity, which entitles
Mr. Nunez diaz to an evidentiary hearing. At the
hearing, he will prove, by a preponderance of the
evidence, that Ms. Cassels failed to comply with
prevailing professional norms in the community by
providing Mr. Nunez Diaz with specific, accurate
advice about the immigration consequences of the plea
agreement. He will further prove that the deficiency in
counsel’s performance gives rise to the reasonable
Indeed as a direct result of Ms. Cassel’s deficiency, Mr.
Nunez Diaz was placed in removal proceedings and
was held without bond. As a result of Ms. Cassel’s

76a
deficient performance as counsel, Mr. Nunez Diaz
requests that this Court allow him to withdraw from
his plea to allow him to plead to a different offense that
will not place him in removal proceedings and subject
him to mandatory detention.
Mr. Nunez Diaz is currently outside of the United
States awaiting resolution of this pending postconviction relief proceedings. As such, counsel
respectfully requests that this Court set an evidentiary
hearing as quickly as the Court’s calendar will allow.
RESPECTFULLY SUBMITTED this 9th day of
September, 2014,
s/ Jazmin J. Alagha
JAZMIN J. ALAGHA, ESQ.

77a
DECLARATION OF HECTOR SEBASTIAN
NUNEZ DIAZ
I, Hector Sebastian Nunez Diaz, certify under penalty
of perjury that I have reviewed the petition for postconviction relief and its attachments; I hereby certify,
under penalty of perjury, that the statements as well as
the affidavits and/or attachments provided in support
are true and correct to the best of my knowledge.
Signed this 9th day of September, 2014.
/s/
10-Sep-2014
HECTOR SEBASTIAN NUNEZ DIAZ
***
[Certificate of Service Omitted In the
Printing of this Appendix]

78a
Exhibit A
AFFIDAVIT OF MARIA JOSEFINA NUNEZ DIAZ
STATE OF ARIZONA
County of Maricopa

)
) ss
)

I, Maria Josefina Nunez Diaz, being first duly sworn,
upon my oath, depose and say:
1.

My Name is Maria Josefina Nunez Diaz and
I am the sister of Hector Nunez Diaz.

2.

On June 28, 2013, our family got news that
my brother had been arrested and was held
in custody. My father called Alcock and
Associates on a Saturday and secured a
consultation on Monday.

3.

On July 1, 2013, I accompanied my father to
have a consultation with Alcock and
Associates. At this meeting we met with
Attorney, Frank Carrizoza.

4.

During our meeting, my father and I told Mr.
Carrizoza that we were concerned because
my brother did not have legal status and we
wanted to protect him as much as possible.

5.

Mr. Carrizozza looked up the case online and
told us that while it may be a difficult case it
was not impossible. He then proceeded to
draw us a diagram of the charges to be
dropped and the goals in the case. He drew
out the process of representation for criminal
and immigration court. He stated the goal

79a
was reduce his charges and that way he
would be protected when transferred to
immigration custody.
6.

Despite the cost of representation, which was
difficult for us to manage economically, we
scheduled a meeting to sign a contract a few
days later since we felt assured that they
would take care of my brother and minimize
any exposure in his criminal and
immigration matter.

7.

On or about July 5, 2014, I met with attorney
Frank Carizozza, to sign a contract for the
criminal representation of my brother,
Hector Nunez Diaz. We discussed our
concerns over my brother’s immigration
status and he assured me that they could
resolve the case in a way that would not
affect his immigration status.

8.

I requested that he go visit my brother at the
jail because he was very anxious and worried
about his case. Mr. Carizozza told me that he
had not been assigned to the case yet and
was unsure if who would be assigned but if
he was going to the jail the following week he
would go and visit him.

9.

On July 8, 2013, my brother had his first
court hearing. However, we found that Frank
would not be representing my brother.
Instead, Ms. Julia Cassels would represent
him. She continued our brother’s case which
worried my family and I quite a bit.

80a
10.

Our family decided to meet with her to
address some of our concerns.

11.

On July 10, 2013 more or less, my dad and I
met with Ms. Cassels. She told us she
continued the case because she knew of an
individual who could provide treatment or a
type of counseling to my brother and that
would help in resolving the case.

12.

We told Ms. Cassels some of our concerns,
including his immigration status. Ms.
Cassels assured us that this was the best
plan of action because the judge would see he
was getting treatment and his exposure
would be minimal so it would not affect his
immigration situation.

13.

We felt reassured after our meeting with Ms.
Cassels that she had the best interest in
mind in representing my brother and
understood our priorities, which was his
immigration status, although the meeting
was brief.

14.

On July 22, 2013, we went for my brother’s
court hearing and were surprised to hear he
had taken a plea and was sentenced. To our
knowledge, he had never met with any
counselor as previously indicated.

15.

On July 26, 2013, my my sister and I went to
meet with Ms. Cassels. She informed us that
her portion of legal representation was over
and there was nothing that could be done at
this point regarding his criminal case. She

81a
then took us down the hall to one of the
immigration attorney from Alcock and
Associates by the name of Jordan Clegg.
16.

Mr. Clegg reviewed our file and laughed
stating there was nothing that could be done.
My sister and I were shocked by his reaction.
We stated we were sure something could be
done. He smirked and said not with that
conviction, he would most assuredly be
deported based on the plea he took and there
was nothing that could be done in his case.

17.

We consulted with several other immigration
attorneys, all who confirmed a drug offense
like the one he pled to would assure
deportation and there was nothing that could
be done.

18.

We subsequently hired the Law Office of Ray
Ybarra Maldonado to help us with Post
Conviction Relief and the Law Office of
Jillian Kong-Sivert to try and help him in
immigration court.

19.

Ms. Kong Sivert tried to get his case
continued in immigration court to allow for
Post Conviction Relief in this case, however,
the continuance was denied. She was able to
avoid his deportation and secured a
voluntary departure/return to Mexico.
/s/Maria Josefina Núñez Díaz
Maria Josefina Nunez Diaz

82a
SUBSCRIBED AND SWORN to before me this 17th
day of January, 2013.
/s/Marabel R. Castro
Notary Public
[SEAL]

OFFICIAL SEAL
MARABEL R. CASTRO
Notary Public - State of Arizona
MARICOPA COUNTY
My Comm. Expires May 30, 2015

My Commission Expires:
May 30, 2015

83a
Exhibit B
AFFIDAVIT OF HECTOR NUNEZ MARTINEZ
STATE OF ARIZONA
County of Maricopa

)
) ss
)

I, Hector Nunez Martinez., being first duly sworn, upon
my oath, depose and say:
1.

My name is Hector Nunez Martinez and I am
the father of Hector Nunez Diaz.

2.

On June 28, 2013, I found out that my son
Hector Nunez Diaz had been arrested and was
being held in custody. On June 29, 2013, which
was a Saturday, I called Alcock and Associates
to get a consultation and we were scheduled for
July 1, 2013.

3.

On July 1, 2013, my daughter and I, Maria
Josefina Nunez Diaz, met with an attorney from
Alcock and Associates by the name of Frank
Carrizoza. I explained to him the limited
information that I knew.

4.

Mr. Carrizoza was able to look up my son’s case
on the internet. During our meeting, we stressed
the immigration concerns we had regarding our
son’s status. Mr. Carrizoza, after looking up the
case and the charges, told us that the case would
be “difficult but not impossible.”

5.

Mr. Carrizoza set up a plan of action. He told us
that they would work to reduce the charges to
ensure that my son would not have any

84a
immigration consequences. To illustrate, Mr.
Carrizoza drew a diagram to depict the steps
that needed to be taken in both the criminal
courts and the immigration courts to ensure my
son would be protected when he is transferred
from criminal custody to immigration
detainment.
6.

At the end of the meeting, we felt assured that
Mr. Carrizoza and the firm of Alcock and
Associates would be able to help my son in his
criminal case given his concerns over the
immigration consequences. Mr. Carizoza quoted
us a fee of $5,000.00, with 500 dollars down and
monthly payments to follow. We agreed to the
terms and he scheduled a meeting for a couple
days later to sign the contract and make the
payment.

7.

A few days later, on or about July 5, 2014, my
daughter Maria Josefina Nunez Diaz signed the
contract on our behalf. My daughter met with
attorney Frank Carizozza again where he made
the same assurances regarding representation
he had told my daughter and I a few days prior
on our first meeting of July 2, 2013.

8.

My daughter also requested that they go and
visit her brother, and he told her that if he was
going to the jail the following week he would go
and visit him.

9.

On July 8, 2013, we appeared for my son’s court
hearing. We called Frank from Alcock and
Associates since he was the attorney we had

85a
been dealing with. However, he informed us that
the attorney Ms. Julia Cassels would be
representing my son. This was the first time we
became concerned since Ms. Cassels we had not
met with Ms. Cassels. Additionally, she was
requesting a continuance, which we were not
expecting; she stated that she did not have any
documentation and was not prepared.
10.

We met with Ms. Cassels on approximately July
10, 2013. She told us she had continued the case
because she knew of an individual who could
potentially provide treatment, counseling or
classes to my son and that this would help in his
case.

11.

In this meeting, we discussed some of our
concerns with Ms. Cassels. Specifically, we told
her that we had immigrations concerns for our
son and we asked whether these classes would
help our son. She said that it would and that
this plan would be the best plan for helping him
out with his immigration situation because his
sentence would be minimal since the judge could
see that he is getting treatment and that it
would not affect his immigration situation. We
felt very assured with our meeting because she
spoke with confidence and we felt she could take
care of our son’s situation and left the meeting,
which was brief.

12.

On July 22, 2013, my son had court again and
my wife and daughters were present at this
hearing. They informed me that my son took a
plea and was sentenced.

86a
13.

On or about July 26, 2013 I learned from my
daughters that they had met with Ms. Cassels
and an immigration attorney on staff at Alcock
and Associates and where told the immigration
attorney told them there was no hope for my son
due to his criminal conviction and that he would
be deported.

14.

I began to contact different immigration
attorneys to see if there was anything that could
be done for my son, time and again we were told
that deportation was inevitable due to plea he
took and the criminal conviction against him.

15.

Eventually I met with Ms. Jillian Kong Sivert to
represent him in his immigration case.
Ultimately, she was able to secure voluntary
departure/return to Mexico.

16.

I met with the Law Office of Ray A. Ybarra
Maldonado, PLC which practices both
immigration and criminal law. After a full
recantation of events, we knew his only option
was to file for post-conviction relief due to the
misinformation received regarding the plea.

17.

I have read the foregoing Affidavit and know the
contents thereof and the same is true to the best
of my own personal knowledge.
/s/Héctor Núñez Martínez
Hector Nunez Martinez

87a
SUBSCRIBED AND SWORN to before me this 17th
day of January, 2013.
/s/Marabel R. Castro
Notary Public
[SEAL]

OFFICIAL SEAL
MARABEL R. CASTRO
Notary Public - State of Arizona
MARICOPA COUNTY
My Comm. Expires May 30, 2015

My Commission Expires:
May 30, 2015

88a

APPENDIX H
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
Karen Kemper
Deputy County Attorney
Bar ID No. 013368
Firm ID # 00032000
301 West Jefferson, Suite 210
Phoenix, AZ 85003
Telephone: (602) 506-7422
FAX: (602) 506-7530
MCAOEXEC@mcao.maricopa.gov
Attorney for Plaintiff
IN THE SUPERIOR COURT
OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA
NO. CR 2013-430489-001
[Filed October 24, 2014]
(The Honorable Bruce R. Cohen,
Rule 32 Management Unit)

89a
______________________________________
STATE OF ARIZONA,
)
)
Plaintiff,
)
)
v.
)
)
HECTOR SEBASTION NUNEZ-DIAZ,
)
)
Defendant.
)
______________________________________ )
RESPONSE TO PETITION FOR
POST-CONVICTION RELIEF
The State of Arizona, through undersigned counsel,
opposes Nunez-Diaz’s Petition for Post-Conviction
Relief and seeks summary dismissal of the petition
pursuant to Rule 32.6(c), Ariz. R. Crim. P.
Submitted October 24, 2014.
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
BY:/s/Karen Kemper_____
Karen Kemper
Deputy County Attorney

90a
MEMORANDUM OF POINTS AND
AUTHORITIES
I. FACTUAL AND PROCEDURAL
BACKGROUND
Overview
This is a possession of narcotic drug case that was
pled down to possession of drug paraphernalia as a
class 6, undesignated offense. Hector Nunez-Diaz
contends that if he had pled to solicitation to possess
marijuana, he would have avoided immigration
consequences. (Petition at 5, 9.) He asks this court to
find his lawyer ineffective, the immigration advisement
deficient, and his plea voidable. (Petition at 5, 8, 10,
11-12.)
Facts
The following facts are summarized from
departmental report #2013-01147982. On June 29,
2013, at about 2 a.m., two police officers were
patrolling West Indian School in their marked patrol
unit. They noticed Defendant driving a vehicle in
excess of the posted 40 m.p.h. speed limit. The officers
paced the speeding vehicle then pulled the driver over.
When they asked Defendant for identification he failed
to comply. Defendant was then arrested. The result of
a search incident to arrest yielded small quantities of
methamphetamine and cocaine. The
methamphetamine was wrapped in a dollar bill. The
cocaine was in a plastic bag. The report does not
mention any marijuana.

91a
Waiver of Preliminary Hearing/Change of Plea
Nunez-Diazwas charged with possession or use of a
dangerous drug as a class 4 felony for the
methamphetamine and possession of narcotic drugs as
a class 6 felony for the cocaine. On July 22, 2013, he
elected to waive his preliminary hearing and enter a
guilty plea. According to transcripts of the proceedings,
the group advisement (including the immigration
advisement) was given that morning, beginning at 8:51
a.m. Later that same morning Nunez-Diaz entered
his plea to possession of drug paraphernalia, based
upon his use of a dollar bill to contain the
methamphetamine. (RT 07/22/13 10:57 a.m. at 9.) His
guilty plea was deemed knowingly, intelligently, and
voluntarily made and was then accepted and entered of
record. (Id. at 10.) Nunez-Diaz elected to immediately
proceed to sentencing.
The Court placed Nunez-Diaz
on unsupervised probation for 18 months and
dismissed the remaining count, possession of narcotic
drugs.
Nunez-Diaz eventually filed a Rule 32 compliant
petition. Nunez-Diaz asks this Court to set aside his
plea. For the reasons that follow, the State seeks
summary dismissal of Nunez-Diaz’s petition.
II. STANDARD/SCOPE OF POST-CONVICTION
REVIEW
Ineffective assistance of counsel
To state a colorable claim of ineffective assistance of
counsel, a defendant must show that counsel’s
performance fell below objectively reasonable
standards and that the deficient performance

92a
prejudiced him. See State v. Bennett, 213 Ariz. 562,
¶ 21, 146 P.3d 63, 68 (2006); see also Strickland v.
Washington, 466 U.S. 668, 687 (1984); State v. Nash,
143 Ariz. 392, 397, 694 P.2d 222, 227 (1985).
In this context, Nunez-Diaz must demonstrate he
would not have pled guilty absent counsel’s deficient
performance and must provide an “allegation of specific
facts which would allow a court to meaningfully assess
why that deficiency was material to the plea decision.”
State v. Bowers, 192 Ariz. 419, ¶25, 966 P.2d 1023,
1029 (App. 1998). In order to satisfy his burden of
proof, the defendant must present evidence of a
“provable reality, not mere speculation.” State v.
Rosario, 195 Ariz. 264, ¶ 23, 987 P.2d 226, 268 (App.
1999).
General claims
A colorable claim for relief is one that if the
allegations are true might have changed the outcome.
State v. Watton, 164 Ariz. 323, 328, 793 P.2d 80, 85
(1990); (citing State v. Schrock, 149 Ariz. 433, 441, 719
P.2d 1049, 1057 (1986)). The burden, as stated above,
is on the petitioner and the showing must be that of a
provable reality, not mere speculation. State v. Rosario,
195 Ariz. 264, 268, 987 P.2d 226, 230 (App. 1999); State
v. Gerlaugh, 144 Ariz. 449, 455, 698 P.2d 694,700
(1985). No hearing is required “based on mere
generalizations and unsubstantiated claims.” State v.
Borbon, 146 Ariz. 392, 399, 706 P.2d 718, 725 (1985).

93a
III.

ARGUMENTS

Nunez-Diaz has failed to show he would not
have pled guilty, nor has he shown that counsel’s
advice was deficient.
Nunez-Diaz opines that he “could have pled to
Solicitation to Possess Marijuana as opposed to actual
possession, he would have been eligible for bond as
‘solicitation’ offense is not considered to be a controlled
substance offense for purposes of mandatory
detention.” (Petition at 5, lines 7-10.) Nunez-Diaz’
alternative plea suggestion forms the basis for his
complaint of ineffective assistance of counsel. But
Nunez-Diaz ignores the facts and the law. He possessed
methamphetamine and cocaine, not marijuana. The
State offered a plea to possession of drug paraphernalia
due to the fact that a dollar bill was used to hold the
methamphetamine. Nunez-Diaz accepted that plea
after listening to a Rule 17.2(f) compliant advisement
about the effect a guilty plea may have on immigration
status. The plea that was offered was supported by a
factual basis.
The offered plea was not the one Nunez-Diaz wishes
he’d been offered, but that is not defense counsel’s
fault. Had Nunez-Diaz proceeded to trial and been
convicted as charged it is almost certain his
immigration consequences would have been harsher.
As it stands, Nunez-Diaz avoided deportation. (Petition
at 6, line 16.)
Defense counsel obtained a plea that provided a
benefit to her client. The fact that a collateral
consequence could not be avoided on these facts is not

94a
a deficiency in representation. Nunez-Diaz claim that
his lawyer could have gotten him a better plea is
without merit.
Nunez-Diaz has not shown that the procedures
followed here violated his right to due process.
As discussed above, Nunez-Diaz listened to a Rule
17.2(f) compliant advisory. When asked by the Court if
he had been present for the immigration advisement
and if he understood it he said, “Yes, Your Honor.” (RT
07/22/2013 at 8-9.) He confirmed that he was not
relying on any promises, other than those in the
agreement, to get him to plead guilty. (Id. at 6.) He now
claims that he was “under the impression” that his plea
would “minimize his exposure in immigration court.”
(Petition at 11, line 17.) But by his own admission,
his exposure in immigration court was limited. Rather
than deportation he was subject to voluntary
departure/return. (Petition at 6, line 16.)
Nunez-Diaz has failed to show that the process
followed here was either deficient or prejudicial.
IV.

CONCLUSION

Nunez-Diaz has not articulated a colorable claim for
post-conviction relief. His petition is, therefore, ripe for
summary dismissal under Rule 32.6(c).

95a
Submitted October 24, 2014.
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
By /s/ Karen Kemper
Karen Kemper
Deputy County Attorney

96a

APPENDIX I
IN THE SUPERIOR COURT OF
THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA
CR2013-430489-001
[Dated October 27, 2015]
__________________________
STATE OF ARIZONA,
)
)
Plaintiff,
)
)
Vs
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ,
)
)
Defendant.
)
__________________________ )
BEFORE THE HONORABLE
PHEMONIA L. MILLER
REPORTER’S TRANSCRIPT OF PROCEEDINGS
EVIDENTIARY HEARING
Phoenix, Arizona
October 27, 2015
COPY
For:

97a
BY:

YVONNE M. DE LA TORRE, RPR
Certified Reporter
No. 50470

[p.2]
I_N_D_E_X
WITNESS

D

C

RD

RC

FOR THE PLAINTIFF
Nunez-Diaz Hector

7

9

Nunez-Diaz, Maria

15

21

Cassels, Julia

25

35

45

[p.3]
APPEARANCES:
For the Plaintiff

Karen Kemper
Deputy County Attorney

For the Defendant

Ray Anthony Ybarra
Attorney at Law

Interpreter

Kathleen Penney

BEFORE THE HONORABLE
PHEMONIA L. MILLER
*****
Phoenix, Arizona
October 27, 2015

98a
THE COURT: This is the time set for
evidentiary hearing on the defendant’s petition for
Post-Conviction Relief. It is CR2013-430489-001.
In the matter of the State of Arizona versus
Hector Nunez-Diaz.
Will the parties announce for the record.
the state.

MS. KEMPER: Karen Kemper appearing for

MR. YBARRA: Good afternoon, Your Honor.
Ray Ybarra Maldonado on behalf of Mr. Nunez-Diaz.
THE COURT: And Mr. Nunez-Diaz, will you
please state your full name and date of birth for the
record?
THE DEFENDANT:
Nunez-Diaz, August 4 of 1986.

Hector

Sebastian

THE COURT: And good afternoon to you, sir.
[p.4]
THE DEFENDANT: Good afternoon.
THE COURT: Mr. Nunez-Diaz, by chance, do
you have ID on you so that I can verify that you are, in
fact, Mr. Nunez-Diaz?
THE DEFENDANT: Yes, of course.
THE COURT: Will you please put it up to the
camera. Okay. Go back a little. Go back. Go back.
Okay. Can anyone see? Can you guys see. All right. It

99a
is a little bit blurry, can you put it closer, slowly closer
to the camera.
All right. Stop. Go back just a little. Okay. I
am going to rely on the people with glasses to help me
out. Can you see the name?
THE CLERK: It is a picture of him.
THE COURT: Can you see that is him?
MR. YBARRA: No, Your Honor.
THE COURT: All right.
So will the person next to you, can you give
her the ID and have her read the name and date of
birth for me.
Okay. She is going to give you the phone,
she’s giving, she is going to tell you the name and the
date of birth.
THE COURT: Your name, ma’am.
says

THE INTERPRETER: The name on the ID

[p.5]
Hector Sebastian Nunez-Diaz. Martha Bravo is her
name.
ID?
1986.

THE COURT: And the date of birth on the
THE INTERPRETER: It says August 4 of

100a
THE COURT: Thank you, Ms. Bravo.
You can give the ID back to Mr. Nunez-Diaz.
Mr. Nunez-Diaz, we will conduct this hearing
over the phone so the interpreter will interpret to you
over the phone.
The Skype may or may not work, but we will
still have you on the phone to listen to the hearing if by
chance Skpye gets disconnected. Do you understand?
THE DEFENDANT: Okay. Yes, I understand.
THE COURT: Okay. All right. So I will need
for you to raise your right hand so that my clerk can
swear you in.
HECTOR SEBASTIAN NUNEZ-DIAZ
Called as a witness herein, having been first duly
sworn, was examined and testified as follows:
THE COURT: Thank you. All right.
I have had the chance to review the
[p.6]
defendant’s petition for Post-Conviction relief.
response.

I have also had the chance to review state’s

Mr. Ybarra, is the defense read to proceed
with the evidentiary hearing?
MR. YBARRA: Yes, we are, Your Honor.

101a
THE COURT: And Ms. Kemper, is the state
read to proceed?
MS. KEMPER: Yes, Your Honor.
THE COURT: All right. Mr. Ybarra, it is your
motion so let me hear from you first. Call your first
witness.
MR. YBARRA: Thank you, Your Honor. We
call Hector Sebastian Nunez-Diaz.
THE COURT: Okay.
sworn in.

And Mr. Nunez-Diaz, you were previously
Mr. Ybarra, you can proceed.

MR. YBARRA: May I approach, Your Honor,
to try to visual.
THE INTERPRETER: Maybe you can stand
here and have him, turn the thing around.
MR. YBARRA: Sure.
[p.7]
DIRECT EXAMINATION
BY MR. YBARRA:
Q Mr. Nunez-Diaz, what did your attorney explain
to you as far as the immigration consequences of your
plea?
A I was told that I was not going to have any
consequences pleading guilty. That I would not have

102a
any problem at immigration. That they had attorneys
for that to be able to solve my problem.
Q And was this an attorney appointed by the court
or someone that you paid?
A It was someone here, I hired.
Q And when she explained to you the plea
agreement, do you remember going over that, I believe
it is two pages?
A Yes.
Q And do you remember it saying that your plea of
guilty might have immigration consequences?
A Yes.
Q So why did you go forward and sign that plea
agreement if it is written in the plea that it could have
immigration consequences?
A Because the attorney told me that there were not
going to be any consequences.
Q And then, again, didn’t the judge tell you that
[p.8]
morning that your plea might have immigration
consequences?
A Yes.
Q So who did you trust more, what your attorney
was telling you or what the judge and the plea
agreement said?

103a
A I trusted more in my attorney because she
assured me that I would not have any problems.
Q And then when you went over to immigration,
did you in fact have problems there?
A Yes, that is where I have problems. They did not
want to back me up and they did not want to respond
for me.
Q When you say they, are you referring to your
attorneys or who are you referring to?
A My attorney.
Q And what about immigration, did they end up
letting you go on bond?
A No.
Q What ended up happening?
A I signed a voluntary departure.
Q And why didn’t you decide to fight your case in
immigration?
A Because I didn’t have -- I didn’t have an attorney
anymore and they were telling me that there was
[p.9]
no solution.
Q So did you end up getting another attorney?
A No.
Q So who told you there was no option to fight your
case?

104a
A The same attorney that I hired at the beginning.
Q What was the name of the attorney who
represented you, if you remember her name?
A I don’t really remember the attorney’s name, but
the law firm is Alcock and Associates.
Q How many times did that attorney visit you?
A Three times.
Q And for how long did she meet with you?
A For about ten minutes, 15 minutes.
Q And if she would have told you that it was going
to have immigration consequences, would you still have
signed the plea offer?
A No.
Mr. YBARRA: Pass the witness, Your Honor.
THE COURT: Ms. Kemper?
CROSS-EXAMINATION
BY MS. KEMPER:
Q Thank you. Sir, you were charged with
possessing drugs, correct?
[p.10]
A Yes.
Q And the day you appeared in court, you signed a
plea, correct?

105a
A Yes.
Q And that is the day you met your lawyer,
correct?
A Well, I had already met her before, we had
already talked before.
Q So she met with you in the jail, right?
A Yes.
Q And that was before she saw you again in court,
correct?
A Uh-huh, yes.
Q So you had met with her at least twice before
you signed a plea?
A Yes.
Q But you say that she promised you there would
be no immigration consequences if you signed the plea,
correct?
A Yes.
Q So you signed a plea?
A Yes.
Q But a judge had told you that there could be
immigration consequences if you signed a plea?
A Yes.

106a
[p.11]
Q And you had a written plea agreement, didn’t
you?
A Yes, of course.
MS. KEMPER: And, Your Honor, we had
previously marked the plea as state’s exhibit number
1, however, I don’t think that I can meaningfully show
the defendant the plea.
But I would like leave to be able to ask him
questions about it.
MR. YBARRA: No objection, Your Honor.
Q BY MS. KEMPER: Sir, you read your plea
agreement with the help of the interpreter, correct?
A Yes.
Q I am going to read paragraph 8 and I will break
it up in individual sentences. Okay.
Paragraph 8 says, I understand that if I am
not a citizen of the United States, that my decision to
go to trial or enter into a plea agreement may have
immigration consequences.
Do you recall reading that?
A Yes.
Q Now, the next line.
Specifically, I understand that by pleading
guilty or no contest to a crime may affect my
immigration status.

107a
[p.12]
Do you recall that?
A Yes.
Q The next line, admitting guilt may result in
deportation, even if the charge is later dismissed.
Do you recall reading that?
A Yes.
Q The next line, my plea or admission of guilt could
result in my deportation or removal, could prevent me
from ever being able to get legal status in the United
States or could prevent me from becoming a United
States citizen.
Do you recall reading that?
A Yes.
Q Sir, the judge asked you about this plea
agreement, do you remember being asked about your
plea agreement?
A Yes. Yes, I remember.
Q And she asked you whether you had read it and
if you understood it and you said you did, isn’t that
right?
A Yes.
Q You were also asked if anyone had made you any
promises. Do you remember that?
A Yes.

108a
Q And you told the court no one had made you any
promises to get you to sign the plea, isn’t that correct?
[p.13]
A Uh-huh, yes.
Q When you appeared in court, that day for your
change of plea, there was already an immigration hold
on you, wasn’t there?
A Yes.
MS. KEMPER: Nothing further.
THE COURT: Mr. Ybarra.
Honor.

MR. YBARRA: No further questions, Your

Can we excuse Mr. Nunez-Diaz and hang up
or are you, no, we don’t. I still want him to hear what
is going on.
THE COURT: Okay. All right.
MR. YBARRA: But I will ask for permission
to remove the labtop from the stand.
THE COURT: Do you have any objection to
Mr. Ybarra?
MS. KEMPER: No.
THE COURT: All right. You have permission
to remove the labtop from the witness stand.
Mr. Nunez-Diaz will remain on the phone for
the rest of the proceedings.

109a
MR. YBARRA: Your Honor, defense calls
Maria Josefina Nunez-Diaz.
MS. KEMPER: Your Honor, just so the court
[p.14]
knows, we had previously invoked the rule.
THE COURT: All right. Thank you.
Mr. Ybarra, she will need to be sworn in,
first. Come forward.
THE CLERK: Full name, please.
THE WITNESS: Maria Josefina Nunez-Diaz.
J. O. S. E. F. I N. A. and then the last name. N. U. N.
E. Z.. and N. U. N. E. Z. all right and.
THE COURT: MR. YBARRA.
MARIA JOSEFINA NUNEZ-DIAZ
Called as a witness herein, having been first duly
sworn, was examined and testified as follows:
THE CLERK: I didn’t hear you.
A PANEL MEMBER: I said I swear.
THE COURT: Louder.
THE WITNESS: I swear.
THE COURT: Okay.
Thank you. Please be seated.

110a
DIRECT EXAMINATION
BY MR. YBARRA:
Q And can you please explain your relationship to
the defendant?
[p.15]
A He is my brother.
Q And were you involved at all with the hiring of
an attorney for him?
A Yes, I went with my dad.
Q Louder, please.
A Sorry. I went with my dad, and to get an a
lawyer when he called us that he was that he got into
jail. That he was returned to jail.
THE COURT: Ms. Nunez-Diaz, will you
please state your full name for the record.
THE WITNESS: Maria Josefina Nunez-Diaz.
THE COURT: All right. Thank you. Proceed,
Mr. Ybarra.
Q BY MR. YBARRA: And if we can please speak
slowly, because trying to interpret for your brother and
you have to give a little bit of pause to make sure the
interpreter translates.
THE INTERPRETER: I am gonna interpret
simultaneous, she doesn’t have to go slow, but just
loud. I don’t hear a microphone over there, is there a
microphone?

111a
THE WITNESS: Here, pull it closer.
THE COURT: It isn’t. Could you touch it and
see that it is on. It is not on. All right. It is -- it is on, it
just doesn’t amplify.
[p.16]
THE COURT: So you just have to speak loud.
THE WITNESS: Louder.
THE COURT: Okay.
Q BY MR. YBARRA: Okay. Who did you meet with
when you went to look for a lawyer?
A We went to Alcock and Associates, that is how
yeah, and in there we met with Frank, I believe Frank
Carrizoza and we explained to him that case, my
brother’s case.
Q Did you explain his immigration status?
A Yes. That was our concern all the time, which he
got arrested and concern was immigration since my
brother doesn’t have a legal status in here.
Q And what did they explain to you how they were
going to deal with that situation?
A Frank did like a diagram. He explained to us he
is the criminal case first and then he explained to us
the immigration case, which in there was when I
understood, there were two different cases. And they
needed two different lawyers for that.

112a
He explained the criminal first, he said that
he had to lower his sentence I believe, I don’t know how
to explain it.
And then after he was done with the
criminal, he will be able to go to an immigration, but he
[p.17]
-- we wanted to make sure that he, his criminal was to
ended up good for his, for his immigration status.
Q And did they give you any promises that it would
be okay?
A Yes, they did. That is why we were okay by
hiring them like to let, they will help my brother
because he said that there was a way to help my
brother with immigration after that.
Q And did he go on to represent your brother?
A Frank.
Q Yes?
A No.
Q Who ended up representing your brother?
A Julia Cassels.
Q And did you ever meet with Ms. Cassels?
A Before my brother’s first court, no.
Q Did you meet with her at all?
A Yes, after her first -- my brother’s first court, we
met with her because his first court, just she wasn’t

113a
there and we were worried because my brother was
already anxious and when she -THE INTERPRETER: He was what?
A Anxious. Anxious. Sorry.
So we when we got to the court, she extended
it, she extended the court date and we were
[p.18]
worried because we didn’t know what was happening
before, why she was representing my brother. So after
that, we went to Alcock and we met with her and that
is when we told her if she could explain to us what was
going on.
Q And what did she explain to you was going on?
A Well, she said she extended the case because
there was a way that she can help my brother by I
think meeting with I think it was the teacher, like
some kind of program that he could take so the
sentence will get lowered. And he will be free and
immigration wouldn’t be as bad when he was done with
criminal.
Q Was that the only time you met with her?
A Well, after my brother’s second hearing, we went
to ask her if we she was done with the case because
after the second one, there was a second hearing and
that is when my brother pled guilty and we didn’t know
that they made that decision. So we met with her and
we told her if it was okay, she said that it was okay,

114a
that there was, no, nothing she could do anymore, that
it was all in immigration’s hands.
Q And did you meet with anybody else at Alcock
and Associates?
A Yeah, after that, we asked her to give us an
advice to represent my brother in the immigration side
and we met with another lawyer, I don’t know his
name.
[p.19]
And with that lawyer and that same time that we met
with her after my brother pled guilty, we told her if she
could tell the lawyer to take over the case, she, we met
with them and after that, after we met with them, it
was when he told us that there was nothing to do for
my brother.
Q In what way did he tell that to you?
A Well, we were really, we were really excited
because we in a way, we knew that it was over that
according to Cassells we, my brother could get out as
faster, easier.
So when we met with him, he reviewed the
case and he talked, he asked us questions and told us
about his why, what, why he is sentenced because he
pled guilty, there was nothing else to do, but he said it
in a mocking way. He was even laughing at us like
there is nothing else to do and he was smiling. And we
were serious. We were trying to help my brother. And
we when we left there, because my brother, my sister
was with me, we were really angry because he was

115a
laughing at us, not I mean we are young, we look
young, but we were trying to help my brother.
So that wasn’t, that wasn’t the way we
wanted a lawyer to look at us because he was kind of
making fun of us or just thinking that we were foolish
[p.20]
for thinking that my brother could get out of the
immigration.
Q And did other attorneys give you different advice
or did they say the same thing?
A We did after that, we met with other lawyers,
there was a lawyer that my dad hired, I don’t know her
name, I don’t know her, but she said that she all she
could do was help my brother get out of since he
pleaded guilty, there was nothing that actually could be
done, but she said that there was a different way that
she could leave and not be too bad for him so there was
if since there was nothing for us to do, then we told her
to talk to my brother and see what was best.
Q And has your brother been able to legally come
back to the county since this?
A No.
MR. YBARRA: No further questions. Pass the
witness, Your Honor.
THE COURT: Mr. Kemper.

116a
CROSS-EXAMINATION
BY MS. KEMPER:
Q MS. Nunez-Diaz, I hear you telling us that you
are angry with the immigration lawyer, is that right?
A Yes.
[p.21]
Q Do you know what your brother was charged
with, the crimes?
A Yes, I do.
Q What was it?
A Drugs.
Q Do you know what kind?
Honor.

MR. YBARRA: Objection relevance, Your

THE COURT: What was the question again,
Mr. Kemper.
MS. KEMPER: I asked her if she knew what
her brother was charged with and what type of drugs
because that goes directly to what type of resolution he
could have gotten.
THE COURT: The objection is overruled.
THE WITNESS: No, I don’t know what kind.
The when we met with the lawyer, the lawyer, the
immigration lawyer, he did said if my brother was
found with marijuana, that it could have been easier

117a
for him to do it, but since there were other drugs
involved, that he couldn’t do nothing.
Q BY MS. KEMPER: How old is your brother?
A He is 28.
MS. KEMPER: No further questions.
THE COURT: Mr. Ybarra.
[p.22]
MR. YBARRA: No questions.
THE COURT: Thank you.
Ms. Nunez-Diaz, you can step down.
MR. YBARRA: Defense rests, Your Honor.
witness?

THE COURT: Mr. Kemper, do you have any

MS. KEMPER: I did. MS. Cassels which
appears telephonically. I thought we were doing Skype
and so I told her she can appear telephonically so I.
THE COURT: She is out of state.
MS. KEMPER: Yes, ma’am. She lives in
California now and she has been standing by all day
today for this.
THE COURT: She is not going to be able to
call in. Can she call in on your phone?
MS. KEMPER: Yes.

118a
THE COURT: Mr. Ybarra you are aware she
was appearing telephonically?
MR. YBARRA: Yes, Your Honor. I we just
assume that my client would be on Skype and then her
client will call on the phone.
And if too much of a problem, I can speak
with my client about waiving his presence for the last
witness or remaining on Skype. I think he can ask still.
THE COURT: Well, I don’t know if he is
[p.23]
available on Skype, he is available on the phone, why
don’t you check with him.
okay.

MR. YBARRA: Your Honor, he says he is

Your Honor, I spoke with my client, he said
he’s okay waiving his presence for the last witness so
we can get Ms. Cassels on the phone.
THE COURT: So he understands that he will
hang up and then the rest of the proceedings will
proceed without him?
MR. YBARRA: That is correct, Your Honor.
And I did tell him I’d get him a copy of the transcript at
a later point. Yes.
excused.

THE COURT: Okay. Mr. Nunez Diaz, you are
THE INTERPRETER: Thank you.

119a
THE COURT: All right. You are welcome.
MS. KEMPER: She should be calling.
THE INTERPRETER: The interpreter is
excused, Your Honor?
you.

THE COURT: And interpreter excused, thank

MS. KEMPER: She’s calling into the 5061887, is that -THE bailiff: That is this one.
[p.24]
MS. KEMPER: Well, I thought so. Just a
second let me see what is going on.
Your Honor, I’d like to just like to place a call
to her and see why she’s not.
THE COURT: Go right ahead.
MS. KEMPER: Thank you.
Judge, Ms. Cassels is calling in.
THE COURT: And, Ms. Cassels, this is
commissioner Miller, can you hear me?
MS. CASSELS: I can hear you a little bit.
Good afternoon.
THE COURT: Good afternoon.
You are in court and we are in the -- we just
finished with the defense’s case now. The state is

120a
presenting its case. Ms. Kemper is here representing
the state and I will need for you to raise your right
hand so that my clerk can swear you in.
JULIA CASSELS
Called as a witness herein, having been first duly sworn,
was examined and testified as follows:
THE COURT: Put it on speakerphone. Let
her be on speaker.
All right, Ms. Kemper.
[p.25]
MS. KEMPER: Thank you, Your Honor.
DIRECT EXAMINATION
BY MS. KEMPER:
Q Ms. Cassels, will you please state your full
name?
A I am having a hard time hearing you.
THE COURT: Ms. Kemper, you are welcome
to go to the podium.
MS. KEMPER: Certainly.
Q BY MR. KEMPER: Is that better, can you hear
me?
A That is better.
Q Okay. Will you please state your full name.
A Julia Bass Cassels.

121a
Q And how are you employed? Did you hear the
question?
A I am sorry, it is really echoey.
THE COURT: Hang up the phone and press
the speaker.
Q BY MR KEMPER: Are you still there?
A I am here.
Q All right. Are you an attorney?
Ms. Cassels, can you hear me?
A Now I can. Yes.
Q Okay. How are you employed?
[p.26]
A I am recently self-employed, I own my own law
firm.
Q How long have you been a lawyer?
A I was admitted to the Arizona bar
[p.27]
May of 2002.
Q Have you ever represented Hector Nunez-Diaz?
A Yes.
Q When was that?
A It was in the summer of 2013.

122a
Q And at that time, what type of practice did you
have?
A I was at that time working on a contract basis
for Alcock and Associates.
Q Did you handle criminal cases?
A Yes.
Q Was Mr. Nunez-Diaz a criminal case client?
A Yes, he was.
Q Do you recall meeting with him?
A Yes, I remember meeting with him on a number
of occasions.
Q And can you recall what he was charged with?
A He had two different counts, there was
possession of narcotic drugs, and a possession of
dangerous drugs, both of class 4 felonies, it was cocaine
and methamphetamine specifically.
Q In your representation of Mr. Nunez-Diaz, what
would you say his goal was for these charges?
A He was hopeful for a reduction in charges that
could lead to the best possible resolution for his
[p.28]
immigration situation.
Q Did you try to achieve that goal?
A I certainly did.

123a
Q What did you do?
A Initially the plea offer that I received from the
state indicated he had an option, either plead guilty to
a class 6 open felony for a possession of drug
paraphernalia or that he was eligible for Tasc.
Tasc, excuse me, will have been the best
option for him. And I pursued trying to get him into the
Tasc program, but unfortunately due to their rules or
policies, he was being deemed ineligible.
Q And you determined that by speaking with
someone who worked for Tasc?
A Yes, I did. I e-mailed the woman who was the
administrator, then I met with her personally in her
office on the second floor of the court building.
Q Once. You learned that Tasc was not available,
what did you do next?
A I approached the assigned prosecutor on the
case, and requested a plea deviation to a solicitation
charge.
Q Were you successful in getting a plea deviation?
A I was informed by the prosecutor that she had
staffed it with her supervisor and the request was
denied
[p.29]
because Mr. Nunez-Diaz was in possession of two
different drugs and, therefore, they were unwilling to
make that modification.

124a
Q And those two different drugs, were those
methamphetamine and cocaine?
A Correct.
Q Did you explain this to Mr. Nunez-Diaz?
A I did. I explained it to him on two different
occasions as well as two to his family.
Q Did Mr. Nunez-Diaz ever tell you that he wanted
to go to trial?
A No. He indicated he did not want to go to trial.
Q Were you able to obtain a plea offer for him?
A Yes. He was then presented with the option of
accepting the offer to the drug paraphernalia as a class
6 open and he elected to accept that plea offer.
Q Did you tell him that there would be
consequences for his immigration status?
A Yes, absolutely.
Q How familiar were you at that time with the
requirement under Padilla P. A. D. I L. L. A. versus
Kentucky?
A Padilla was decided I believe in 2010 and it was
the subject of a great deal of conversation and C. L. E
[p.30]
training in the following month after it happened.
I attended the C. L. E. classes. I additionally had
a copy of the a chart, the lengthy chart that was the

125a
prepared by the Florence immigration project to assist
criminal lawyers in and clients with clients who have
immigration concerns.
Q Did you use that chart with Mr. Nunez-Diaz?
A I consulted with the chart when I was
negotiating the plea deviation. I also spoke with one of
the immigration attorneys who were employed by the
firm about his case.
Q So when you were not able to get a solicitation
offer, and you had a client who did not want a trial,
was this then the best alternative you could attain?
A Yes, this is absolutely the best result that I
unfortunately it carried the immigration consequences.
Q Do you recall meeting with Mr. Nunez-Diaz’
family at your office at Alcock and Associates?
A Yes, I met with them on at least one occasion
formally. And there perhaps were a couple of other
times when I would see them more informally, they
had a lot more contact with my assistant at the time.
Q Were you retained to handle the immigration
cases in addition to the criminal case?
A No. I referred the family to speak with
[p.31]
Mr. Jordan Clegg, C. L. E. G. G. He was the head of the
firm’s immigration department and he met with them
for a consultation. They ultimately did not hire the firm
for the immigration portion.

126a
Q Returning now to the plea agreement, did you
review the plea agreement with your client?
A Sorry, I think you cut out there at the end. All I
heard was did you review the plea agreement with.
Q Your client?
A Yes, I did. I reviewed the general nature of it and
then once I had the written plea agreement, I went
over it paragraph by paragraph with the court
interpreter’s assistance.
Q Did you have any concern about Mr. Nunez-Diaz’
ability to understand the agreement?
A No, not at all.
Q I now want to turn to the actual entry of the
plea?
A Yes.
Q You’re familiar with early disposition court, is
that correct?
A Very much so, yes.
Q Are you familiar with a group advisement that
is given to all of the defendants on the calendar?
A Yes. Early in the morning the court pulled all
[p.32]
the defendants into the courtroom and reads them
their constitutional rights for people who are
contemplating accepting a plea and that recitation of
rights also includes an immigration advisement.

127a
Q In your review of Mr. Nunez-Diaz case, was he
given that group advisement?
A I am aware that he was because I attempted to
go up and speak with him in the holding area and was
advised that I needed to come back in a few minutes
because they were still in group and that was early in
the morning shortly before nine o’clock.
Q And that same morning, did you and Mr. NunezDiaz stand before the court and enter his guilty plea?
A Yes, we were able to enter his plea and proceed
with sentencing later that morning.
Q And during the sentencing proceeding, was there
a time when you referred to his custody status as being
in limbo?
A Yes, I asked the court to allow the adult
probation department to determine the start date for
his fees and fines that were being imposed because it
was unknown when he we would be released from
custody.
Q And that was unknown because of what?
A It was unknown because he had an ICE hold.
[p.33]
Typically when a defendant is sentenced and they have
no further time that they need to serve for their
sentence and they don’t have any hold, they will be
processed out of the jail in usually about 24 hours.
When someone has a hold, they then get transferred to
that other facility and they need to go through steps of

128a
that process so at that time I have had no idea of
knowing when he would be released from custody.
Q Did you know what Mr. Nunez-Diaz’ view on
being held in the Maricopa County jail was?
A He and his family, well, expressed to me that he
was really unhappy there. He was in the Durango jail,
the conditions are tough, the food is not great. And it is
hard for his family members to visit and I remember
his sister was very concerned about him. I believe her
name is Maria.
Q You stated that you are familiar with some of the
consequences of a plea agreement as they affect
immigration status, is that correct?
A Yes.
Q You mentioned that there are two types of
processes, voluntary departure is one, is that correct?
A Yes, voluntary departure is one of the ways for
a person to resolve their immigration matter.
Q What is the other one?
[p.34]
A A person can also apply for some forms of relief,
have an asylum claim, they may be eligible for
cancelation of removal or may chose to go through and
the entire proceeding and until the point of at which
the judge order them to be removed. I am speaking
generally in that matter.
Q Right. And I’m asking you a hypothetical
question, and drawing on your experience, if someone

129a
wanted to complain about their state court lawyer
during immigration proceedings, what would be the
best way to do that?
A Generally, a person who is pending an
immigration matter, if it comes to light that there has
been a problem with the proceedings in the criminal
case, they can ask for a stay of the immigration
proceeding in order to address the issue in the criminal
case.
You can do that when in court in the state
court via the Rule 32 or the federal court via Higgins
petition under section 2255.
Q During your representation of Mr. Nunez-Diaz
did, were you ever told by him that you had failed him?
A No, absolutely not.
MS. KEMPER: Pass the witness.
THE COURT: Thank you.
Mr. Ybarra?
[p.35]
MR. YBARRA: Thank you.
THE COURT: Is it Ybarra Maldonado?
MR. YBARRA: Ybarra Maldonado, yes.

130a
CROSS-EXAMINATION
BY MR. YBARRA:
Q Mr. Cassels, how long have you been employed
or contracted to work at Alcock and Associates when
you took Mr. Nunez-Diaz’ case?
A I started working for Mr. Alcock August of 20,
sorry, August of 2012.
And his case was in July of the following year
so a year almost.
Q So for a year, you had been doing E. D. C., R. C.
C. court?
A Definitely for a year there and additionally from
the time that I started practicing Maricopa County in
2002.
Q Did you previously work for the public defender’s
office?
A I did for three years.
Q And at what point did you learn that the plea
that he accepted is essentially the kiss of death in
immigration?
A In regard to Mr. Nunez-Diaz specifically or
[p.36]
generally?
Q Generally. Specifically, that what he pled to,
that it is a, you are not going to get any traction in
immigration court, when did you learn that?

131a
A I have been aware of that for quite some time
through various family proceedings and through my
own work in other cases.
Q So it is prior to representing Mr. Nunez-Diaz,
correct?
A Oh, yes, for sure.
Q And you said that you also talked to immigration
attorneys at your office about his case?
A I did.
Q Why would you do that if you are already certain
it was not a good plea for immigration?
A It was the policy of our office that we need to do
immigration consultations informally for lawyers to be
sure that we are getting the best possible result and to
stay up to date with any changes in the law.
Q So on every single case you’ve handled, you
consulted with an immigration attorney within the
office on that specific case?
A Yes. And we will also regularly have group
meetings and e-mails about immigration consequences
for our criminal clients.
[p.37]
Q And in July of 2013, how many clients were you
representing?
A I’m not sure. There was were probably active
cases in the area of 30.

132a
Q And you felt or did you feel you had enough time
to work on all your cases and meet with all your
clients?
A Yes, for sure.
Q And you also submitted letters and even motions
to the court about this case, didn’t you?
A Yes.
Q And in that letter, did you state that you
explained to him clearly that he will get nowhere in
immigration court with this charge?
A Sorry, I don’t understand.
Q In the letter, if you remember, what did you say
in regards to the consequences in immigration court?
A I said that he would be facing definitely
consequences in immigration court and the situation
was very difficult.
Q That is what you put in your letter?
A Not sure what letter exactly you are referring to.
Sorry.
Q Okay. Do you remember writing a letter dated
January of 29th of 2015?
A Yes, I do.
[p.38]
Q Okay. Do you possibly have that the in front of
you?

133a
MR. YBARRA: Your Honor, it has been
marked as defense exhibit B. B. as in boy.
A If I can pull it up on my computer.
Q So if you can read to us the second paragraph,
that looks like the third sentence starts with that the
jail visit, do you see that, Ms. Cassels?
A Sorry, which paragraph are you on?
Q The second paragraph, the second full paragraph
and looking for the sentence that starts with at a jail
visit on July 12?
A Yes.
Q Can you read the sentence for us, please?
A At the jail visits on July 12 of 2013, I explained
to Mr. Nunez-Diaz with the assistance of an interpreter
that his charges in the plea that had been offered could
have consequences in the immigration proceedings due
to his status.
Q Now, you had just testified that you said with
certainty, it would have consequences, not that it could
have consequence, is that correct?
A Yes.
Q So is there a difference between could have
consequences and most certainly will have
consequences?

134a
[p.39]
A On July 12th, I was not aware of whether or not
he would be eligible for Tasc so I explained the
difference between a paraphernalia plea, a solicitation
plea and being able to enter into Tasc.
Q Okay. So when did you find out he cannot get
into Tasc?
A I sent the e-mail on the 15th, I believe a couple
of days before his court appearance and then I spoke
with the representative the morning of his hearing.
Q So the morning of his hearing, did you advise
him that it would certainly have immigration
consequences?
A Yes, I did.
Q Okay. If you can go down to the 4th paragraph in
that same letter, and read to us the third sentence with
I again advised him?
A I again, sorry, I again advised him that a plea
could have consequences for immigration.
Q So again you write here, could have
consequences for immigration, not will certainly have
consequences in immigration. Is that correct?
A That is what I wrote, correct.
Q Okay. So when you were writing here it says
after on July 22nd, that is what you told him so are we
to understand that is what you told him or are we to

135a
[p.40]
believe what you are saying now?
A What I am saying is that I advised him that the
different plea offer would have immigration
consequence. Those consequences would differ based on
which of the pleas he ultimately was able to enter.
Q But in this paragraph, you said on July 22nd of
2013, I reviewed the written document with him and I
again advised him that it could have consequences so
you are specifically referring to the plea, are you not?
A Yes, I am referring to the plea.
Q But you neglected to put in there it will with
certainty have immigration consequences?
A That is what I wrote.
Q And when you wrote it, you wanted to be very
careful because you knew it was being used in a Rule
32 proceeding, did you not?
A Yes, I did.
Q Now, Ms. Kemper the state’s attorney asked
about using the word limbo, do you remember using the
word limbo in front of the commissioner?
A I don’t recall that. However, I saw it in the
transcript that you sent to me earlier this afternoon.
Q So it has been marked as defense exhibit C.,
Your Honor for identification.
So if you can turn to page 11, which is

136a
[p.41]
bate stamped as bates 11, Ms. Cassels, in that
document?
A Yes.
Q Could you read to us the part at the bottom
starting on line 19 where you say ,I also ask and to line
22?
A One second to pull it up.
On page 13.
Q Yes, page 11, sorry, bate stamped page 11, line
19?
A Reading from the transcript, I also ask that you
allow the probation department to make a
determination as to when payment on the fines should
begin given that Mr. Nunez-Diaz is in a little bit of
limbo as to what his custody status will be in the next
little bit here.
Q Now, I heard you try to explain that, but it didn’t
make any sense to me so please help me clarify, what
is the little bit of limbo that he was in?
A His release date would be uncertain.
Q You have been working in E. D. C. and R. C. C.
for how long?
A For a long time.
Q And you had plenty of undocumented clients
with ICE holds, have you not?

137a
A Yes, of course.
Q So you knew that they were picked up very
[p.42]
quickly, did you not?
A Yes.
Q So what is limbo? What is a little bit of limbo?
Wasn’t it a certainty that ICE was going to come get
him?
A It was ceratin that ICE would pick him up,
however, it was uncertain as to how long he will be in
ICE custody.
Q So a little bit of limbo as to what his custody
status will be in the next little bit here, is it more
accurate to say that certain he will go with
immigration and certain he will be either involuntary
departure or deported from the country?
A Yes.
Q And then further down, line 25, you speak about
his family, could you read to us starting at line 24, that
sentence starts with and they are very concerned?
A And they are very concerned about him and they
will do everything they can to assist him once he’s
released.
Q So once he is released, I mean, lawyer terms, he
can say you mean released to Mexico, is that what you
meant when you said those words?

138a
A That is what I meant.
Q And then Mr. Nunez-Diaz, your client at the
time
[p.43]
you were representing goes on to say I on page 12, I am
remorseful and I did learn my lesson and I would like
to be released. That is all. Now, at that point, do you
remember when you heard that?
A Not specifically, but yes that is something in the
transcript.
Q When you are in court with your client, they are
being sentenced and they are speaking, do you listen to
what they are saying?
A Of course, I do.
Q Because it is your job to give that person advice?
A Of course.
Q It is your job to make sure they know what is
going on in their case?
A Absolutely.
Q So when you hear the words and I would like to
be released, did anything click in your mind that, hey,
maybe I should explain to my client that judge doesn’t
have the power to release him?
A Well, he was aware he was being released from
the custody of the sheriff and to immigration custody.
He was very unhappy with the conditions in the

139a
Durango jail so, no, that did not set off a red flag to me.
I knew he was anxious to get out of the Durango jail.
[p.44]
Q So you thought he was just saying release to
immigration as fast as you can?
A That was what I understood, yes.
Q And what efforts again did you make to get the
solicitation offer?
A I spoke to Ms. Pedicone about, the assigned
county attorney about the fact that Tasc was finding
him ineligible and requested that based on the
circumstances of the case, the fact that he had that
prior criminal history, he had strong family support,
that he consider a plea to solicitation.
Q That was to who again, sorry?
A I believe the County Attorney who was assigned
to the case was Erin Pedicone.
Q And you did that in e-mail you said?
A I spoke to her in person.
Q And you have done deviation requests before in
the past?
A Yes, at length.
Q Have you ever taken the time to write them
down?
A Yes. Yes, of course.

140a
Q You ever attach the letter from the family?
A Yes.
Q Did you do that in this case?
A In this case, we found out he was not eligible
[p.45]
for Tasc on that day. I have the letters already with me
and prepared to be submitted to the court. And so I
showed Ms. Pedicone his letters when I discussed the
family support and but, no, in this situation I did not
submit a written deviation request because we were
there present in court and Mr. Nunez-Diaz was anxious
to resolve his case.
Q And on the E. D. C. plea offer sheet, did you
request solicitation?
A I don’t recall if I wrote it on the sheet. I do know
that I spoke to her about it.
MR. YBARRA: No further question.
THE COURT: Mr. Kemper.
MS. KEMPER: Thank you.
REDIRECT EXAMINATION
BY MS. KEMPER:
Q So back on July 12, you did not know at that
time for certain that Mr. Nunez-Diaz would not be
eligible for Tasc, is that right?

141a
A Correct. I did not know for sure. I had mentioned
to him that I was concerned about it. Due to my
experience in other cases, but that I would certainly
speak with the representative again and try to get him
into the program.
[p.46]
Q When you used the phrase, could have
consequences for immigration, and now on speaking
about your letter of January 29 of 2015, and that would
be the fourth paragraph, could you expound on that a
little bit for us?
A Any of the three plea agreements were going to
have different consequences.
If you were able to enter into Tasc, and have
the deferred prosecution, then he would be in a much
different situation with immigration because he will
not have a conviction on his record.
If he were to enter a solicitation plea, he
would be in a much better situation in terms of
immigration court because of the way that the laws
deal with solicitation language.
So my point was that each of the three things
have different consequences. And which consequence
he will suffer wouldn’t be known until we were clear
which plea we can get the state or the Tasc program to
agree to.
Q And wouldn’t you say that that is true anytime
you are advising a person charged with a crime that
there are various options?

142a
A Generally, yes.
Q So really what matters here is perhaps not what
[p.47]
was written in a letter, but what you told Mr. NunezDiaz?
A Yes, I will agree with that.
Q And what you told Mr. Nunez-Diaz just, so that
we can all refresh our recollection after having sort of
taken those detours, was on the day that he was
signing the plea agreement, what did you tell him
about immigration?
A That after his sentencing, he would be released
to ICE custody. At that point, he would make -- have to
make a decision about how to proceed with his case,
whether he wanted to attempt to do voluntary
departure, whether he had some other claims for
release that he could pursue. Or exactly how he wanted
to handle that part of his matter.
Q So you were using the word release with Mr.
Nunez-Diaz in the way that we have used it here in the
courtroom today meaning not that you get to walk out
on to the street, but that you go from one custody
situation to another?
A He absolutely knew that he was going to
immigration custody, as did his family because we
discussed how long it would take for him to be
transported, roughly, and what to expect in those days
to follow.

143a
[p.48]
Q And you were standing with him when the plea
colloque was being given, right?
A Yes, of course.
Q And if there has been any doubt in your mind
whether he was doing this knowingly, voluntarily and
intelligently, would you have done something?
A If I had any concerns that he wasn’t
understanding, I would have stopped the proceedings
and asked to a either reset the matter or have a few
moments to speak with him.
Q And did you -A I would have addressed it.
Q Did you have any concern that day that he didn’t
understand the consequences?
A I was confident he understood the consequences.
MS. KEMPER: No further questions.
THE COURT: Thank you.
MS. Cassels, I have a couple of questions for
you, this is Commissioner Miller.
Did you ever talk to MS. Pedicone, about a
solicitation offer?
THE WITNESS: Sorry, it’s a little bit hard to
hear you, can you repeat that.

144a
THE COURT: Did you ever talk to MS.
Pedicone about a solicitation offer?
[p.49]
THE WITNESS: Yes, I specifically requested
if she can amend the plea offer to a solicitation charge.
THE COURT: And was the state willing to
amend it to a solicitation charge at that time?
THE WITNESS: I was told no because he was
in possession of two different drugs.
THE COURT: All right.
THE WITNESS: They were not willing to
make that amendment in that situation.
THE COURT: All right.
Ms. Kemper, any additional questions?
MS. KEMPER: No, thank you.
THE COURT: Mr. Ybarra Maldonado, any
questions?
MR. YBARRA: No, Your Honor, thank you.
THE COURT: All right. Thank.
You Ms. Cassels, you are excused.
MS. CASSELS: Thank you.
THE COURT: Any additional witnesses?
MS. Kemper.

145a
MS. KEMPER: Your Honor, MS. Pedicone
was in trial, the state is going to rest, thank you.
THE COURT: All right.
Maldonado, any rebuttal witnesses?

Mr.

Ybarra

MR. YBARRA: No, your honor, defense rests.
[p.50]
THE COURT: All right. Thank you.
Any argument, Mr. Ybarra Maldonado?
MR. YBARRA: Thank you, Your Honor.
I believe we have met our burden of showing
that Mr. Nunez-Diaz relied on the advice of his
immigration of his defense counsel that it would not
have immigration consequences and that is the sole
reason why he accepted the plea agreement.
I heard from the family members who the
only reason that they hired Alcock and Associates was
so that their loved one could stay in the country. They
were forced to pay thousands of dollars to get the same
results that the public defender would have got, but
probably with better advice in the public defender’s
office than they got from Alcock and Associates.
And I think it is clear that Mr. Nunez-Diaz
was not aware. He did of course hear Your Honor say
the immigration consequences, he did read that in the
plea agreement as he admitted and but the most
important evidence is him saying I relied on my
attorney telling me that it would not have immigration
consequences.

146a
MS. Cassels, as she testified was well aware
of the time that this plea would have severe
immigration consequences, as she wrote in her letter to
the court that she advised her client, it could have
[p.51]
immigration consequences.
That is very key, your honor. I think on that
alone, we should win this case. Based on the Padilla
case and subsequent case law about the importance of
advising clients with certainty what the immigration
results would be.
She knew that results would be, she
neglected to clearly explain that to the client even
months later on when she knew she was being
investigated, when she knew there was a microscope on
her, she writes a letter to the court and doesn’t say
with certainty I informed him this was going to be the
result. She specifically says, I informed him it could
have immigration consequences.
Now she said is that on July 12 and I can
understand if her explaining, well, I am still trying to
get solicitation, still trying to get Tasc. Then, when you
go further down to that letter, when she says on July
22, when I was explaining to him the plea that she
signed, I said it could have consequences and that is
not what she should have said. She should have said,
it will have immigration consequences.
Based on that fact, Your Honor, I ask the
court to grant our petition for petition for PostConviction relief.

147a
[p.52]
Addressing our additional argument simply
that the person should be given the immigration
advisement individually when they are in front of the
court and not in the morning ask if they simply
remember it, but of course, I will leave that to the
discretion of the court. I think our stronger argument
is the Padilla that she did not say with certainty the
result will have, when she knew and had consulted
with immigration attorneys in her office what the
results would be.
THE COURT: All right. Thank you.
Ms. Kemper.
MS. KEMPER: Your honor, in all Postconviction proceedings, there is a strong presumption
that counsel was ineffective.
So today, we have heard from MS. Cassels
about the efforts that she made. She met with the
defendant more than once, more than twice. She met
with the family. She tried to get a better offer, she met
with the person from Tasc. She couldn’t get it done
based on what he was found in possession of.
And it was because he was possessing two
drugs, cocaine and methamphetamine. That she
couldn’t get a deal that will have given him a little bit
of latitude relative to the immigration consequences.
This is a lawyer who testified that she was

148a
[p.53]
well familiar with the Padilla versus Kentucky
requirements, she had attended C. L. E. she even
referred to the family when they came to see her on the
immigration lawyer there in her office.
She did everything she could. So even if the
law didn’t require a strong presumption of effective
assistance, it is the state’s belief that MS. Cassels’
testimony demonstrates effective assistance.
The defendant heard it from his defense
lawyer, he heard it from this court and he saw it in the
plea agreement. Three times he was told that there
were potential immigration consequences.
He was told specifically by his lawyer that
there were immigration consequences. But the
defendant chose to go forward with the plea and telling
the it is, that he chose then to elect voluntary
departure, he didn’t want to stay and fight and
complain about the lawyer or seek a stay, no. He chose
voluntary departure. So, again, this dove-tails very
much with what Ms. Cassels was testifying to.
That once arrested, once in custody, the
defendant’s goal was to just get released into the next
custody situation and to be done with this.
He chose voluntary departure.
Your Honor, the grant of a Post-Conviction

149a
[p.54]
relief petition is truly resolved as the Carriger case, C.
A. R. R. I. G. E. R.
For the situation where justice is run its
course, but it has run awry, this is not that situation.
This defendant had all of the protections, he
all the advisement. Heard the plea agreement. He had
an attorney who was skilled and knowledgeable
standing at his side, who will have stopped the
proceedings if she had any doubt about his ability to
understand.
It is not this lawyer’s fault that this
defendant was caught with drugs of such a type that a
better offer wasn’t available and so for all of these
reasons, I will ask that you not grant the petition for
Post-Conviction relief.
THE COURT: And Mr. Ybarra-Maldonado.
MR. YBARRA: Your Honor, just we like to
emphasize that we didn’t bring a claim alleging
ineffective negotiations of a better plea. Ineffective
investigation of the case. Because we thought so
strongly that the immigration advice or misadvice was
such that was our winning argument, it is just as clear
as can be.
With regards to what can happen in the
future, I know Mr. Kemper and I have discussed this
before, and it is almost like, well, we win the case,

150a
[p.55]
then how do we get him back and he gets back, they
already said won’t give solicitation, they won’t do this
and won’t do that.
I will just ask the court to not take that into
consideration. To take into consideration what our
legal arguments are, what the constitution of the
United States says.
What the Supreme court said regarding the
Padilla case and its proginy. You find that there was
ineffective assistance and in my experience in doing
criminal immigration work in Phoenix, this is not the
first I have heard of Alcock and Associates law firm
giving misadvice to someone who is undocumented.
It is, unfortunately, very common within our
community.
MR. KEMPER: Your Honor, I will seek to
object to that. It is improper argument. There was no
evidence of adduced about Alcock and Associates, what
their practices are.
MR. YBARRA: That is, fine Your Honor, I
will retract that.
THE COURT: All right. Thank you.
Mr. YBARRA: I do want to state that if we do
get him back over here, it is now a different ball game.
Because when he was in custody, we still had Prop

151a
[p.56]
100. Prop 100 has since been ruled unconstitutional,
but now we can get him a bond, which should in fact
make him now eligible for Tasc.
Because the reason they were denying Tasc
because he had an ICE hold so get him back and I don’t
in other cases given the C. R. number. I have got the
person released to immigration custody, bonded out or
let out on the street by immigration, returned and say,
hey, this guy no longer has an ICE hold, he is out here
in the community and I know he is here and then there
should be and that should be, that has been sufficient
enough to get the Tasc offer.
Thank you, Your Honor.
THE COURT: You are welcome.
I will take this matter under advisement,
issue my ruling by way of minute entry.
Anything further from the state?
MS. KEMPER: No, Your Honor. Thank you.
THE COURT: Any further from the defense?
MR. YBARRA: Judge, thank you and your
staff for being very generous with the unbelievably
difficult technological problems.
THE COURT: You are welcome. It was an
experience for all of us.
Thank you.

152a
[p.57]
Can we, Ms. Kemper and Mr. Maldonado,
move to admit all the exhibits?
MS. KEMPER: Certainly.
objection.

MR. MALDONADO: Yes, Your Honor. No

THE COURT: Exhibits 1, 2 and 3 an are
admitted. Thank you .
[p.58]
I, Yvonne M. De La Torre, RPR, do hereby
certify that the foregoing pages constitute a complete,
accurate, typewritten record of my stenographic notes
taken at said time and place, all done to the best of my
skill and ability.
DATED this 2nd day of February, 2016.
_______/S/____________
Certified Reporter
No. 50470

153a

APPENDIX J
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
KAREN KEMPER
DEPUTY COUNTY ATTORNEY
State Bar No. 013368
State Bar Firm No. 0032000
301 West Jefferson Street, Fourth Floor
Phoenix, AZ 85003
Telephone: (602) 506-5780
MCAOMOD@mcao.maricopa.gov
Attorneys for Respondent
IN THE COURT OF APPEALS
STATE OF ARIZONA
DIVISION ONE
No. 1 CA-CR 16-______ PRPC
Maricopa County Superior Court
No. CR2013-430489-001
[Filed November 22, 2016]

154a
________________________________
STATE OF ARIZONA,
)
)
Petitioner,
)
)
v.
)
)
HECTOR NUNEZ-DIAZ,
)
)
Respondent.
)
________________________________ )
PETITION FOR REVIEW
The State of Arizona, through counsel undersigned,
asks this Court to accept review and to vacate
Commissioner Phemonia Miller’s grant of postconviction relief, the effect of which was to set aside
Respondent’s guilty plea. For all the reasons that
follow, relief was not justified.
Submitted this 22nd day of November, 2016.
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
By /s/ ___________________________
KAREN KEMPER
DEPUTY COUNTY ATTORNEY

155a
MEMORANDUM OF POINTS AND
AUTHORITIES
I. OVERVIEW –FACTUAL AND PROCEDURAL HISTORY
This petition for review arises from an of-right Rule
32 proceeding in which Respondent claimed he would
not have suffered immigration consequences if his
lawyer, Julia Cassels, had gotten him a better plea
offer or had done a better job explaining the
consequences of his plea offer. Respondent prevailed in
spite of the State’s opposition and without offering
evidence that the State would have offered a better
plea or a plea with fewer immigration consequences
than the one Respondent signed. The trial court
granted Respondent’s Rule 32 petition on December 30,
2015.The State then timely filed a motion for rehearing
under Rule 32.9(a).
Rehearing was sought for two reasons. The first
reason was a post-ruling clarification to Rule 32.8 that
had issued by the Arizona Supreme Court in State v.
Amaral, 239 Ariz. 217, 368 P.3d 925 (2016). Amaral
stated that a colorable claim requires more than a
showing that the alleged facts “might” have changed
the outcome. 239 Ariz. at ¶ 11. Here, the parties and
the trial court had relied upon the “might”-havechanged-the-outcome standard which originated in
State v. Schrock, 149 Ariz. 433, 441, 719 P.2d 1049,
1057 (1986). In Amaral the Arizona Supreme Court
determined that “[a] standard based on what “might”
have changed the sentence or verdict is inconsistent
with Rule 32 and most of the case law.” 239 Ariz. at
¶ 11. Therefore, the State’s request for rehearing gave
the trial court an opportunity to consider the

156a
recently-clarified proper standard under Amaral and
using that standard to then determine “whether he
[Rule 32 petitioner] has alleged facts which, if true,
would probably have changed the verdict or sentence.
If the alleged facts would not have probably changed
the verdict or sentence, then the claim is subject to
summary dismissal.” Id. The State contends that
application of Amaral to the relevant facts should have
resulted in summary dismissal.
The second reason for requesting rehearing was to
give the trial court an opportunity to review a
transcript of the Rule 32.8 hearing and other of record
facts.1 Simply put, the facts found by the trial court did
not track with of-record facts from plea proceedings
nor did the trial court’s factual findings square with
the relevant facts adduced at the Rule 32.8 hearing.
The State’s reply brief juxtaposed the trial court’s
factual findings with quoted passages from sworn
testimony. Again, the trial court was given an
opportunity to consider the actual testimony and
whether the court’s factual findings were supported by
testimony.
Oral argument on the motion for rehearing was
heard on August 23, 2016. The trial court took the
matter under advisement. On October 27, 2016, the
trial court affirmed its grant of relief without
commenting upon Amaral and without commenting
upon the discrepancies between objective, relevant
facts and the trial court’s factual findings.

1

A copy of the Rule 32.8 hearing transcript was attached to the
State’s rehearing reply.

157a
II. MATERIAL FACTS AND REASONS WHY REVIEW
SHOULD BE GRANTED
Review under Rule 32.9(c) is required because the
trial court’s legal and factual findings are an abuse of
discretion. As argued herein, if the following relevant
facts had been subjected to proper legal analysis, relief
would not have been granted.
! Respondent was caught with methamphetamine
and cocaine after he was stopped for driving in
excess of the speed limit.
! The only plea offer, despite defense counsel’s
request for a better offer, allowed Respondent to
plead guilty to
Possession of Drug
Paraphernalia, a class 6 felony. The factual
basis for the plea was that Respondent used a
dollar bill as a wrapper for his
methamphetamine. Under the plea agreement,
the State agreed to dismiss the class 4
methamphetamine charge and the class 4
cocaine charge.
! Respondent chose to accept the State’s plea
offer rather than proceed to trial.
! Had Respondent gone to trial he risked
convictions on both counts. His risk of conviction
was likely. Respondent had not asserted any
defenses to the charges, and given the strength
and simplicity of the State’s case, conviction on
both charges was a substantial risk.

158a
The record before the trial court did not justify a
finding that Respondent was prejudiced by defense
counsel’s representation. The State’s offer was its best
and only offer. Defense counsel should not have been
found ineffective for being unable to obtain a better
offer where no better offer existed.
III.

ISSUE INCORRECTLY DECIDED BY TRIAL COURT

The trial court framed the issue as follows:
“The issue before the Court is whether
Defendant’s counsel was ineffective. Deciding
this issue is a question of credibility on the
facts.”
(Minute Entry 12/30/2015 at 3.)
IV.

STANDARD OF REVIEW

An error of law committed in reaching a
discretionary conclusion may, constitute an abuse of
discretion. State v. Wall, 212 Ariz. 1, ¶ 12, 126 P.3d
148, 150 (2006). A trial court abuses its discretion when
the reasons given by the court for its decision are
clearly untenable, legally incorrect, or amount to a
denial of justice. State v. Chapple, 135 Ariz. 281, 297
n. 18, 660 P.2d 1208, 1224 n. 18 (1983).

159a
V.

FACTUAL FINDINGS UNSUPPORTED BY THE
RECORD AND ERRANT LEGAL ANALYSIS LED TO
AN ABUSE OF DISCRETION.

A. The trial court succumbed to a wholly
subjective inquiry in which objective, of-record
facts were discounted or ignored.
Respondent’s petition for post-conviction relief
invited the trial court to speculate that there could
have been a better plea offer and that if there had been
a better offer a better result would have attained.
Respondent’s Rule 32 petition alleged that his lawyer,
Julia Cassels, should have obtained a better plea
agreement for him, but offered no proof that a better
offer could have
been
attained. Furthermore,
Respondent’s Rule 32 petition was based upon an
impossibility of fact. Respondent asserted that if he
“could have pled to Solicitation to Possess Marijuana”
he would have been bond eligible. (Rule 32 Petition at
5.) Respondent ignored the fact that he did not possess
marijuana. In his prayer for relief, found on page 13 of
his petition, he concludes with this request: “As a
result of Ms. Cassel’s [sic] deficient performance as
counsel, Mr. Nunez Diaz requests that this Court allow
him to withdraw from his plea to allow him to plead to
a different offense that will not place him in removal
proceedings and subject him to mandatory detention.”
Respondent’s prayer for relief ignores the separation of
powers doctrine that would prevent a judicial branch
superior court judge from forcing an executive branch
prosecutor to offer a plea. See Andrews v. Willrich, 200
Ariz. 533, ¶¶ 7-8, 29 P.3d 880, 882-83 (App. 2001).

160a
The State’s response, filed October 24, 2015, cited
case law requiring a Rule 32 petitioner to provide an
“allegation of specific facts which would allow a court
to meaningfully assess why that deficiency was
material to the plea decision.” State v. Bowers, 192
Ariz. 419, ¶ 25, 966 P.2d 1023, 1029 (App. 1998) The
State also cited petitioner’s burden of presenting
evidence of a “provable reality, not mere speculation.”
State v. Rosario, 195 Ariz. 264, ¶ 23, 987 P.2d 226, 268
(App. 1999). In making its findings, the trial court
disregarded controlling authority. The following bullet
points are all verbatim quotes from the trial court’s
December 30, 2015, minute order:
! The Court finds that defense counsel
misrepresented the immigration consequences to
defendant.
! Counsel was well aware that the defendant and
his family were
concerned about the
immigration consequences because of
defendant’s status in the United States.
! One of the main reasons Alcock and Associates
was retained was because defendant’s family
was told there would be no immigration
consequences.
! Counsel referred defendant’s family to an
immigration attorney; however, counsel failed to
refer the defendant to an immigration attorney
prior to him entering into the plea.
! An immigration attorney from counsel’s firm
could have easily spoken to the defendant about
the immigration consequences.

161a
! Based on the evidence presented, this court
finds that counsel’s actions fell below an
objective standard of reasonableness.
The trial court’s findings intertwined conduct
allegedly committed by
un-hired immigration
attorneys with the conduct of Respondent’s attorney,
Ms. Cassels. Yet, the trial court’s conclusion laid
deficient performance at the feet of only one lawyer:
“[t]he Defendant presented overwhelming evidence
that his court appointed attorney’s actions fell below an
objective standard.” (Minute Entry 12/30/2015 at 4.)
This conclusion discounted the State’s record of
objective evidence from the change-of-plea proceedings,
the plea agreement itself, and Respondent’s testimony.
The trial court instead favored the subjective thoughts
and beliefs of Respondent’s sister, Maria Josefina
Nunez-Diaz. There can be no doubt about the trial
court’s assessment of the evidence because the trial
court said it was so: “In this case, the State’s evidence
was directly contradicted by the Defendant’s witness,
Maria Josefina Nunez-Diaz.” (Id. at 3-4.)
In contrast to the trial court’s findings, the State’s
evidence was adduced from two sources, the
change-of-plea proceedings and the Rule 32.8 hearing.
This is the State’s evidence:
Change of Plea Proceedings, July 22, 2013
! On July 22, 2013, Respondent waived his
preliminary hearing and was present for the
immigration-consequences group advisement
given to those defendants entering a guilty plea.

162a
! That same morning, July 22, 2013, Respondent
pled guilty to possession of drug paraphernalia.
The factual basis for his plea was that he used a
dollar bill as a wrapper for the
methamphetamine. (RT 07/22/2013 10:57 a.m. at
9.) As a result of his agreement with the State,
the dangerous drug charge was amended and
the narcotic drug charge was dismissed.
! Respondent’s written plea agreement included
standard paragraph number 8, which states: “I
understand that if I am not a citizen of the
United States that my decision to go to trial or
enter into
a plea agreement may have
immigration consequences.
Specifically, I
understand that pleading guilty or no contest to
a crime may affect my immigration status.
Admitting guilt may result in deportation even
if the charge is later dismissed. My plea or
admission of guilt could result in my deportation
or removal, could prevent me from ever being
able to get legal status in the United States, or
could prevent me from becoming a United States
citizen. I understand that I am not required to
disclose my legal status in the United States to
the court.”
! After asking Respondent a series of questions,
all part of the plea colloquy, the court deemed
Respondent’s guilty plea knowingly,
intelligently, and voluntarily made and then
accepted it and entered it of record. (Id. at 10.)
...

163a
Rule 32.8 Evidentiary Hearing, October 27, 2015
! Respondent testified at the Rule 32.8 hearing that
his lawyer promised him there would be no
immigration consequences. However, he recalled
the judge asking him whether anyone had
promised him anything and he recalled telling the
judge there were no promises. (RT 10/27/2015 at
10, 12-13.) (Emphasis added.)
! The State marked the plea agreement as an exhibit
at the hearing and used it, without objection, during
cross-examination of Respondent. (RT 10/27/2015 at
11.)
! Respondent admitted that the day he appeared in
court for his change of plea, there was already an
immigration hold on him. (RT 10/27/2015 at 13.)
! Respondent pled guilty and was sentenced the same
day, receiving an unsupervised probation grant.
Soon thereafter he was sent to an immigration
detention center. Once there, he did not fight his
case, but instead agreed to voluntary departure.
(RT 10/27/2015 at 8.)
! Respondent’s defense attorney, Julia Cassels,
testified that her client was not eligible for deferred
prosecution under the TASC program due to his
undocumented/illegal status, so she tried to get a
better plea offer from the assigned prosecutor. (RT
10/27/2015 at 28.)
! Ms. Cassels further testified that the assigned
prosecutor told her the case had been staffed with
a supervisor and that Ms. Cassels’ request for a

164a
better offer had been denied because the defendant
had possessed both methamphetamine and cocaine.
(Id. at 28-29.)
! Ms. Cassels testified that her client told her he did
not want to go to trial. (Id. at 29.)
! In response to whether she told her client there
would be immigration consequences, Ms. Cassels
testified, “Yes, absolutely.” (Id.)
! Respondent’s sister testified that an immigration
lawyer named Frank drew a diagram explaining
that a criminal case and an immigration case “were
two different cases” and “needed two different
lawyers”. (Id. at 16.)
! Respondent’s sister admitted that they did not hire
Frank. (Id. at 17.)
! After Respondent pled and was sentenced,
Respondent’s sister was told by Ms. Cassels that it
was now in immigration’s hands. (Id. at 18.)
! Respondent’s sister testified that after her brother’s
guilty plea she “met with another lawyer” whose
name she did not know and he told her “there was
nothing to do for my brother.” (Id. at 18-19.)
(Emphasis added.)
The State’s evidence was replete with objective
evidence from the change-of-plea proceedings as well as
sworn testimony. The trial court’s factual findings
omitted the objective evidence in favor of subjective
testimony from Respondent and his sister which, at
times was even rejected in favor of a narrative not

165a
supported by the State or Respondent. An example of
the former is the trial court’s acceptance as fact that
Respondent was promised there would be no
immigration consequences if he pled guilty.
Apparently, the trial court rejected the fact that
Respondent avowed to the court, on the record, at the
change of plea that no promises had been made to him.
An example of the latter is the selective nature of the
trial court’s factual findings and conclusion that
consultation with an immigration lawyer occurred
after the change of plea and was, therefore, too late.
This conclusion ignores testimony by Respondent’s
sister that a lawyer named “Frank” initially drew a
diagram and explained the difference between an
immigration case and a criminal case. The trial court’s
conclusion also ignores the clear meaning of the word
“another”-- a word that Respondent’s sister used when
she testified that the family met with “another lawyer”
after sentencing.
The State contends that Respondent failed in his
Rule 32 petition to state a colorable claim for relief and
that he failed at his Rule 32.8 hearing to sustain his
burden. Respondent’s failures were overlooked by the
trial court and therein lies an abuse of discretion.
As the State urged in its response to the Rule 32
petition, a colorable claim of ineffective assistance of
counsel requires a defendant to show that counsel’s
performance fell below objectively reasonable
standards and that the deficient performance
prejudiced him. Strickland v. Washington, 466 U.S.
668, 687 (1984). It was incumbent upon Respondent to
demonstrate that he would not have pled guilty but for

166a
counsel’s deficient performance and to do so he must
provide “specific facts which would allow a court to
meaningfully assess why that deficiency was material
to the plea decision.” State v. Bowers, 192 Ariz. 419,
¶ 25, 966 P.2d 1023, 1029 (App. 1998). Those specific
facts must rise to the level of evidence that is a
“provable reality, not mere speculation.” State v.
Rosario, 195 Ariz. 264, ¶ 23, 987 P.2d 226, 268 (App.
1999).
Respondent’s Rule 32 petition was based upon
speculation and “what ifs” rather than provable
realities. He claimed to have been “under the
impression” that his plea would “minimize his exposure
in immigration court.” (PCR Petitioner filed 09/09/2014
at 11.) Yet, by his own admission, his exposure in
immigration court was limited to voluntary departure,
rather than deportation. The relief he sought in his
petition was for the trial court to order a better plea
offer. (Id. at 13.) As argued earlier, his request, had it
been honored, would have violated the separation of
powers doctrine.
Here, there are five provable realities with their
attendant specific facts: 1) Respondent was caught
with
dangerous drugs and narcotic drugs, not
marijuana; 2) The State’s offer of a Class 6
undesignated felony was the most lenient offer the
State was willing to tender; 3) Respondent’s attorney
was aware of Respondent’s immigration status and she
tried to get him a better offer, but to no avail;
4) Respondent was aware of immigration consequences
and the record demonstrates that his attorney told him,
the court told him and the plea agreement warned him

167a
about possible immigration consequences, yet he chose
to enter a plea rather than risk going to trial and being
convicted of two class 4 felonies; and 5) The risk of
being convicted at trial, on these facts, was a
significant risk.
The State maintains that what Respondent’s sister
thought or believed is not relevant. The trial court
viewed Ms. Nunez-Diaz’ thoughts and beliefs as
relevant and used her testimony to establish deficient
performance by counsel and prejudice under
Strickland. Doing so was an abuse of discretion.
B. A nearly inevitable result is not prejudice per
se.
The following findings of prejudice are all quotes
from the trial court’s minute order:
! In this case, Defendant has shown that he was
prejudiced by the ineffective assistance of
counsel. Defendant was placed in removal
proceedings because of the consequences of the
Possession of Drug Paraphernalia conviction
and later deported to Mexico.
! Defendant would not have signed the plea if he
was adequately advised of the immigration
consequences. The court finds that as a direct
result of Ms. Cassel’s failure to properly advise
Defendant of his immigration consequences,
defendant was placed in removal proceedings
and was held without bond.
! Furthermore, the reason defendant was unable
to attend the TASC program no longer exists in

168a
light of the ruling in Lopez-Valenzuela v. Arpaio,
770 F.3d 772 (9th Cir. 2014).”
The trial court believed that the consequences that
befell Respondent were caused by deficient
representation. While it is true that Padilla v.
Kentucky, 559 U.S. 356, 369, 130 S. Ct. 1473, 1482
(2010), requires defense attorneys to give correct advice
about deportation consequences when those
consequences are clear, the inquiry does not stop there.
The prejudice prong must also be satisfied.
Deciding the prejudice prong was, according to the
Court, a matter for the Commonwealth of Kentucky to
decide:
Whether Padilla is entitled to relief on his claim
will depend on whether he can satisfy
Strickland’s second prong, prejudice, a matter
we leave to the Kentucky courts to consider in
the first instance.
Padilla, 559 U.S. at 369, 130 S. Ct. at 1483-84.
Here, the State provided the trial court with a
post-remand summary of the Kentucky state court
review on the prejudice prong. See State’s Motion for
Rehearing filed March 8, 2016 at 7-8. The defendant in
Padilla was able to demonstrate that if he had been
properly informed of the immigration consequences of
his guilty plea, he would have insisted upon going to
trial. Padilla v. Commonwealth, 381 S.W. 3d 322,
328-29 (App. 2012). In assessing whether Jose Padilla’s
insistence that he would have gone to trial was
reasonable under the circumstances, the appellate
court looked at the fact that Jose Padilla had been a

169a
lawful permanent resident of the United States for over
forty years. Id. at 324. The court also considered the
fact that Padilla took a plea offer the day of trial under
an erroneous belief that he would not be subject to
mandatory deportation. Id. at 329. Had Padilla known
that either way he faced a possibility of mandatory
deportation, it would have been reasonable for him to
choose a trial, therefore Padilla had suffered prejudice.
Id. at 330.
Having presented the above analysis to the trial
court here, the trial court chose not to consider it.
Although the State maintains there was no deficient
performance by defense counsel, the trial court found
otherwise. Therefore, under the second prong of
Strickland the trial court should have considered
whether there was a reasonable probability that, but
for counsel’s error, the result of the proceeding would
have been different. Id. at 326 (quoting Strickland v.
Washington, 466 U.S. 668, 694, 104 S.Ct. 2052 (1984).
Here, even if counsel had repeatedly told
Respondent that there absolutely, positively would be
immigration consequences, it cannot be said there is a
reasonable probability the result of the proceeding
would have been different. Unlike the defendant in
Padilla, Respondent was not a lawful permanent
resident who would reasonably choose a trial in order
to fight to stay in this country. Padilla had nothing to
lose by going to trial and hoping for a miracle. By
contrast, Respondent had no legal status in this
country. He was under an ICE hold from the
beginning. Respondent had a choice, he could take a
plea to the lowest level of felony or he could risk

170a
picking up two class 4 felonies if convicted at trial.
Respondent was in a lose-lose situation.
These are the inescapable facts. Respondent’s
after-the-fact claim that he would have gone to trial is
belied by the underlying facts--his immigration status,
the record, and by his request that the court provide
him with a better plea. He did not ask the court to
allow him to proceed to trial. Respondent’s prejudice
claim and the trial court’s finding of prejudice run afoul
of Strickland and Padilla.
C. The law in effect at the time is the law
that applies.
Finally, the trial court relied upon a change in the
law announced in Lopez-Valenzuela v. Arpaio, 770 F.3d
772 (9th Cir. 2014), to support the court’s finding of
prejudice. The decision in Lopez-Valenzuela invalidated
categorical denial of bail to undocumented immigrants
held on certain felony charges. Id. at 788. But the
decision in Lopez-Valenzuela issued after Respondent’s
July 22, 2013, plea and sentencing. The law in effect at
the time of Respondent’s plea and sentencing was the
law that applied to him. Defense counsel cannot be
faulted for failing to presage a change in the law. Nor
can this change in the law be used to support a finding
of prejudice. Respondent was not prejudiced, in the
legal sense, by having the law in effect at the time
applied to him.
IV.

CONCLUSION

The trial court’s decision in this Rule 32 case does
not comport with established law. Whether the court
was employing the Strickland standard is ambiguous,

171a
at best. As the Ninth Circuit recently observed, “it is
not enough to cite Strickland –-a court’s analysis must
reflect it too.” Mann v. Ryan, 828 F. 3d 1143, 1166 (9th
Cir. 2016)(en banc).
For all the reasons argued herein, the State asks
this Court to grant review, vacate the trial court’s order
granting relief, and remand the matter for further
proceedings.
SUBMITTED this 22nd day of November, 2016.
WILLIAM G. MONTGOMERY
MARICOPA COUNTY ATTORNEY
By /s/
Karen Kemper
Deputy County Attorney

172a

APPENDIX K
RAY A. YBARRA MALDONADO
Law Office of Ray A. Ybarra Maldonado, PLC
State Bar No: 027076
2700 N. Central Avenue, Suite 800
Phoenix, Arizona 85004
(602) 910-4040,
ray@abogadoray.com
Attorney for Defendant
IN THE SUPREME COURT
STATE OF ARIZONA
No. CR 2018-0514-PR
[Filed December 10, 2018]
__________________________
STATE OF ARIZONA,
)
)
Petitioner,
)
)
v.
)
)
HECTOR NUÑEZ DIAZ,
)
)
Respondent.
)
__________________________ )
Court of Appeals
No. 1 CA-CR-16-0793 PRPC
Maricopa County Superior Court
No. CR2013-430489-001

173a
RESPONSE TO PETITION FOR REVIEW
Hector Nuñez-Diaz, by and through undersigned
counsel, respectfully asks this Court to deny the
Petition for Review. The following memorandum
supports this request.
RESPECTFULLY SUBMITTED this December 10,
2018
BY: /s/ RAY A. YBARRA MALDONADO
RAY A. YBARRA MALDONADO
Attorney at Law

174a
Table of Contents
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . 3
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS THE COURT SHOULD DENY
REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THE STATE FAILS TO CITE THE RECORD
OR FACTS SUPPORTING THEIR ARUGMENT
THAT NO COUNSEL COULD HAVE
NAVIGATED AROUND RESPONDENT’S
“PRE-EXISTING” DEPORTABLE ALIEN
STATUS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
II. THIS HONORABLE COURT’S DECISION IN
STATE V. AMARAL, IS IRRELEVANT TO THE
TRIAL COURT’S ANALYSIS AND RULING ON
HECTOR NUÑEZ-DIAZ’S RELIEF RULING. . . 9
III. MR. NUÑEZ-DIAZ WAS PREJUDICED WHEN
COUNSEL FAILED TO PROPERLY ADVISE
HIM
OF
THE
IMMIGRATION
CONSEQUENCES OF HIS PLEA. . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

175a
TABLE OF AUTHORITIES
CASES
Arizona v. United States,
-- U.S. --, 132 S. Ct. 2492, 2505-07 (2012) . . . . . . 6
Jimenez Moreno v. Napolitano,
2016 WL 5720465 (N.D. Ill. Sept. 30, 2016) . . . . 6
Lopez-Valenzuela v. Arpaio,
770 F.3rd 772 (9th Cir. 2014.) . . . . . . . . . . . . . . . 14
Padilla v. Kentucky,
130 S.Ct. 1473, 1486 (2010) . . . . . . . . . . 12, 14
State of Arizona v. Christian Cuevas,
CR2015-121228-001 . . . . . . . . . . . . . . . . . . . . . . 14
State of Arizona v. Miguel Angel Morales-Sedano,
CR2012-151103-008 . . . . . . . . . . . . . . . . . . . . . . 14
State of Arizona v. Nuñez-Diaz,
No. CR2013-430489-001 (Dec. 23, 2015),. . . . . . 11
State v. Amaral,
No. CR-15-00090 PR, 2016 WL 423761 (Feb. 4,
2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
State v. Febles,
210 Ariz. 589, 595, 115 P.3d 629, 636 (Ariz. App.
2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
State v. Herrera,
183 Ariz. 642, 646, 905 P.2d 1377, 1381 (Ariz.
App. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
State v. Puls,
175 Ariz 273, 275, 860 P.2d 1326, 1328 (Ariz.
App. 1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
State v. Schrock,
149 Ariz. 433, 441 (1986) . . . . . . . . . . . . . . . . . . . 9

176a
State v. Verdugo,
183 Ariz. 135, 139, 901 P.2d 1165, 1169 (Ariz.
App. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
State v. Ysea,
191 Ariz. 372, 377, 956 P.2nd 499, 504 (1998) . .
Strickland v. Washington,
466 U.S. 668, 104 S.Ct. 252 (1984). . . . . . . . . . .
United States v. Cronic,
466 U.S. 648, 654 . . . . . . . . . . . . . . . . . . . . . . . .

10
10
10
10

STATUTES
8 C.F.R. § 287.7(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
8 C.F.R. § 287.7(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
8 U.S.C. § 1357(a)(2 . . . . . . . . . . . . . . . . . . . . . . . . . . 6
OTHER AUTHORITIES
FACT SHEET: Forms of Relief From Removal, U.S.
Department of Justice, Executive Office for
Immigration Review, published August 3,
2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Gonzales is a United States Citizen. Available at
https://www.huffingtonpost.com/entry/this-uscitizen-was-arrested-at-a-trump-protest-thentransferred-into-immigration-custody_us_
56f15d3ae4b03a640a6baab . . . . . . . . . . . . . . . . .
Immigration Law and Defense, Fall 2018, ed., by
Philip Hornok and National Immigration Project
of the National Lawyers Guild, Clark Boardman
Callaghan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Trump Protestor Says She Was Transferred To ICE
After Her Arrest, Huffington Post, March 22,
2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

7

8
7

177a
INTRODUCTION
The Petitioners failure to understand immigration
law and the removal process should result in a denial
of their petition. Petitioner begins their Petition by
boldly stating, “Respondent was a deportable alien
before his drug-possession arrest in Maricopa County.
That fact should have been dispositive of Respondent’s
post-conviction relief/Rule 32 petition.” Petitioner
erroneously believes their arguments are facts.
Petitioner failed to develop a record at the trial court
level to back their erroneous arguments. Petitioner
could have called an immigration law expert to testify
about how the removal process works. If they had in
fact done so it is unlikely they would be making the
arguments presented in their petition. Instead,
Petitioner puts forth arguments to this honorable court
that lack a foundation, hoping this honorable court will
issue a decision that impacts noncitizens facing
criminal charges in our state for decades to come.
REASONS THE COURT SHOULD
DENY REVIEW
I. THE STATE FAILS TO CITE THE RECORD OR
FACTS SUPPORTING THEIR ARUGMENT THAT
NO COUNSEL COULD HAVE NAVIGATED
AROUND RESPONDENT’S “PRE-EXISTING”
DEPORTABLE ALIEN STATUS.
The sole issue contained in the Petition for Review
is that “no counsel could have navigated around
Respondent’s pre-existing deportable alien status”
(Petition, p. 3) and therefore his post-conviction relief

178a
for receiving ineffective-assistance-of-counsel should be
vacated.
Taken to its logical conclusion, Petitioner’s position
would allow defense counsel to affirmatively lie to
noncitizens about their immigration consequences. A
scrupulous attorney who preys upon vulnerable
communities could force family members to turn over
their hard-earned money with the illusion they will
help the noncitizen facing criminal charges. That
attorney could then inform their client that pleading
guilty will not have immigration consequences and
they should ignore the immigration advisal given by
the judge presiding over the criminal case. That person
could then be ordered removed by an Immigration
Judge even though they were promised by their defense
attorney they would receive no immigration
consequence from their guilty plea. The Petitioner’s
position would nonetheless result in a denial of a
properly filed Rule 32 simply because the noncitizens
“pre-existing deportable alien status.” Foreclosing Rule
32 as a path for noncitizens would not only be unjust
but likely be a violation of the Equal Protection Clause
of the United States Constitution.
The State writes, “Respondent’s pre-existing
deportable alien status dictated the outcome of his
immigration case, independent from anything that
happened in his state criminal court case.” Petitioner
does not cite to the record to support their bold
statement. Petitioner did not receive testimony from
Respondent’s prior immigration counsel, nor did
Petitioner call an immigration law expert to provide
such an analysis of Respondent’s “pre-existing”

179a
condition. The Petitioner continues to make false
assertations such as the defense counsel should not be
blamed and labeled ineffective “for failing to achieve an
unachievable result.” (Pet’r Petition p. 16). To the
contrary, defense counsel should be blamed and labeled
an ineffective for failing to properly advise the
Respondent, counsel should not be left off the hook
simply because the person they misadvised was a
noncitizen. The Petitioner also claims “Respondent had
an unsolvable, strict-liability-type immigration problem
due to his being an undocumented alien….” (Pet’r
Petition p. 12). That statement is simply erroneous.
Simply having an ICE hold does not mean a noncitizen
will eventually be removed from the country. If such
was the case, there would be no need for removal
defense attorneys. Indeed, there would be no need for
immigration judges or Immigration and Customs
Enforcement Trial Attorneys. A simple ICE hold placed
by a non-attorney employee of Immigration and
Customs Enforcement does not equate to unsolvable,
strict-liability-type immigration problem.
An immigration detainer is a boilerplate, checkbox
form issued by any rank and file immigration officer for
a civil immigration purpose. see 8 C.F.R. § 287.7(b)
(authorizing all “deportation officers” and “immigration
enforcement agents,” among others, to issue detainers);
8 C.F.R. § 287.7(a) (describing the purpose of an
immigration detainer). A detainer is a request that the
law enforcement agency (LEA) arrest and detain the
individual for up to an additional 48 hours beyond
when the LEA’s legal detention authority expires, in
order to allow ICE to assume custody if it determines
to do so. A detainer is not supported by warrant or any

180a
other probable cause determination, by a detached and
neutral judicial officer or otherwise. An ICE detainer is
not supported by a determination that there is reason
to believe that the subject individual is “likely to escape
before a warrant can be obtained,” as is required to
make a warrantless civil immigration arrest. 8 U.S.C.
§ 1357(a)(2); Arizona v. United States, -- U.S. --, 132 S.
Ct. 2492, 2505-07 (2012) (finding Arizona statute
permitting unlimited warrantless civil immigration
arrest authority preempted because it exceeded the
limited authority granted to ICE under 8 U.S.C.
§1357(a)(2)); Jimenez Moreno v. Napolitano, 2016 WL
5720465 (N.D. Ill. Sept. 30, 2016) (declaring all
warrantless immigration detainers in the six state ICE
Chicago Area of Responsibility null and void because
the detainers violate the limits of 8 U.S.C.
§ 1357(a)(2)).
An ICE detainer is essentially ICE saying they want
to take custody of someone prior to them being released
to the street. An ICE detainer can even be placed on a
United States Citizen. See, Trump Protestor Says She
Was Transferred To ICE After Her Arrest, Huffington
Post, March 22, 20161. ICE can then themselves release
the person and not put the person in removal
1

“The Maricopa County Sheriff’s Office told ABC15 that all three
protesters went through ICE interviews, which is standard
protocol, and “a hold was placed on Gonzalez for an unknown
reason.” They also confirmed that ICE investigated Gonzalez after
MCSO tried to release the woman from their custody.” Gonzales is
a United States Citizen. Available at https://www.huffington
post.com/entry/this-us-citizen-was-arrested-at-a-trump-protestthen-transferred-into-immigration-custody_us_56f15d3ae4b
03a640a6baab2

181a
proceedings. It is possible that someone found not
guilty following a jury trial or whose case is dismissed
or amicably resolved could in fact not be placed in
removal proceedings at all.
If ICE does decide to place the person in removal
proceedings, their problem is not “unsolvable”. First,
counsel can persuade ICE Trial Attorneys to terminate
(dismiss) proceedings. If the ICE Trial Attorneys do not
agree to terminate proceedings, they also could move to
administratively close proceedings. If ICE Trial
Attorneys are reluctant to either terminate of join in
administrative closure, a Respondent, or Counsel for a
Respondent can seek termination or administrative
closure from the Immigration Judge. The Respondent
can also challenge the allegations in the Notice to
Appear or file a motion to suppress certain evidence
that could lead to termination. Even if the person is
eventually found to be removable, a Respondent may be
able to seek relief from removal from the Immigration
Judge. See, FACT SHEET: Forms of Relief From
Removal, U.S. Department of Justice, Executive Office
for Immigration Review, published August 3, 2004).
(Specifically, Cancellation of Removal which a person
is disqualified from applying for if they have been
convicted of a certain offense, such as the conviction in
this case.) It is astonishing to think an ICE hold or
someone’s “pre-existing deportable alien status” leads
to an “unsolvable” problem, or as the Petitioner further
puts is “deportation was a foregone conclusion”.
(Petition, p. 16). If such was the case undersigned
counsel would not have a law firm which consists of

182a
three attorneys and an additional staff of five2. Indeed,
there are entire books dedicated to the defense of
removal. See, Immigration Law and Defense, Fall 2018,
ed., by Philip Hornok and National Immigration
Project of the National Lawyers Guild, Clark
Boardman Callaghan. A quick google search will even
find blogs such as “15 Ways to Stop Deportation in
Immigration Court3”, “Possible Defenses to Deportation
of an Undocumented Alien4”, and “Avoiding Removal5.”
The petitioner’s argument that deportation was a
foregone conclusion prior to his conviction are simply
not supported by the record.

2

Undersigned Counsel has represented Respondents in Removal
Proceedings in Immigration Courts in Eloy, Florence, Tucson,
Phoenix, El Paso, New York, Buffalo, and Los Angeles and has
attained administrative closure, termination, adjustment of status
and cancellation of removal for his clients. Outside of removal
proceedings Counsel has assisted his clients in attaining asylum
(after termination of proceedings in Immigration Court), U Visas,
VAWA, NACARA, 601A waivers, 601 waivers, and adjustment of
status.

3

https://www.shouselaw.com/immigration/fight_deportation, last
visited December 10, 2018.
4

https://www.nolo.com/legal-encyclopedia/possible-defensesdeportation-undocumented-alien.html, last visited December 10,
2018.
5

https://immigration.findlaw.com/deportation-removal/forms-ofrelief-from-removal.html, last visited December 10, 2018.

183a
II. THIS HONORABLE COURT’S DECISION IN
STATE V. AMARAL, IS IRRELEVANT TO THE
TRIAL COURT’S ANALYSIS AND RULING ON
HECTOR NUÑEZ-DIAZ’S RELIEF RULING.
The Petitioner writes “[t]he trial court’s reliance
upon State v. Schrock’s incorrect definition of a
colorable claim under now-rejected might-havechanged-the-outcome standard was error.” (Petition,
p.3). There is one glaring problem with Petitioner’s
argument. The Superior Court did not rely on the State
v. Schrock, 149 Ariz. 433, 441 (1986) language
overturned in State v. Amaral, No. CR-15-00090 PR,
2016 WL 423761 (Feb. 4, 2016). Essentially, the
Amaral decision is irrelevant to the trial court’s ruling.
In State v. Amaral the Court clarified a petitioner’s
standard for entitlement to a Rule 32.8(a) evidentiary
hearing on claims arising under Rule 32.1(e) and stated
that it is not whether “alleged facts ‘might’ have
changed the outcome” but is “whether he has alleged
facts which, if true would probably have changed the
verdict or sentence.” Id. at ¶ 10, 11 (emphasis added).
The Petitioner put forth this argument in a request for
rehearing, which after having a hearing granted the
trial court affirmed their decision and did not again
rely on State v. Schrock.
It is irrelevant what is cited in briefs. The trial
court’s decision clearly did no contain a reliance on the
since changed standard. Mr. Nuñez-Diaz’s amended
petition for post-conviction relief did cite State v. Puls’s
standard that a “colorable claim is one which, if the
allegations are true might have the changed the
outcome of the trial verdict.” Amended Petition dated

184a
September 9, 2014, at 7, citing State v. Puls, 175 Ariz
273, 275, 860 P.2d 1326, 1328 (Ariz. App. 1993).
However, there is no issue whether the alleged facts
might have or probably would have changed the verdict
or sentence. It is with 100% certainty that Mr. NunezDiaz would not have accepted the plea. As the court
correctly noted in the Court’s order, “Defendant further
testified that if his attorney would have told him of the
consequences, he would not have signed the plea.”
(Under Advisement-Post Conviction Relief Ruling,
December 23, 2015, p. 2) In addition, the petition relied
upon State v. Verdugo, which states that a colorable
claim is one that “factually, has the appearance of
validity.” Id. 183 Ariz. 135, 139, 901 P.2d 1165, 1169
(Ariz. App. 1995). But, more importantly, the petition
relies heavily on United States Supreme Court cases
and relevant case law regarding ineffective assistance
of counsel since the issue here was whether Mr. NuñezDiaz was rendered effective assistance of counsel
during his plea process. Strickland v. Washington, 466
U.S. 668, 687, 104 S.Ct. 252, 2064 (1984); United States
v. Cronic, 466 U.S. 648, 654; State v. Herrera, 183 Ariz.
642, 646, 905 P.2d 1377, 1381 (Ariz. App. 1995); State
v. Febles, 210 Ariz. 589, 595, 115 P.3d 629, 636 (Ariz.
App. 2005); State v. Ysea, 191 Ariz. 372, 377, 956 P.2nd
499, 504 (1998).
Counsel for the State fails to acknowledge the trial
court’s Post Conviction Relief Ruling does not rely on
the State v. Puls standard. Interestingly, the State dos
not even one time quote from the order. The State does
not point out where in the decision the court relied on
the “might have” standard. Again, since this is a claim
for ineffective assistance of counsel, Judge Miller relies

185a
on Summers v. Schriro, 2009 WL1531847 (D. Ariz), and
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 252
(1984). The standard to establish a claim of ineffective
assistance of counsel is that “a petitioner must show
that counsel’s actions fell below an objective standard
of reasonableness and that the petitioner was
prejudiced by the alleged ineffective assistance of
counsel.” Strickland v. Washington at 687, 2964.
Under this stringent standard Judge Miller
considered an “overwhelming” amount of evidence that
Mr. Nuñez-Diaz’s counsel’s (Ms. Cassels) actions fell
below an objective standard and found that “as a direct
result of Ms. Cassels’s failure to properly advise
Defendant of immigration consequences, defendant was
placed in removal proceedings and was held without
bond.” State of Arizona v. Nuñez-Diaz, No. CR2013430489-001 (Dec. 23, 2015), (order granting
Defendant’s Petition for Post-Conviction Relief) at page
4. Whether facts might or probably would have
changed the outcome is not relevant to this case since
Judge Miller found that the facts would have changed
the outcome. (Defendant trusted his attorney because
she assured him there would be no
problems….Defendant further testified that if his
attorney would have told him of the consequences, he
would not have signed the plea. The family retained
the attorney because they were told there would be no
immigration consequences. Defendant would not have
signed the plea if he was adequately advised of the
immigration consequences.) Counsel’s actions fell below
an objective standard and Mr. Nuñez-Diaz was
prejudiced by that ineffective assistance of counsel.

186a
III.

MR. NUÑEZ-DIAZ WAS PREJUDICED WHEN
COUNSEL FAILED TO PROPERLY ADVISE
HIM
OF
THE
IMMIGRATION
CONSEQUENCES OF HIS PLEA.

State’s Counsel mistakenly believes that the
standard here needed clarification. The standard
remains the same. This was and will continue to be an
ineffective assistance of counsel claim. To establish a
claim of ineffective assistance of counsel “a petitioner
must show that counsel’s actions fell below an objective
standard of reasonableness and that the petitioner was
prejudiced by the alleged ineffective assistance of
counsel.” Strickland v. Washington at 687, 2964. In
addition, the United States Supreme Court held that,
“counsel must inform her client whether his plea
carries a risk of deportation.” Padilla v. Kentucky, 130
S.Ct. 1473, 1486 (2010).
Here, Judge Miller found that Mr. Nuñez-Diaz met
Strickland’s two prong test. Specifically, Judge Miller
found that, “the Defendant presented overwhelming
evidence that his court-appointed counsel’s actions fell
below an objective standard,” and that Mr. Nuñez-Diaz
showed, “that he was prejudiced by the ineffective
assistance of counsel.” (order granting Defendant’s
Petition for Post-Conviction Relief) at page 4. Yet,
State’s Counsel claims that deportation was a foregone
conclusion. But State’s Counsel blatantly ignores Ms.
Cassels’s irresponsible advice that lead to Mr. NuñezDiaz being placed in removal proceedings.
Petitioner continues to present an irrelevant issue
to this court, a distinction between might and probably
is irrelevant when here we have an absolute certainty

187a
the result would have been different. Mr. Nunez-Diaz
himself testified he would not have taken the plea. But
State’s Counsel failed to distinguish the fact that in
order to comply with Strickland and Padilla counsel
must inform their client if their plea most certainly-as
oppose to could-has a risk of deportation. Ms. Cassels
testified that she was well aware, at that time, that the
plea would have severe immigration consequences.
Transcript of Evidentiary Hearing at Page 35, lines 2225, Page 36, lines 1-10. However, Ms. Cassels never
relayed the consequences to Mr. Nuñez-Diaz and even
the letter Ms. Cassels provided simply stated that she
advised her client that the plea could-when she knew
with the utmost most certainty that it would-have
immigration consequences (previously submitted).
Another attorney would have advised their client of the
clear immigration consequences. In addition, if unable
to explain the clear consequences another attorney
would have referred Mr. Nuñez-Diaz to an immigration
attorney—especially if they were employed at a firm
with three immigration attorneys that made
themselves readily available to criminal attorneys. This
neglect, in addition to the overwhelming evidence
heard at the Evidentiary Hearing before Judge Miller,
falls below an objective standard of reasonableness.
We again agree with Judge Miller’s finding that the
second prong of the Strickland was met and that Mr.
Nuñez-Diaz was prejudiced by the ineffective
assistance of counsel. Had Ms. Cassels advised Mr.
Nuñez-Diaz of the immigration consequences, the
outcome would have been different. Instead of being
placed in removal proceedings and held without bond
he could have had his plea modified. Or, he could have

188a
challenged the original stop through a motion to
suppress or chosen to go to trial. Mr. Nuñez-Diaz had
a right to effective counsel that would inform him
whether his plea carries a risk of deportation. Prejudice
flowed when this right was violated, not from Mr.
Nuñez-Diaz’s choice. The problem, here, is that he was
never given a choice, because he was never informed of
the fact that his plea would have immigration
consequences.
The state argues that the facts here would result in
the same outcome no matter who represented the
Defendant. If the State was so confident in their
argument they would not waste the State’s resources in
filing requests for appeals, but simply re-open the case
against Mr. Nunez-Diaz. The reluctance on the part of
the State to give Mr. Nunez-Diaz his day in Court with
competent counsel is quite telling. The State attempts
to distinguish Mr. Nunez-Diaz’s case from Mr. Padilla’s
case. The proper forum for that distinction was in the
State’s Response to Petition for Post-Conviction Relief.
Mr. Nunez-Diaz cited to the Padilla v. Kentucky, 130
S.Ct. 1473, 1486 (2010) case in his Amended Petition
for Post-Conviction Relief at page 8 and 10 of that
document. However, the State refused to address the
case in the State’s Response to Petition for PostConviction Relief. The State now seeks to petition this
honorable court simply on misinformed understanding
of immigration law. The State writes that Defendant
Nunez-Diaz was not a lawful permanent resident who
reasonably would choose a trial in order to fight to stay
in this country. The State’s argument shows a
fundamental misunderstanding of immigration law.
Even someone who is not a legal permanent resident

189a
can fight to stay in the country. Indeed, thousands of
people without legal status everyday appear before an
immigration judge in an attempt to fight to stay in this
country. The state goes as far to say as the “inescapable
facts” of the case are that Mr. Nunez-Diaz would have
been deported. The government ignores the court’s
ruling which states, “Furthermore, the reason
defendant was unable to attend the TASC program no
longer exists in light of the ruling in Lopez-Valenzuela
v. Arpaio, 770 F.3rd 772 (9th Cir. 2014.)” The state also
incorrectly assumes a guilty verdict following a jury
trial would have been a certain outcome. Counsel has
attained not guilty verdicts following jury trials on
behalf of undocumented immigrants. See, State of
Arizona v. Miguel Angel Morales-Sedano, CR2012151103-008. Counsel has also attained TASC for
individuals with ICE holds. See, State of Arizona v.
Christian Cuevas, CR2015-121228-001. To state that
the “inescapable fact” is that Mr. Nunez-Diaz would
have been deported if he refused the plea offer is
absurd. The real inescapable facts in this case are
(1) Mr. Nunez-Diaz was not properly advised of the
immigration consequences despite his attorney
knowing with absolute certainty what those harsh
consequences were and (2) he would not have accepted
the plea offer if he had been properly advised.
CONCLUSION
Defendant asks this honorable Court deny the
Petition for Review.

190a
Submitted December 10, 2018
s/Ray A. Ybarra Maldonado
Ray A. Ybarra Maldonado
Attorney for Defendant

191a

APPENDIX L
IN THE ARIZONA SUPREME COURT
Supreme Court No. CR-18-0514-PR
Court of Appeals No.
1 CA-CR 16-0793 PRPC
Maricopa County Superior Court
Cause No. CR-2013-430489-001
[Filed March 25, 2019]
__________________________
STATE OF ARIZONA,
)
)
Petitioner,
)
)
v.
)
)
HECTOR SEBASTION
)
NUNEZ DIAZ,
)
)
Respondent.
)
__________________________ )
_________________________
RESPONDENT’S SUPPLEMENTAL BRIEF
_________________________
RAY A. YBARRA MALDONADO, State Bar # 027076
JULIANA C. MANZANAREZ, State Bar # 033595
2700 N. Central Ave., Ste., 800
Phoenix, AZ 85004

192a
Tel: (602) 910-4040
ray@abogadoray.com; juliana@abogadoray.com
ATTORNEYS FOR RESPONDENT
HECTOR SEBASTION NUNEZ-DIAZ
ISSUE PRESENTED ON REVIEW
Whether, the trial court abused its discretion in finding
that an experienced criminal defense attorney who
knows with absolute certainty the immigration
consequences of a plea, knows their client is primarily
concerned with the immigration consequences, and has
an office with immigration attorneys is ineffective
when counsel misrepresents the immigration
consequences to the defendant and fails to refer to an
immigration attorney in their own firm prior to
entering into the plea?

193a
TABLE OF CONTENTS
PAGES
ISSUE PRESENTED ON REVIEW . . . . . . . . . . . . . i
TABLE OF CASES AND AUTHORITIES . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I. The PCR court did not abuse its discretion in
granting Mr. Nunez Diaz’s PCR as the record
supports that trial counsel was ineffective.. . . . . 2
II. Because of the singular harm produced by
deportation, a noncitizen criminal defendant
satisfies Strickland’s requirement of prejudice
by demonstrating a reasonable probability that,
but for the ineffective assistance of counsel, he
would not have pleaded guilty . . . . . . . . . . . . . . . 8
A. A defendant establishes a reasonable
probability that he would not have pled
guilty by demonstrating that the decision to
reject the plea agreement would have been
rational under the defendant’s unique
circumstances. . . . . . . . . . . . . . . . . . . . . . . . . . 8
B. The decision to reject a plea agreement is
rational even such a decision risks a more
severe conviction or prison sentence at trial .10
III.

Appellate courts from state and federal
jurisdictions have held that trial courts
must factor the defendant’s desire to
avoid deportation into the analysis of

194a
whether the decision to reject a plea
agreement would have been “rational.”. . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

195a
TABLE OF CASES AND AUTHORITIES
CASES

PAGES

DeBartolo v. United States,
760 F.3d 775 (7th Cir. 2015). . . . . . . . . . . . . . . . 14
Denisyuk v. State,
422 Md. 462 (2011) . . . . . . . . . . . . . . . . . 13, 14, 15
Hill v. Lockhart,
474 U.S. 52 (1985). . . . . . . . . . . . 2, 7, 9, 11, 13, 15
INS v. St. Cyr,
533 U.S. 289 (2001). . . . . . . . . . . . . . . . . . . . . 1, 15
Jae Lee v. United States,
154 Ariz. 568 (1987) . . . . . . . . . . . . 1, 2, 10, 11, 12
Keserovic v. State, 345 P.3d 1024
(Idaho App., 2015). . . . . . . . . . . . . . . . . . . . . . . . 14
Padilla v. Kentucky,
559 U.S. 356 (2010). . . . . . . . . . . . . . . . . . . passim
People v. Picca,
97 A.D.3d 170 (N.Y.S.D. 2012) . . . . . . . . . . . . . . 14
People v. Sifuentes,
410 P.3d 730 (Colo. App., 2017) . . . . . . . . . . . . . 14
Roe v. Flores-Ortega,
528 U.S. 470, 483 (2000). . . . . . . . . . . . . . . 1, 2, 11
State v. Adamson,
136 Ariz. 250 (1983), cert. denied. . . . . . . . . . . . . 2
State v. Krum,
183 Ariz. 288 (1995) . . . . . . . . . . . . . . . . . . . . . . . 2

196a
State v. Nkiam,
778 S.E.2d 863 (N.C. Ct. App. 2015). . . . . . . . . . 13
State v. Pandelli,
242 Ariz. 175 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
State v. Peoples,
240 Ariz. 244 (2016) . . . . . . . . . . . . . . . . . . . . . . . 5
State v. Sandoval,
171 Wash.2d 163 (2011) . . . . . . . . . . . . . . . . 13, 16
State v. Schrock,
149 Ariz. 443 (1986) . . . . . . . . . . . . . . . . . . . . . . . 2
State v. Swoops,
216 Ariz. 390 (2007) . . . . . . . . . . . . . . . . . . . . . . . 2
State v. Watton,
164 Ariz. 323 (1990) . . . . . . . . . . . . . . . . . . . . . . . 2
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . passim

197a
INTRODUCTION
When a defense attorney fails to inform a noncitizen
client that a guilty plea subjects him or her to
deportation, or erroneously informs the client that the
plea will not subject him or her to deportation, and the
noncitizen pleads guilty in reliance upon the attorney’s
deficient advice, a serious injustice results. See Padilla
v. Kentucky, 559 U.S. 356, 369 (2010) (constitutionally
competent counsel must provide accurate, affirmative
advice regarding immigration consequences).
Under current immigration statutes, families face
a unique and devastating threat if any noncitizen
family member that gets caught up in the criminal
justice system. As such, when defense counsel
represents an immigrant in a criminal prosecution,
“‘[p]reserving the client’s right to remain in the United
States may be more important to the client than any
potential jail sentence.’” INS v. St. Cyr, 533 U.S. 289,
322 (2001) (citation omitted). When a defendant alleges
his counsel’s deficient performance led him to accept a
guilty plea rather than go to trial, the inquiry is not
whether, had he gone to trial, the result of that trial
“would have been different” than the result of the plea
bargain. That is because while courts ordinarily “apply
a strong presumption of reliability to judicial
proceedings,” courts cannot accord” any such
presumption “to judicial proceedings that never took
place.” Jae Lee v. United States, __ U.S__, 137 S. Ct.
1958, 1965 (2017) (quoting Roe v. Flores-Ortega, 528
U.S. 470, 482-83). Instead, the court should consider
whether the defendant was prejudiced by the “denial of
the entire judicial proceeding…to which he had a

198a
right.” Id. (quoting Roe, 528 U.S. at 483). As the U.S.
Supreme Court held in Hill v. Lockhart, when a
defendant claims that his counsel’s deficient
performance deprived him of a trial by causing him to
accept a plea, the defendant can show prejudice by
demonstrating a “reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial. Lee, 137 S. Ct. at
1965 (citing Hill v. Lockhart, 474 U.S. 52, 59 (1985)).
ARGUMENTS
This Court has held that it will not disturb a trial
court’s ruling absent a clear abuse of discretion. State
v. Swoops, 216 Ariz. 390, ¶ 4 (App. 2007)(citing State v.
Schrock, 149 Ariz. 443, 441 (1986)); accord State v.
Pandelli, 242 Ariz. 175, ¶ 4 (2017); State v. Krum, 183
Ariz. 288, 293 (1995) (“Because the trial court is most
familiar with the defendant and the proceedings below,
we review its decision whether this type of postconviction relief petition presents a colorable claim only
on a discretionary standard.”); State v. Watton, 164
Ariz. 323, 325 (1990)(“We note at the outset that a
grant or denial of post-conviction relief is within the
trial court’s discretion. We will not reverse the trial
court’s decision unless an abuse of discretion
affirmatively appears.”)(citing State v. Schrock, 149
Ariz. 433, 441 (1986); State v. Adamson, 136 Ariz. 250,
265 (1983), cert. denied, 464 U.S. 865 (1983))).”An
abuse of discretion occurs if the PCR court makes an
error of law or fails to adequately investigate the facts
necessary to support its decision.” Pandelli, 216 Ariz.
at ¶ 4 (citations omitted).

199a
Mr. Nunez-Diaz testified: “I was told that I was not
going to have any consequences pleading guilty. That
I would not have any problem at immigration. That
they had attorneys for that to be able to solve my
problem.” PCR Hr’g Tr. at 7:6-9. When asked if his
attorney had informed him the plea was going to have
immigration consequences if he still would have signed
the plea he stated, “No”. PCR Hr’g Tr. at 9:15-18. When
the family was finally able to speak to an immigration
attorney at the firm they hired, after Mr. Nunez-Diaz
was informed to plead guilty, they were laughed at and
told that there was nothing that could be done because
of the plea he signed. PCR Hr’g Tr. at 19:12-22.
When the trial attorney was asked by the State
what was Mr. Nunez-Diaz’s goal for his charges, the
following response was given: “[h[e was hopeful for a
reduction in charges that could lead to the best possible
resolution for his immigration situation.” PCR Hr’g Tr.
at 27:24-25, 28:1. As part of the Rule 32 proceeding the
trial counsel wrote a letter to the court giving an
overview of her representation, some of which Counsel
read into the record during her cross-examination. This
letter clearly stated that the plea could have
immigration consequences.
At the jail visit on July 12 of 2013, I explained to
Mr. Nunez-Diaz with the assistance of an
interpreter that his charges in the plea that had
been offered could have consequences in the
immigration proceedings due to his status. PCR
Hr’g Tr. at 38:15-19.
Trial Counsel had previously testified that she was
aware that the plea Mr. Nunez-Diaz took was the “kiss

200a
of death in immigration.” See PCR Hr’g Tr. at 35:22-25,
36:1-10. Despite this, trial counsel wrote in her letter
to the court that she informed Mr. Nunez-Diaz the plea
“could have” immigration consequences. Trial Counsel
attempted to explain this by stating she was referring
to the different options still available, such as TASC or
solicitation. However, the statement is clear, “his
charges in the plea that had been offered” was what
trial counsel wrote. This is despite trial counsel
knowing with certainty that his charges in the plea
that had been offered certainly had immigration
consequences.
Trial counsel’s attempt to gloss over the specific
statement referring to the actual plea signed was again
highlighted in later cross examination about a different
paragraph within trial counsel’s letter.
Q But in this paragraph, you said on July
22nd of 2013, I reviewed the written document
with him and I again advised him that it could
have consequences so you are specifically
referring to the plea, are you not?
A Yes, I am referring to the plea.
Q But you neglected to put in there it will
with certainty have immigration consequences?
A That is what I wrote.
Q And when you wrote it, you wanted to be
very careful because you knew it was being used
in a Rule 32 proceeding, did you not?
A Yes, I did.
PCR Hr’g Tr. at 40:6-17.
The record is clear that trial counsel was well aware
of the immigration consequences. Trial counsel knew

201a
with certainty it was the “kiss of death” in immigration
proceedings. Mr. Nunez-Diaz testified that he was
affirmatively misinformed. His trial counsel wrote a
letter to the court where she on two occasions mentions
she advised Mr. Nunez-Diaz the plea “could” have
immigration consequences, as opposed to writing and
testifying that she informed him his plea would
certainly have immigration consequences. The trial
court could believe either person and still find that trial
counsel was ineffective.
In analyzing whether a PCR court has abused its
discretion, this Court has reasoned that it would
uphold a lower court’s ruling by examining implicit
findings in the record. See e.g. State v. Peoples, 240
Ariz. 244, ¶ ¶ 21, 27, 30 (2016) (“Based on this
evidence, the trial court did not abuse its discretion by
implicitly finding that the good-faith exception to the
exclusionary rule did not apply.”
I. THE PCR COURT DID NOT ABUSE ITS
DISCRETION IN GRANTING MR. NUNEZ
DIAZ’S PCR AS THE RECORD SUPPORTS
THAT TRIAL COUNSEL WAS INEFFECTIVE.
The PCR court correctly found that trial counsel
provided ineffective assistance of counsel. In making its
determination, the PCR relied on the two-prong
Strickland test for ineffective assistance of counsel and
Arizona Standard 18 RAJI (Criminal) 3rd, which
considers the credibility of witnesses on a given fact.
PCR Ct. Op. at 3.
The PCR found the testimony of Mr. Nunez Diaz
and his sister Maria Josefina Nunez Diaz as credible.

202a
PCR Ct. Op. at 3. Part of the determination, as the
PCR court reasoned was that the testimony given by
Maria Josefina Nunez Diaz directly contradicted the
State’s evidence. She testified that the reason her
family retained trial counsel was because they wanted
to avoid immigration consequences for her brother.
PCR Ct. Op. at 4. The PCR court additionally found
that the Mr. Nunez Diaz presented evidence that trial
counsel’s “actions fell below the objective standard” and
that “defense counsel mispresented the immigration
consequences to the defendant.” PCR Ct. Op. at 4.
The PCR court reasoned that trial counsel’s “actions
fell below the objective standard” because:
“[c]ounsel was well aware that defendant and
his family were concerned about the
immigration consequences because of the
defendant’s status in the United States. One of
the main reasons Alcock and Associates was
retained was because defendant’s family was
told there were would be no immigration
consequences. Counsel referred defendant’s
family to an immigration attorney; however,
counsel failed to refer the defendant to an
immigration attorney prior to him entering into
a plea. An immigration attorney from counsel’s
firm could have easily spoken to the defendant
about the immigration consequences.”
PCR Ct. Op. at 4. By this reasoning, the PCR court
implicitly found that trial counsel was ineffective under
Padilla v. Kentucky. In Padilla v. Kentucky, the U.S.
Supreme Court held that “constitutionally competent
counsel would have advised” that conviction would

203a
make the defense subject to removal, if that
consequence were clear. 559 U.S. 356, 369 (2010).
Just as the PCR court did for Mr. Nunez Diaz, the
Supreme Court placed this requirement under the
Strickland two-prong test for ineffective assistance of
counsel and ruled that a defense attorney’s failure to
advise that a conviction would make a defendant
automatically deportable violated the Sixth
Amendment right to effective assistance of counsel. See
id. at 373-741; Strickland v. Washington, 466 U.S. 668
(1984). Under Strickland, the Court asked whether the
defense attorney’s conduct “fell below an objective
standard of reasonableness.” Padilla, 559 U.S. at 367
(quoting Strickland, 466 U.S. at 688). The Court
measures this by the “practice and expectations of the
legal community,” examined “under prevailing
professional norms.” Id. Those norms, the Padilla
Court concluded, recognized that providing advice on
deportation consequences was a duty of the criminal
defense attorney. Id. at 366-68.
The PCR court did not abuse its discretion in
finding trial counsel ineffective as it “adequately
investigate[d] the facts necessary to support its
decision” and as such did not “make an error of law”
that would require reversal. Pandeli, 216 Ariz. at ¶ 4.
The PCR court made the following findings of the facts
to reach its conclusion. First, trial counsel testified that
she knew Mr. Nunez Diaz’s goals was the best possible

1

Strickland’s standard for ineffective assistance of counsel was
first applied to guilty pleas in Hill v. Lockhart, 474 U.S. 52, 58-59
(1985).

204a
resolution for his immigration status. TR 27:22-25;
28:1. Second, trial counsel indicated that she was
familiar with Padilla. TR. 29:21-25; 30:1-2. Third, Mr.
Nunez Diaz testified that trial counsel “informed him
that he was not going to have any consequences to
pleading guilty nor would he have any immigration
consequences because her office had attorneys for that
and that would not be a problem.” PCR Ct. Op. at 2.
Fourth, trial counsel testified that “she learned that
the plea was the ‘kiss of death’ before the defendant
took the plea.” PCR Ct. Op. at 2. Fifth, Mr. Nunez Diaz
testified that he relied on statements from his attorney
and entered the plea agreement and “although the
court stated there might be consequences, he signed
the plea because his attorney said there would be no
immigration consequences.” PCR Ct. Op. at 2; See also
PCR Hr’g Tr. 7:20-24; 8:4-8.
Looking at the facts cumulatively, the PCR court
did not fail to adequately investigate the facts that led
to its decision. These findings of fact, support that that
counsel was ineffective under Padilla. The PCR court
implicitly followed the same analysis as in Padilla. The
PCR court’s implicit finding was just like the
conclusion in Padilla -- more than merely a general
warning, defense counsel is required to advise a
defendant about the specific immigration consequences
of a plea. Padilla, 559 U.S. at 369. Advice that a
conviction “may carry a risk of adverse immigration
consequences” or “may make you eligible for
deportation” is insufficient where the immigration
consequences are clear. Id. The failure to give “correct”
advice constitutes deficient performance under
Strickland. Id.

205a
II. BECAUSE OF THE SINGULAR HARM
P R O D U C E D B Y D E P O R TA T I O N , A
NONCITIZEN CRIMINAL DEFENDANT
SATISFIES STRICKLAND’S REQUIREMENT
OF PREJUDICE BY DEMONSTRATING A
REASONABLE PROBABILITY THAT, BUT
FOR THE INEFFECTIVE ASSISTANCE OF
COUNSEL, HE WOULD NOT HAVE PLEADED
GUILTY.
In light of the frequently drastic consequences of
deportation for noncitizen criminal defendants, it is
reasonable for certain defendants to reject a
deportation-enabling plea deal. A defendant
demonstrates prejudice by showing that “there is a
reasonable probability that, but for counsel’s errors, he
would not have pleaded guilty.” Hill v. Lockhart, 474
U.S. 52, 59 (1985). Padilla tells us that it violates the
competency prong of Strickland’s ineffective assistance
test when counsel fails to advise a client correctly about
deportation consequences of a conviction.
A. A defendant establishes a reasonable probability
that he would not have pled guilty by
demonstrating that the decision to reject the plea
agreement would have been rational under the
defendant’s unique circumstances.
To establish reasonable probability that he would
not have pled guilty, the noncitizen criminal defendant
merely has to show that the decision to reject the plea
would have been “rational under the circumstances.”
Padilla, 559 U.S. at 372. Unsurprisingly, then, it is
“rational” for noncitizen criminal defendants with close
ties to the United States have an overriding interest in

206a
avoiding deportation, even if that means rejecting plea
deals that minimize sentences, and even when the
evidence of guilt may be strong. Many who have
accepted deportation-enabling plea deals on deficient
advice of counsel regarding the convictions immigration
consequences would have rejected those plea deals if
properly counseled -- and understandably so. That
satisfies Strickland’s prejudice inquiry as it applies in
this context: that, but for defective assistance of
counsel, the defendant would have rationally rejected
the plea deal that was accepted. When everything most
important in one’s life rides on remaining in this
country, it is rational --and likely --- that one would
reject a plea that triggers mandatory deportation.
B. The decision to reject a plea agreement is
rational even such a decision risks a more severe
conviction or prison sentence at trial
In Jae Lee v. United States, the Supreme Court
considered the standard for proving prejudice under
Padilla. The Court reiterated the Strickland standard
of a “reasonable probability” that, but-for counsel’s
errors, ‘the result of the proceedings would be
different.” 137 S. Ct. 1958, 1974 (2017). The Court
however, rejected the Sixth Circuit’s per se rule that a
defendant who pleads guilty when there is strong
evidence of guilt could never show that she was
prejudiced by her attorney’s incompetent immigration
advice. Id. at 1966-67. In other words, a court does not
look at whether the result of a trial would have been
different from the result of the plea agreement. The
question is whether the defendant was prejudiced by
the “denial of the entire judicial proceeding . . .to which

207a
he had a right.” Id. at 1965 (quoting Roe, 528 U.S. at
483).
The Court explained that the inquiry in Hill v.
Lockhart – would a defendant have rejected the plea
and insisted on going to trial—focuses on a particular
defendant’s decision-making, which may not turn solely
on the likelihood of conviction after trial. Jae Lee, 137
S.Ct. at 1966. A prediction of the likely outcome at trial
is not appropriate where the error is one that is not
claimed to be pertinent to a trial outcome, but is
instead claimed to have “affected a defendant’s
understanding of the consequences of his guilty plea.”
Id. at 1967 n.3. For someone like Lee, for whom
avoiding deportation was “the determinative factor,” a
court must consider when “asking what an individual
defendant would have done, the possibility of even a
highly improbable result may be pertinent to the extent
it would have affected his decision making.” Id. at
1967. The likelihood of conviction, thus, is one of
several factors that a defendant like Lee will weigh
when deciding how to proceed in a case. In applying the
Hill standard to Lee’s case, the Court looked to
contemporaneous evidence to substantiate his
expressed priorities. Id. at 1966. In finding that Lee
had demonstrated that he was prejudiced by the
attorney error, the Court noted that “deportation was
the determinative issue in Lee’s decision whether to
accept the plea deal.” Id. Specifically, the court pointed
to Lee’s repeated inquiries to his attorney about the
risk of deportation, and his and his attorney’s
testimony in the post-conviction proceedings that he
would have gone to trial had he known the immigration
consequences. Id.

208a
Here, Mr. Nunez Diaz testified that “if his attorney
would have told him of consequences, he would not
have signed the plea.” PCR Op. at 2. His sister
testified that they hired the firm of Alcock and
Associates to help her brother stay in the country.
(“That was our concern all the time, which (sic) he got
arrested and concern was immigration since my
brother doesn’t have a legal status in here”). PCR Hr’g
Tr. At 16:11-13. Trial counsel testified that Mr. NunezDiaz’s “was hopeful for a reduction in charges that
could lead to the best possible resolution for his
immigration situation.” PCR Hr’g Tr. at 27:24-25, 28:1.
Focusing instead on only the strength of the evidence
of guilt ignores a fundamental feature of any rational
risk reward calculus: the magnitude of reward should
the risk pay off.
The State’s argument is more akin to the dissent in
Jae Lee. “The dissent contends that a defendant must
also show that he would have been better off going to
trial.” Lee, 137 S. Ct. at 1965. Here Lee knew, correctly,
that his prospects of acquittal at trial were grim, and
his attorney’s error had nothing to do with that. The
error was instead one that affected Lee’s
understanding of the consequences of pleading guilty.
Just as in Lee, Mr. Nunez-Diaz claims he would not
have accepted the plea. There the U.S. Supreme Court
found there was a reasonable probability he would not
have pleaded guilty. So too did the trial court for Mr.
Nunez-Diaz. Mr. Nunez-Diaz testified under oath he
would not have taken the plea if he had known the
consequences. This is supported by his sister testifying
the family hired an attorney because they were
concerned about the immigration consequences. Trial

209a
counsel re-affirmed that Mr. Nunez-Diaz’s concern was
his immigration status. If the State wants to find out if
Mr. Nunez-Diaz will file a motion to suppress and then
go to trial if evidence remains, all it needs to do is stop
appealing.
Where a noncitizen defendant faces certain
deportation under a plea deal, and the harms of
deportation are sufficiently dire, he or she can
rationally – and will likely – choose to reject that deal
even if the risk of doing so is so high, given that the
potential reward (acquittal is of immense value.) State
v. Nkiam, 778 S.E.2d 863, 873-87 (N.C. Ct. App. 2015).
C. Appellate courts from state and federal
jurisdictions have held that trial courts must
factor the defendant’s desire to avoid deportation
into the analysis of whether the decision to reject
a plea agreement would have been “rational.”
State courts of last resort as well as the Third and
Seventh Circuit Court of appeals have held that the
defendant’s desire to avoid deportation must be
considered, along with other unique circumstances, in
the analysis of whether it would have been rational to
reject the plea agreement in an effort to avoid
deportation. See Denisyuk v. State, 422 Md. 462 (2011);
State v. Sandoval, 171 Wash.2d 163, 249 P.3d 1015,
1022 (2011); accord Hill v. Lockhart, 474 U.S. 52, 60
(1985)(referencing the importance of “special
circumstances that might support the conclusion that
[the defendant] placed particular emphasis on [a
specific consequence] in deciding whether or not to
plead guilty”); see also DeBartolo v. United States, 760
F.3d 775, 778 (7th Cir. 2015)(“DeBartolo

210a
unquestionably wants to roll the dice, which is strong
evidence that he also would have chosen to roll the dice
four years ago he had known about the deportation
threat. He faces the same risk of conviction and a long
sentence now that he did then.”); People v. Sifuentes,
410 P.3d 730 (Colo. App., 2017)(“…we conclude that
rejecting the guilty plea offer and going to trial would
have been a rational decision for defendant
here…’recognizing that the relevant question is
whether taking “a chance, however slim, of being
acquitted after trial would have been rational’”)(citing
People v. Picca , 97 A.D.3d 170, 947 N.Y.S.2d 120, 130
(2012)); Keserovic v. State, 345 P.3d 1024, 158 Idaho
234 (Idaho App., 2015). These cases demonstrate that
a failure to consider the desire to avoid deportation
renders the Strickland/Padilla prejudice analysis
fatally flawed.
In Denisyuk, where counsel gave no advice
regarding deportation, the petitioner established
sufficient prejudice solely with an uncontroverted
affidavit stating that the petitioner would have rejected
the plea and gone to trial if he had known of the
deportation consequence. See Denisyuk, 422 Md. at
487-89. The state argued that the petitioner could not
demonstrate the requisite prejudice because he was
facing multiple charges, the evidence against him was
overwhelming, and the plea argument was favorable.
See id. at 487. The Denisyuk Court recognized these
factors but noted that the state was assuming that
“conviction of fewer charges and a relatively short
period of incarceration” were the petitioner’s top
priorities when he entered his plea. Id. Endorsing the
Padilla Court’s observation (quoting St. Cyr, 533 U.S.

211a
at 322), that “preserving the client’s right to remain in
the United States may be more important to the client
than any jail sentence,” the Denisyuk Court found that
it was rational for a defendant to “run the risk of
significant jail time, rather than the near certainty of
deportation.” Denisyuk, 422 Md. at 488.
The Denisyuk Court further explained that “many
noncitizens might reasonably choose the possibility of
avoiding deportation combined with the risk of a
greater sentence over assured deportation combined
with a lesser sentence.” Id. Explicitly rejecting the
state’s assertion that the inevitability of conviction
eliminated the possibility of prejudice, the Court
indicated that the state misunderstood “the focus of the
prejudice inquiry in cases involving plea agreements.”
Id. The Court stated that the “appropriate
determination is not whether Petitioner ultimately
would have been convicted following a trial, but rather
whether there ‘is a reasonable probability that, but for
counsel’s errors, [Petitioner] would not have pleaded
guilty.’” Id. at 488-89 (emphasis in original) (citing Hill,
474 U.S. at 59).
In Sandoval, the defendant’s decision to go to trial
in an attempt to avoid deportation was deemed
rational, even though he risked a very long prison
sentence, because of the severity of the deportation
consequence. The Sandoval defendant was charged
with rape in the second degree, which carried a
standard sentencing range of 78 to 102 month’s
imprisonment and a maximum sentence of life. See
Sandoval, 171 Wash.2d at 175. He pled guilty to rape
in the third degree, which carried a standard

212a
sentencing range of six to twelve months. See id. at
167. The Sandoval Court accepted “the State’s
argument that the disparity in punishment ma[de] it
less likely that Sandoval would have been rational in
refusing the plea offer.” Id. at 175. However, the Court
noted that “Sandoval had earned permanent residency
and made this country his home.” Id. The Court further
noted that for criminal defendants, “deportation no less
than prison can mean banishment or exile, and
separation 22 from their families.” Id. at 175-76
(internal quotations omitted). Therefore, the Sandoval
Court concluded that “given the severity of the
deportation consequence, . . . Sandoval would have
been rational to take his chances at trial.” Id. at 176.
The case law from other jurisdictions demonstrates
that a defendant establishes the requisite prejudice to
support a finding of ineffective assistance of counsel
under the Sixth Amendment if the defendant
demonstrates a reasonable probability that, absent
counsel’s deficient performance, he would have rejected
the plea agreement. These cases also demonstrate that
a decision to reject the plea agreement and proceed to
trial, or seek a non-deportable resolution, must be
considered in the light of the defendant’s unique
circumstances, including the desire to avoid
deportation. Thus, it can be “rational under the
circumstances” for a noncitizen to reject a plea
agreement even if he risks a conviction of a serious
charge, and significant prison time.
CONCLUSION
“A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Strickland,

213a
466 U.S. at 694. All of the possibilities outlined
undermine confidence in the outcome for Mr. Nunez
Diaz, namely, he would not have plead guilty had he
known the immigration consequences. The prejudice
inquiry is not about whether a defendant can show he
would have been victorious at trial. Rather, it is about
whether a decision to reject the plea would have been
rational had that defendant been fully and correctly
informed that it would render him deportable, and had
counsel used immigration consequences as a
touchstone in counseling the client about any plea and
in negotiations. Siding with the State is allowing
unscrupulous attorneys to charge a family thousands
of dollars, affirmatively lie to their clients to accept
guilty pleas, and never have to face the repercussions
of a Rule 32 proceeding.
DATED: (electronically filed) March 25, 2019.
/s/
Ray A. Ybarra Maldonado
Attorney for Respondent

/s/
Juliana Manzanarez
Attorney for Respondent

214a

APPENDIX M
IN THE SUPREME COURT OF
THE STATE OF ARIZONA
No. CR 18-0514 PR
[Filed April 8, 2019]
__________________________
STATE OF ARIZONA,
)
Petitioner,
)
)
vs.
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ,
)
Respondent.
)
__________________________ )
On Review of a Memorandum Decision
of the Court of Appeals, Division One
No. 1 CA-CR 16-0793 PRPC
BRIEF OF AMICI CURIAE ARIZONA
ATTORNEYS FOR CRIMINAL JUSTICE,
THE PIMA COUNTY PUBLIC DEFENDER,
AND THE FEDERAL PUBLIC DEFENDER
FOR THE DISTRICT OF ARIZONA
IN SUPPORT OF RESPONDENT
JOHN WALTERS #031046
Office of the Pima County

215a
Public Defender
33 North Stone Avenue, 21st Floor
Tucson, Arizona 85701
(520) 724-6986 voice
John.walters@pima.gov
GRANT D. WILLE #031989
Ralls & Reidy, P.C.
314 South Sixth Avenue
Tucson, Arizona 85701
(520) 884-1234 voice
grant@rallslawoffice.com
JON M. SANDS
Federal Public Defender
KEITH J. HILZENDEGER #023685
Assistant Federal Public Defender
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
(602) 382-2700 voice
(602) 382-2800 facsimile
keith_hilzendeger@fd.org
Attorneys for Amici Curiae
Arizona Attorneys for Criminal Justice,
Pima County Public Defender,
and the Federal Public Defender
for the District of Arizona

216a
TABLE OF CONTENTS
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Interest of Amici Curiae . . . . . . . . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . 2
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
1. This Court should dismiss the petition for
review as improvidently granted because the
superior court implicitly found that Mr.
Nunez would have preferred to go to trial in
order to preserve whatever right he may
have had to remain in or return to the United
States. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
2. Otherwise, this Court should remand the
case to the superior court to allow Mr. Nunez
to clarify the allegations surrounding his
ineffective-assistance claim. . . . . . . . . . . . . . 12
A. The record does not adequately explain
what immigration benefits Mr. Nunez
might have been eligible for as an
undocumented alien. . . . . . . . . . . . . . . . . 13
B. The record does not adequately explain
whether the only alternative to the
paraphernalia plea that was available to
Mr. Nunez was a trial on the possession
charges.. . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

217a
Certificate of Compliance. . . . . . . . . . . . . . . . . . . . . 21
Certificate of Service . . . . . . . . . . . . . . . . . . . . . . . . 22

218a
TABLE OF AUTHORITIES
Cases
Commonwealth v. DeJesus,
9 N.E.3d 789 (Mass. 2014) . . . . . . . . . . . . . . . . . 19
Commonwealth v. Lavrinenko,
38 N.E.3d 278 (Mass. 2015) . . . . . . . . . . . . . . . . 15
Commonwealth v. Lys,
110 N.E.3d 1201 (Mass. 2018) . . . . . . . . . . . . . . 17
Commonwealth v. Marinho,
981 N.E.2d 648 (Mass. 2013) . . . . . . . . . . . . . . . 10
Coronado-Durazo v. INS,
123 F.3d 1322 (9th Cir. 1997). . . . . . . . . . . . . . . . 4
Cosio-Nava v. State,
383 P.3d 1214 (Idaho 2016) . . . . . . . . . . . . . . . . 18
Ex parte Aguilar,
537 S.W.3d 122 (Tex. Crim. App. 2017) . . . . . . . 10
Gonzalez-Dominguez v. Sessions,
743 F. App’x 808 (9th Cir. 2018) . . . . . . . . . . . . 15
Heckler v. Chaney,
470 U.S. 821 (1985). . . . . . . . . . . . . . . . . . . . . . . 14
Hernandez v. State,
124 So. 3d 757 (Fla. 2012) . . . . . . . . . . . . . . . . . . 3
Hill v. Lockhart,
474 U.S. 52 (1985). . . . . . . . . . . . . . . . . . . . . . . 7, 8
INS v. St. Cyr,
533 U.S. 289 (2001) . . . . . . . . . . . . . . . . . . . . 8, 10

219a
Lee v. United States,
137 S. Ct. 1958 (2017). . . . . . . . . . . . . . . . . passim
Madrid-Fanfan v. Sessions,
729 F. App’x 621 (9th Cir. 2018) . . . . . . . . . . . . 15
McMann v. Richardson,
397 U.S. 759 (1970). . . . . . . . . . . . . . . . . . . . . . . . 7
Missouri v. Frye,
566 U.S. 134 (2012). . . . . . . . . . . . . . . . . . . . . . . . 7
Morales Diaz v. State,
896 N.W.2d 723 (Iowa 2017) . . . . . . . . . . . . . 9, 10
Ortega-Ariaza v. State,
331 P.3d 1189 (Wyo. 2014) . . . . . . . . . . . . . . . . . . 3
Padilla v. Kentucky,
559 U.S. 354 (2009). . . . . . . . . . . . . . . . . . . passim
People v. Martinez,
304 P.3d 529 (Cal. 2013). . . . . . . . . . . . . . . . 17, 18
People v. Patterson,
391 P.3d 1169 (Cal. 2017) . . . . . . . . . . . . . . . . . . . 3
Roe v. Flores-Ortega,
529 U.S. 470 (2000). . . . . . . . . . . . . . . . . . . . . . . . 8
State v. Nunez-Diaz,
No. 1 CA-CR 16-0793 PRPC, 2018 WL 4500758
(Ariz. Ct. App. Sept. 18, 2018) . . . . . . . . . . . . . 6–7
State v. Medrano,
185 Ariz. 192, 914 P.2d 225 (1996). . . . . . . . . . . 11

220a
State v. Miles,
243 Ariz. 511, 414 P.3d 680 (2018). . . . . . . . . . . 11
State v. Moody,
208 Ariz. 424, 94 P.3d 1119 (2004). . . . . . . . . . . 11
State v. Pandeli,
242 Ariz. 173, 394 P.3d 2 (2017). . . . . . . . . . . . . 11
State v. Peoples,
240 Ariz. 244, 378 P.3d 421 (2016). . . . . . . . . . . 11
State v. Sandoval,
249 P.3d 1015 (Wash. 2011) . . . . . . . . . . . . . . . . . 3
Taylor v. State,
810 S.E.2d 862 (S.C. 2018) . . . . . . . . . . . . . . . . . . 3
United States v. Akinsade,
686 F.3d 248 (4th Cir. 2012). . . . . . . . . . . . . . . . . 3
United States v. Mendoza-Lopez,
481 U.S. 828 (1987). . . . . . . . . . . . . . . . . . . . . . . . 2
United States v. Rodriguez-Vega,
797 F.3d 781 (9th Cir. 2015). . . . . . . . . . . . . . . . 17
Zemene v. Clarke,
768 S.E.2d 684 (Va. 2015). . . . . . . . . . . . . . . . . . 17
Zheng v. Ashcroft,
332 F.3d 1186 (9th Cir. 2003). . . . . . . . . . . . . . . 14
Statutes
8 U.S.C. § 1158 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
8 U.S.C. § 1182 . . . . . . . . . . . . . . . . . . . . . . . . . . 14–15

221a
8 U.S.C. § 1227 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
8 U.S.C. § 1229 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 U.S.C. § 1229b . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
8 U.S.C. § 1326 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 3006A. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A.R.S. § 13-901.01 . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A.R.S. § 13-1002 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A.R.S. § 13-3407 . . . . . . . . . . . . . . . . . . . . . . 3, 15, 18
A.R.S. § 13-3408 . . . . . . . . . . . . . . . . . . . . . 3, 4, 15, 18
A.R.S. § 13-3415 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Rules
Ariz. R. Crim. P. 17.2 . . . . . . . . . . . . . . . . . . . . . . . . 3
Ariz. Sup. Ct. R. 111 . . . . . . . . . . . . . . . . . . . . . . . . 12
Constitutional Provisions
U.S. Const. amend. VI . . . . . . . . . . . . . . . . 7, 9, 12, 16
Other Authorities
Daniel A. Horwitz, Actually, Padilla Does Apply to
Undocumented Defendants, 19 Harv. Latino L.
Rev. 1 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

222a
INTEREST OF AMICI CURIAE
This brief is filed on behalf of three groups of
criminal defense lawyers who regularly represent
noncitizens facing criminal charges. Arizona Attorneys
for Criminal Justice (AACJ), the Arizona state affiliate
of the National Association of Criminal Defense
Lawyers, was founded in 1986 in order to give a voice
to the rights of the criminally accused and to those
lawyers who defend them. AACJ is a statewide
nonprofit membership organization of criminal defense
lawyers, law students, and associated professionals
dedicated to protecting the rights of the criminally
accused, including noncitizens, in the courts and to
promoting excellence in the practice of criminal law
through education, training, and mutual assistance.
The Pima County Public Defender (PCPD) is the
second largest indigent defense agency in Arizona
tasked with defending those accused of felony offenses.
With a staff that includes 80 attorneys, PCPD
represents many thousands of clients every year on
felony charges, including numerous noncitizens whose
interests in the outcome of their criminal proceedings
extend to obtaining favorable impacts on their
immigration status, minimizing adverse consequences
for any related removal proceedings, and preserving
their interest in remaining in the United States. PCPD
also routinely represents clients in postconviction
proceedings before the Superior Court, the Arizona
Court of Appeals, and this Court. Each year Arizona’s
appellate courts publish opinions in several of PCPD’s
cases.

223a
The Federal Public Defender for the District of
Arizona (FPD-AZ) is the entity organized under 18
U.S.C. § 3006A(g), the Criminal Justice Act of 1964, to
provide representation to indigent persons facing
federal criminal charges before the United States
District Court for the District of Arizona, the United
States Court of Appeals for the Ninth Circuit, and the
Supreme Court of the United States. FPD-AZ is one of
five such entities that serve a district along the U.S.
border with Mexico, and so FPD-AZ’s annual caseload
includes representing numerous noncitizens in criminal
immigration prosecutions for illegal reentry under 8
U.S.C. § 1326. In those cases, the fairness of FPD-AZ’s
clients’ prior removal proceedings, including the
effective assistance of counsel in any criminal
proceeding that led to that client’s removal from the
United States, is a regular subject of FPD-AZ’s
litigation practice. See 8 U.S.C. § 1326(d); United States
v. Mendoza-Lopez, 481 U.S. 828 (1987).
Together, AACJ, PCPD, and FPD-AZ work to
establish professional standards that protect the rights
of noncitizen clients to due process in criminal
proceedings and to competent advice regarding the
outcome of those proceedings. Amici have thus accepted
this Court’s invitation to file a brief expressing their
view about the proper outcome of this case, and offer
their perspective in order to promote the sound
development of the law.
STATEMENT OF THE CASE
On June 29, 2013, Mr. Nunez was arrested during
a traffic stop in Phoenix when he was discovered in
possession of small amounts of methamphetamine and

224a
cocaine. He was charged in Maricopa County Superior
Court with two class 4 felonies—possession of a
dangerous drug, in violation of A.R.S. § 13-3407(A)(1),
and possession of a narcotic drug, in violation of A.R.S.
§ 13-3408(A)(1). Less than a month later, on July 22,
2013, he pleaded guilty to possession of drug
paraphernalia, in violation of A.R.S. § 13-3415(A), a
class 6 undesignated felony, pursuant to a plea
agreement. As part of the plea colloquy, Mr. Nunez was
advised (as state law requires) that his guilty plea
“may affect” his immigration status. See Ariz. R. Crim.
P. 17.2(f) (2013).* Consistent with the plea agreement,
the court suspended imposition of sentence, placed Mr.
Nunez on 18 months of unsupervised probation, and
ordered him to pay a fine.
At the time of his arrest, Mr. Nunez was an
undocumented alien with no criminal history. His
guilty plea led to him being placed in removal

*

Before this Court, the state has abandoned any argument that
this advisement defeats Mr. Nunez’s ineffective-assistance claim.
Even so, several courts have held that such a general advisement
does not cure any inadequate advice from counsel about the
specific immigration consequences of any particular defendant’s
conviction. See People v. Patterson, 391 P.3d 1169, 1178 (Cal.
2017); Hernandez v. State, 124 So. 3d 757, 763 (Fla. 2012) (holding
that a general advisement about immigration consequences does
not categorically bar a Padilla-based ineffective-assistance claim);
Taylor v. State, 810 S.E.2d 862, 865 (S.C. 2018); State v. Sandoval,
249 P.3d 1015, 1020 (Wash. 2011) (stating that the “guilty plea
statement warnings… cannot save the advice that counsel gave”);
Ortega-Ariaza v. State, 331 P.3d 1189, 1197 (Wyo. 2014); United
States v. Akinsade, 686 F.3d 248, 254 (4th Cir. 2012) (“This general
and equivocal admonishment [in a plea colloquy] is insufficient to
correct counsel’s affirmative misadvice….”).

225a
proceedings. In lieu of a removal order, Mr. Nunez
agreed to voluntary departure, and left the United
States for his native Mexico. During both the criminal
proceedings and the subsequent immigration
proceedings, Mr. Nunez was represented by retained
counsel.
On September 5, 2013, with the assistance of new
retained counsel, Mr. Nunez filed a timely notice of
postconviction relief. In his petition, he asserted that
trial counsel was aware that the paraphernalia plea
meant that his “immigration fate was destined for
failure” because it made him “ineligible for various
potential remedies.” (Amended Petition 9/10/2014 at 4,
5) He asserted that trial counsel did not request any
alternative plea that would provide a more favorable
immigration outcome for him. (Amended Petition
9/10/2014 at 9) He asserted that if trial counsel had
considered the immigration consequences of the
paraphernalia plea, he could have negotiated a plea to
some kind of solicitation offense, such as solicitation to
possess a narcotic drug, in violation of A.R.S. §§ 131002 and -3408(A)(1), which would have had more
favorable to his immigration situation. (Amended
Petition 9/10/2014 at 6) See Coronado-Durazo v. INS,
123 F.3d 1322, 1325–26 (9th Cir. 1997) (holding that
solicitation to possess cocaine under Arizona law was
not a removable offense). He asserted that if trial
counsel had taken his immigration situation into
account in plea negotiations, he would not have been
subject to mandatory detention while his removal
proceedings were ongoing. (Amended Petition 9/10/2014
at 10) However, he did not specifically allege that he
would have proceeded to trial on the possession charges

226a
if he had been properly advised about the immigration
consequences of the paraphernalia plea. He asked the
court to allow him to withdraw his guilty plea so that
he could plead guilty to a different offense and thereby
avoid removal proceedings and mandatory detention.
(Amended Petition 9/10/2014 at 13)
The superior court held an evidentiary hearing. Mr.
Nunez testified that trial counsel told him that “there
were not going to be any immigration consequences”
from his guilty plea. (RT 10/27/2015 at 7:23–24; see also
RT 10/27/2015 at 10:17–20) He also testified that if
trial counsel had affirmatively told him that the plea
would have immigration consequences, he would not
have signed it. (RT 10/27/2015 at 9:15–18) Trial counsel
testified that she had asked the prosecutor to allow Mr.
Nunez to plead guilty to a solicitation offense, but that
the request was declined. (RT 10/27/2015 at 28:20 to
29:6; see also RT 10/27/2015 at 44:4 to 45:11; 48:20 to
49:10) She testified that she had learned before she
began representing Mr. Nunez that a paraphernalia
plea was “essentially the kiss of death in immigration”
proceedings. (RT 10/27/2015 at 35:22 to 36:10) She also
testified that she “absolutely” told Mr. Nunez that the
paraphernalia plea would have immigration
consequences. (RT 10/27/2015 at 29:15–20) There was
no evidence presented either about the immigration
benefits that Mr. Nunez might have sought in spite of
his undocumented status or how the paraphernalia
plea affected his eligibility for those benefits.
Following the hearing, the court granted Mr.
Nunez’s petition and vacated his guilty plea. The court
credited the testimony of Mr. Nunez over that of trial

227a
counsel. The court concluded that trial counsel
“misrepresented the immigration consequences to
defendant. Counsel was well aware that the defendant
and his family were concerned about the immigration
consequences because of defendant’s status in the
United States.” (12/30/2015 Ruling at 4) The court
found that trial counsel failed to refer Mr. Nunez to an
immigration attorney before he accepted the state’s
plea offer. “Based on the evidence presented, this court
finds that counsel’s actions fell below an objective
standard of reasonableness.” (12/30/2015 Ruling at 4)
The court further found that as a result of trial
counsel’s affirmative misrepresentation about the
immigration consequences of the plea to a
paraphernalia charge, Mr. Nunez was “placed in
removal proceedings and was held without bond.”
(12/30/2015 Ruling at 4) “Defendant would not have
signed the plea if he was adequately advised of the
immigration[] consequences.” (12/30/2015 Ruling at 4)
The court made no findings about what Mr. Nunez
knew regarding the immigration consequences of his
plea or what immigration benefits he would have
sought if he had not pleaded guilty to the
paraphernalia charge. The court set aside Mr. Nunez’s
guilty plea. (12/30/2015 Ruling at 5)
The state petitioned for review of the superior
court’s decision to grant Mr. Nunez’s postconviction
petition. Without calling for a response from Mr.
Nunez, a divided panel of the court of appeals affirmed
the grant of postconviction relief. Because the superior
court had credited Mr. Nunez’s testimony at the
evidentiary hearing, the court concluded, Mr. Nunez
had proven both components of the ineffective-

228a
assistance claim he raised. “Although there was
testimony that Nunez-Diaz was generally advised that
there would be immigration consequences…, he
testified that he would not have signed the plea
agreement had he been advised of the specific
immigration consequences of the plea.” State v. NunezDiaz, No. 1 CA-7 CR 2016-0793 PRPC, 2018 WL
4500758, at *2 (Ariz. Ct. App. Sept. 18, 2018). The
court also observed that, although Mr. Nunez was a
“deportable alien prior to his conviction” on the ground
that he had no legal status in the United States, see 8
U.S.C. § 1227(a)(1)(B), “the record below does not
establish that he necessarily would have been deported
had he gone to trial and been acquitted of the charges.”
Id. n.1.
The dissenting judge would have reversed the grant
of Mr. Nunez’s ineffective-assistance claim. In his view,
the fact that Mr. Nunez was an undocumented alien at
the time of his arrest meant that he could not show
prejudice from any incorrect advice about the
immigration consequences of his guilty plea. Id. at *3.
ARGUMENT
The Sixth Amendment right to effective assistance
of counsel in criminal proceedings applies both to the
advice a criminal defendant receives in regard to any
plea offer extended to him as well as to the decision to
accept that offer and plead guilty. Missouri v. Frye, 566
U.S. 134, 140 (2012) (citing Padilla v. Kentucky, 559
U.S. 356 (2010); Hill v. Lockhart, 474 U.S. 52 (1985)).
This guarantee ensures that “no criminal
defendant—whether a citizen or not—is left to the
‘mercies of incompetent counsel.’” Padilla, 559 U.S. at

229a
374 (quoting McMann v. Richardson, 397 U.S. 759, 771
(1970)). When counsel advises any noncitizen
defendant about how to resolve a criminal charge,
“preserving the client’s right to remain in the United
States may be more important to the client than any
potential jail sentence” that he may receive under a
plea agreement. Id. at 368 (quoting INS v. St. Cyr, 533
U.S. 289, 322 (2001)). Thus, to discharge her
constitutional obligation to provide competent advice
relating to a guilty plea, defense counsel “must inform
her client whether his plea carries a risk of
deportation.” Id. at 374. When the “deportation
consequence is truly clear,” the “duty to give correct
advice is equally clear.” Id. at 369.
A postconviction claim of ineffective assistance of
counsel in connection with the immigration
consequences of a guilty plea will not succeed unless
the claimant can show prejudice from counsel’s
incorrect advice. In general, prejudice in this context
means that there was a “reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Lee v. United
States, 137 S. Ct. 1958, 1964 (2017) (quoting Roe v.
Flores-Ortega, 529 U.S. 470, 482 (2000)). The showing
of prejudice required in this context does not depend on
“how a hypothetical trial would have played out absent
the error.” Id. at 1965 (discussing Hill, 474 U.S. at 60).
Thus where, as here, the claim relates to defense
counsel’s incorrect advice about the immigration
consequences of a guilty plea, the metric of prejudice is
whether “but for counsel’s errors,” the claimant “would
not have pleaded guilty and would have insisted on

230a
going to trial.” Id. at 1965 (quoting Hill, 474 U.S. at
59).
“The decision whether to plead guilty also involves
assessing the respective consequences of a conviction
after trial and by plea.” Id. at 1966 (citing St. Cyr, 533
U.S. at 322–23). In Padilla the Supreme Court said
that in order to show prejudice, the decision to reject a
plea offer and go to trial must be “rational under the
circumstances.” 559 U.S. at 372. Where a plea offer
carries an absolute certainty that deportation will be
the inevitable result, the Supreme Court has held that
it is not irrational for a defendant like Mr. Nunez to
roll the dice at trial in order to avoid a result that
certainly bars him from ever returning to the United
States. See Lee, 137 S. Ct. at 1968–69.
Supported by the dissenting judge below, the state
contends that Mr. Nunez categorically cannot show
prejudice from any incorrect advice about the
immigration consequences of his plea because he had
no legal status in the United States at the time of his
arrest. In the state’s view, this fact should have been
dispositive of Mr. Nunez’s ineffective-assistance claim.
(Pet. Rev. at 1) But this contention is both objectively
incorrect and inconsistent with the Sixth Amendment
holding of Padilla.
When it comes to applying the Sixth Amendment
right to effective assistance of counsel, Padilla makes
plain that that right applies to all defendants
regardless of citizenship status. See Padilla, 559 U.S.
at 374. The Sixth Amendment makes no distinction
between categories of noncitizens who may claim the
right to competent advice from counsel about

231a
immigration consequences. There is a “vast difference
for an unauthorized alien between being generally
subject to removal and being convicted of a crime that
subjects an unauthorized alien to automatic,
mandatory, and irreversible removal.” Morales Diaz v.
State, 896 N.W.2d 723, 733 (Iowa 2017). A guilty plea
to certain removable offenses can foreclose an
undocumented alien’s eligibility to adjust status to that
of a lawful permanent resident. See id. (citing 8 U.S.C.
§ 1229(b)(1)(C)); see also Ex parte Aguilar, 537 S.W.3d
122, 127 (Tex. Crim. App. 2017) (holding that
nonimmigrants may raise a viable Padilla claim). In
advising noncitizen clients in connection with plea
negotiations, the Court in Padilla imagined that
counsel “would follow the advice of numerous practice
guides” regarding the discretionary relief available to
their clients and how to protect their eligibility for it.
Padilla, 559 U.S. at 368 (citing St. Cyr, 533 U.S. at 323
n.50). The categorical rule that the dissenting judge
below proposed is incompatible with these assumptions
and inconsistent with the case-by-case assessment that
governs all ineffective-assistance claims. See Lee, 137
S. Ct. at 1967; Commonwealth v. Marinho, 981 N.E.2d
648, 662 n.21 (Mass. 2013) (stating that
“undocumented defendants” raising Padilla claims
must “address the issue of their particular status and
how different performance [of counsel] could have led
to a better outcome”); see also generally Daniel A.
Horwitz, Actually, Padilla Does Apply to Undocumented
Defendants, 19 Harv. Latino L. Rev. 1, 15–23 (2016)
(explaining how undocumented aliens can show
prejudice on a Padilla claim).

232a
The record in this case demonstrates that trial
counsel did not appropriately investigate or advise Mr.
Nunez about how either accepting the state’s plea offer
or going to trial would affect his immigration status,
including any discretionary relief from removal that
might have been available to him as an undocumented
alien. The record likewise demonstrates that Mr.
Nunez would have preferred rolling the dice on an
acquittal at trial over taking a plea deal that meant he
would be forever barred from returning to the United
States. Under these circumstances, this Court should
either dismiss the petition for review as improvidently
granted or remand the case to the superior court for
further proceedings.
1. This Court should dismiss the petition for
review as improvidently granted because the
superior court implicitly found that Mr.
Nunez would have preferred to go to trial in
order to preserve whatever right he may have
had to remain in or return to the United
States.
This Court reviews a postconviction ruling for abuse
of discretion. See State v. Miles, 243 Ariz. 511, 513 ¶ 7,
414 P.3d 680, 682 (2018) (citing State v. Pandeli, 242
Ariz. 175, 180 ¶ 4, 394 P.3d 2, 7 (2017)). In reviewing
for abuse of discretion, this Court views the facts in the
light most favorable to upholding the trial court’s
ruling, including any implicit finding necessary to
uphold that ruling. See State v. Peoples, 240 Ariz. 244,
249 ¶ 21, 378 P.3d 421, 426 (2016). This Court
“presume[s] that a court is aware of the relevant law
and applies it correctly in arriving at its ruling.” State

233a
v. Moody, 208 Ariz. 424, 443 ¶ 49, 94 P.3d 1119, 1138
(2004) (citing State v. Medrano, 185 Ariz. 192, 196, 914
P.2d 225, 229 (1996)).
Under these standards, the superior court’s
factbound ruling granting Mr. Nunez’s petition for
postconviction relief is not reversible. The record
supports the conclusion that Mr. Nunez’s right to
effective assistance of counsel in connection with plea
negotiations was not honored. Both lower courts
credited Mr. Nunez’s testimony that trial counsel told
Mr. Nunez that there would be no immigration
consequences at all stemming from the paraphernalia
plea. The superior court thus correctly found that trial
counsel neither adequately consulted with Mr. Nunez
about his immigration status, including the benefits for
which he was eligible, nor competently advised him
that pleading guilty to the paraphernalia charge would
make him permanently eligible to return to the United
States.
The record also supports the superior court’s finding
of prejudice. The state has consistently suggested that
it would never have offered Mr. Nunez any plea deal
other than the paraphernalia charge to which he
pleaded guilty. Mr. Nunez’s credible assertion that he
would not have signed the plea thus implies that he
would have proceeded to trial in the face of correct
advice about the immigration consequences of the
paraphernalia plea. Padilla reiterates that the Sixth
Amendment applies to all categories of noncitizens in
the same manner that it applies to citizens. Under the
circumstances, the superior court correctly concluded
under Lee that Mr. Nunez would rationally have

234a
concluded to take his case to trial and roll the dice on
an acquittal if that was truly his only hope of ever
lawfully returning to or remaining in the United
States. Dismissing the petition for review would simply
leave a nonprecedential opinion of the court of appeals
in place. See Ariz. Sup. Ct. R. 111(c). The superior
court’s straightforward application of law to facts does
not warrant correction by this Court on discretionary
review.
2. Otherwise, this Court should remand the case
to the superior court to allow Mr. Nunez to
clarify the allegations surrounding his
ineffective-assistance claim.
If this Court does not dismiss the petition for
review, then it should remand this case to the superior
court for further proceedings. Under Padilla, the fact
that Mr. Nunez was undocumented at the time of his
arrest has no bearing on the adequacy of trial counsel’s
advice about whether to accept the paraphernalia plea
offer. Nevertheless, the record is not sufficiently
developed about what immigration benefits Mr. Nunez
was eligible for and what he understood about how
either accepting that offer or proceeding to trial would
have affected his eligibility for those benefits. And
although the trial court’s ruling implicitly addresses
this point, the supporting record is less clear. Lee does
not foreclose a noncitizen from ever making out a
viable claim of prejudice from deficient immigration
advice, but it does require evidence that he would have
gone to trial in the face of proper advice. The state
correctly points out that Mr. Nunez did not specifically
allege in his postconviction petition or at the

235a
evidentiary hearing that he would have gone to trial in
order to preserve even a remote chance of remaining in
or returning to the United States.
This Court should hold that under Padilla and Lee,
a claim of ineffective assistance of counsel predicated
on inadequate advice regarding immigration
consequences requires the claimant to explain the
specific immigration consequences about which he did
not receive adequate advice and the precise course of
action he would have taken in the face of such
adequate advice. Once this Court clarifies the law in
this way, the parties should have another opportunity
to clarify their respective positions in this case.
A. The record does not adequately explain
what immigration benefits Mr. Nunez
might have been eligible for as an
undocumented alien.
The Padilla Court recognized that if a noncitizen
commits a removable offense, “his removal is
practically inevitable but for the possible exercise of
limited remnants of equitable discretion vested in the
Attorney General to cancel removal for noncitizens
convicted of particular classes of offenses.” 559 U.S. at
364 (citing 8 U.S.C. § 1229b). Even the dissenting judge
below recognized that Mr. Nunez had a potential claim
of prejudice stemming from trial counsel’s deficient
advice about the immigration consequences of his
conviction insofar as the conviction affected his
eligibility for discretionary relief from removal. But he
effectively disregarded this potential source of
prejudice, concluding that no matter what Mr. Nunez
could have shown about his eligibility for any

236a
discretionary relief from removal, it would not have
made a difference to Mr. Nunez. That conclusion was
not supported by the record, because there was no
evidence presented to the superior court about any
form of discretionary relief for which Mr. Nunez might
have been eligible.
The discretionary relief available to undocumented
immigrants comes in four main forms. First, the
federal government retains “absolute discretion” to
decline to enforce federal law. Heckler v. Chaney, 470
U.S. 821, 831 (1985). In the immigration context,
exercising this discretion typically takes into account a
person’s criminal history. Second, even undocumented
immigrants can be eligible for asylum, withholding of
removal, or protection under the Convention Against
Torture. See Zheng v. Ashcroft, 332 F.3d 1186, 1193
(9th Cir. 2003). But these forms of relief are not
available to those who have certain criminal
convictions. See 8 U.S.C. § 1158(b)(2)(A)(ii), (b)(2)(B)(i).
Third, cancellation of removal is available to a wide
variety of aliens on humanitarian grounds, including to
victims of trafficking or domestic violence, and to those
who have close relatives in the United States. But
cancellation is not available to aliens who have been
convicted of a crime involving moral turpitude or of a
controlled substances offense. See 8 U.S.C.
§ 1182(a)(2)(A)(i). Fourth, even aliens with no status
can adjust their status to that of a lawful permanent
resident through a qualifying relative. But aliens who
are inadmissible by virtue of a criminal conviction
cannot do this. See 8 U.S.C. § 1182(a)(2). The
dissenting judge would make no room for these forms
of relief in assessing the prejudice component of an

237a
undocumented alien’s Padilla claim. By incorrectly
proclaiming that no undocumented alien would
rationally account for these kinds of discretionary relief
when weighing a plea offer, the dissenting judge’s
conclusion is legally inconsistent with Lee. See also
Commonwealth v. Lavrinenko, 38 N.E.3d 278, 297
(Mass. 2015) (requiring an assessment of available
relief from removal in the prejudice inquiry).
Moreover, we do not know whether Mr. Nunez
would have or could have qualified for one of these
exceptions available to undocumented aliens. Nothing
in the record indicates whether trial counsel ever
investigated that possibility. And it is not even certain
that Mr. Nunez could not have qualified for these
exceptions even if he had been convicted of the original
charges at trial. The Ninth Circuit has conflicting
unpublished decisions on that score. See MadridFanfan v. Sessions, 729 F. App’x 621 (9th Cir. 2018)
(holding that a conviction under A.R.S. § 13-3408 was
categorically not a removable offense); but see
Gonzalez-Dominguez v. Sessions, 743 F. App’x 808 (9th
Cir. 2018) (holding that a conviction under A.R.S. § 133407 can be a removable offense).
In sum, this Court should not sanction the
dissenting judge’s categorical view that no
undocumented alien can ever show the necessary
prejudice on a Padilla claim. That view is incorrect
both as a matter of federal immigration law and under
the Sixth Amendment. Nevertheless, issues regarding
the precise relief that may have been available to Mr.
Nunez in 2013 were not developed during the
postconviction proceedings here. This Court should

238a
remand for further proceedings to address that gap in
the evidence.
B. The record does not adequately explain
whether the only alternative to the
paraphernalia plea that was available to
Mr. Nunez was a trial on the possession
charges.
Both in its petition for review to the court of appeals
and in its supplemental brief to this Court, the state
focuses on Mr. Nunez’s shifting assertions on the
prejudice prong of his Padilla claim as grounds for
reversing the superior court’s decision to grant relief.
The state correctly points out that, before the superior
court, Mr. Nunez did not specifically allege that he
would have gone to trial on the two drug-possession
charges he faced if he had known that pleading guilty
to the paraphernalia charge would have forever
foreclosed his ability to return to the United States.
But because he has consistently maintained that he
would not have signed the plea and the state has
strongly suggested that it would not have extended any
other offer to him, this is not the fatal flaw in the
decisions below that the state believes it to be. Because
the record about the relief that may have been
available to Mr. Nunez in 2013 must be more fully
developed, this Court should return this case to the
superior court so that Mr. Nunez may clarify his
allegations of prejudice against the backdrop of a fullydeveloped record about his immigration situation.
The record shows that Mr. Nunez has adequately
alleged sufficient prejudice within the meaning of
Padilla and Lee to make out a colorable claim of

239a
ineffective assistance of counsel. Whatever other course
of action he might have taken, Mr. Nunez has
consistently maintained that he would not have taken
the deal that was offered to him. Other courts have
held that similar allegations that do not specifically
focus on the desire to go to trial nevertheless make out
a colorable claim of prejudice under Padilla. See People
v. Martinez, 304 P.3d 529, 536 (Cal. 2013) (holding that
a defendant makes a colorable assertion of prejudice by
“provid[ing] a declaration or testimony stating that he
or she would not have entered into the plea bargain if
properly advised”); Commonwealth v. Lys, 110 N.E.3d
1201, 1207 (Mass. 2018) (holding that a defendant met
the “baseline requirement for raising an issue of
prejudice” by asserting “that he would have pursued
other options, including going to trial, had he known
about his plea’s immigration consequences”); Zemene v.
Clarke, 768 S.E.2d 684, 691 (Va. 2015) (holding that an
assertion of obtaining a more favorable plea agreement
sufficiently alleged prejudice); United States v.
Rodriguez-Vega, 797 F.3d 781, 789 (9th Cir. 2015)
(explaining that a defendant may show prejudice “by
showing that she settled on a charge in a purposeful
attempt to avoid an adverse effect on her immigration
status”). This Court should reach the same conclusion
on this record, and hold that the allegations that Mr.
Nunez has made so far are sufficient to allow him to
clarify them on remand.
The state also suggests that there was and only ever
would be one and only one plea offer extended to Mr.
Nunez. But the record is insufficiently developed to
support that suggestion. Although trial counsel
testified that she explored some alternative plea

240a
options, she offered no testimony about how plea
negotiations might have proceeded if Mr. Nunez had
not resolved his case within the context of Maricopa
County’s early disposition program. Nor did the state
present any other testimony about how plea
negotiations might have proceeded. In the experience
of AACJ members who routinely handle drugpossession cases in Maricopa County courts, alternate
offers are routinely extended to defendants who refuse
an initial offer made as part of the early disposition
program. More evidence along these lines would help
flesh out whether an alternative resolution would have
been rational under the circumstances. See Martinez,
304 P.3d at 537 (“To establish prejudice, defendant
must show that he would not have entered into the
plea bargain if properly advised—a decision that might
be based either on the desire to go to trial or on the
hope or expectation of negotiating a different bargain
without immigration consequences.”); but see CosioNava v. State, 383 P.3d 1214, 1219 (Idaho 2016)
(affirming denial of Padilla-based ineffective-assistance
claim because there was no evidence presented about
the viability of alternative resolutions to the charges).
It is also worth noting that the sentence Mr. Nunez
would have faced if convicted on the two possession
charges could have been probation—the same sentence
he received under the paraphernalia plea. Because he
had no criminal history, he was statutorily eligible for
probation even if convicted at trial (indeed, probation
would be required on the narcotic-drugs charge). See
A.R.S. §§ 13-901.01; 13-3407(C); 13-3408(C). Waiting to
resolve his case outside of the early-disposition
program might also have allowed him to assess the

241a
viability of a motion to suppress based on any flaw in
the traffic stop that led to his arrest. See
Commonwealth v. DeJesus, 9 N.E.3d 789, 797 (Mass.
2014) (finding prejudice where a guilty plea waived a
viable motion to suppress). But all of these factors
underscore both Mr. Nunez’s assertion that avoiding
whatever adverse immigration consequences that
would ensue from resolving the charges in this case
was his most important priority and the superior
court’s finding that trial counsel’s advice to Mr. Nunez
on that score was constitutionally deficient.
In sum, the record as a whole is incomplete about
whether a decision by Mr. Nunez to reject the
paraphernalia plea offer would have been rational
under the circumstances. No evidence was presented
about either what Mr. Nunez understood about his
immigration situation or whether he was eligible for
any discretionary relief from removal. Mr. Nunez did
not specifically allege before the superior court that he
wanted to proceed to trial, although his credible
testimony implies as much and he has now made that
specific allegation before this Court. And the record
does not indicate how plea negotiations might have
played out if Mr. Nunez had waited to resolve his case
outside of the early-disposition program. The Court
should remand this case to the superior court for
further proceedings.
CONCLUSION
The reasoning of Padilla makes plain that the Sixth
Amendment right to effective assistance of counsel
extends to all persons, including undocumented
immigrants, who face criminal charges in American

242a
courts. Amici respectfully ask the Court either to
dismiss the petition for review as improvidently
granted or to remand this case to the superior court for
further proceedings.
Respectfully submitted:

April 8, 2019.

JON M. SANDS
Federal Public Defender
s/Keith J. Hilzendeger
KEITH J. HILZENDEGER
Assistant Federal Public Defender
JOHN WALTERS
GRANT D. WILLE
Attorneys for Amici Curiae
***
[Certificate of Compliance and Certificate of Service
Are Omitted in the Printing of this Appendix]

243a

APPENDIX N
ARIZONA SUPREME COURT
Arizona Supreme Court
No. CR-18-0514-PR
Arizona Court of Appeals
No. 1 CA-CR 16-0793 PRPC
Maricopa County Superior Court
No. CR-2013-430489-001
[Filed April 8, 2019]
__________________________
STATE OF ARIZONA,
)
)
Petitioner,
)
)
v.
)
)
HECTOR SEBASTION
)
NUNEZ-DIAZ,
)
)
Respondent.
)
__________________________ )
BRIEF OF THE ARIZONA ATTORNEY
GENERAL AS AMICUS CURIAE
MARK BRNOVICH
Attorney General
State Bar No. 14000

244a
Drew C. Ensign
Deputy Solicitor General
2005 North Central Avenue
Phoenix, Arizona 85004
Telephone: (602) 542-3333
Facsimile: (602) 542-8308
drew.ensign@azag.gov
Attorney for Mark
Attorney General

Brnovich,

245a
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I. The Court Of Appeals’ Prejudice Holding Is A
Radical Outlier . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
II. Because Respondent’s Identity Is Not
Suppressible, He Cannot Establish Prejudice
Under Strickland . . . . . . . . . . . . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

246a
TABLE OF AUTHORITIES
Cases
Artica-Romero v. United States,
No. 3:17-CR-44-J-34, 2019 WL 447881 (M.D. Fla.
Feb. 5, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Cadet v. United States,
No. 11-113, 2012 WL 7061444 (N.D. Ga. May 29,
2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Garcia v. State,
425 S.W.3d 248 (Tenn.2013) . . . . . . . . . . . . . . . . 4
Diaz v. State,
896 N.W.2d 723 (Iowa 2017) . . . . . . . . . . . . . . . . 6
Gutierrez v. United States,
560 F. App’x 924 (11th Cir. 2014) . . . . . . . . . . . . 3
INS v. Lopez-Mendoza,
468 U.S. 1032 (1984). . . . . . . . . . . . . . . . . . . . . . . 7
Lee v. United States,
137 S. Ct. 1958 (2017). . . . . . . . . . . . . . . . . . . . . . 1
Medina-Marquez v. United States,
No. 12-080, 2013 WL 12230792 (W.D. Tex. May
31, 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Mudahinyuka v. United States,
No. 10-5812, 2011 WL 528804 (N.D. Ill. Feb. 7,
2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Padilla v. Kentucky,
559 U.S. 356 (2010). . . . . . . . . . . . . . . . . . . . . . . . 1

247a
People v. Gomez-Perez,
No. 319745, 2015 WL 1227721 (Mich. Ct. App.
Mar. 17, 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Rosario v. State,
165 So.3d 672 (Fla. Dist. Ct. App. 2015) . . . . . . . 5
State v. Guerrero,
400 S.W.3d 576 (Tex. Crim. App. 2013) . . . . . . . . 4
State v. Nunez-Diaz, ,
1 CA-CR 16-0793, 2018 WL 4500758 (App. Sept.
18, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Aceves,
No. 10-00738, 2011 WL 976706 (D. Haw. Mar.
17, 2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Arce-Flores,
No. 15-0386, 2017 WL 4586326 (W.D. Wash. Oct.
16, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Batamula,
823 F.3d 237 (5th Cir. 2016). . . . . . . . . . . . . . . . . 3
United States v. Del Toro Gudino,
376 F.3d 997 (9th Cir. 2004) . . . . . . . . . . . . . . 7, 8
United States v. Donjuan,
720 F. App’x 486 (10th Cir. 2018) . . . . . . . . . . . . 3
United States v. Gutierrez-Martinez,
No. 10-2553, 2010 WL 5266490 (D. Minn.
Dec.17, 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Ortiz-Hernandez,
427 F.3d 567 (9th Cir. 2005) . . . . . . . . . . . . . . . . 7

248a
United States v. Perea,
No. 11-2218, 2012 WL 851185 (D. Kan. Mar. 8,
2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Perez,
No. 8-296,2010 WL 4643033 (D. Neb. Nov. 9,
2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Serrato,
No. 12-2018, 2012 WL 2958249 (S.D. Tex. July
18, 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Sinclair,
409 F. App’x 674 (4th Cir. 2011) . . . . . . . . . . . . . 3
Statutes
A.R.S. §41-192(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
Daniel A. Horwitz, Actually, Padilla Does Apply to
Undocumented Defendants, 19 Harv. Latino L.
Rev. 1, 3-4 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . 4

249a
INTERESTS OF AMICUS CURIAE
The Attorney General has clear and direct interests
in this action. The Attorney General is the chief legal
officer of the State. A.R.S. §41-192(A). The Attorney
General’s Office not only prosecutes criminals, but also
handles appellate matters for the fifteen county
attorneys. In addition, the Attorney General is
responsible for defending a wide variety of postconviction petitions by inmates.
INTRODUCTION
As an initial matter, courts throughout the United
States have almost uniformly held that a criminal
defendant cannot establish prejudice under Strickland
for allegedly deficient attorney advice regarding
deportation where the criminal defendant is deportable
even before any criminal conviction is entered. These
courts have broadly recognized that such cases are
fundamentally different from Padilla v. Kentucky, 559
U.S. 356 (2010) and Lee v. United States, 137 S. Ct.
1958 (2017), where the criminal defendants were only
deportable if they were convicted. Because Respondent
was deportable regardless of the outcome of his
criminal case and the legal advice he received, all of
those courts would have held that Respondent was
barred from establishing prejudice under Strickland.
This robust consensus was ignored by the panel
majority—even though the dissent specifically raised
the conflicts. In contrast to the robust reasoning
supplied by the dozens of courts concluding that
Strickland prejudice is categorically barred, the panel
majority offered almost no reasoning in support of its

250a
holding. And what little it offered is far less persuasive
than the reasoning of contrary precedents, which are
legion.
Reversal of the prejudice holding is further
warranted because Respondent’s deportable status
results from an uncontested fact that is neither
suppressible nor the product of any allegedly deficient
legal advice: his identity as an alien not lawfully
present in the United States. Because the Superior
Court could not afford any relief that would change
Respondent’s identity, and the legal advice at issue was
not a link in the causal chain leading to discovery of
Respondent’s identity (and resulting exposure to
deportation), the prejudice holding must be reversed.
ARGUMENT
I. The Prejudice Holding Below Is A Radical
Outlier
This case presents a threshold, dispositive issue:
can a criminal defendant who is not lawfully present in
the United States—and is thus deportable even if
acquitted on all charges—satisfy the prejudice
requirement of Strickland in attempting to rescind a
guilty plea based on attorney advice regarding
deportability? Although an issue of first impression in
this Court, it has been widely considered by courts
throughout the country. And these courts’ answer to
that question is virtually unanimous: a categorical and
resounding “no.”
The decision below is thus a stark departure from
the prevailing judicial consensus: virtually every court
throughout the United States that has ever considered

251a
the issue has held that such non-citizens cannot
establish prejudice under Strickland because they were
deportable regardless of whether they pled guilty. As
the en banc Fifth Circuit has explained, “controlling
law unequivocally” establishes that a criminal
defendant cannot “show prejudice because he was
already deportable.” United States v. Batamula, 823
F.3d 237, 242 (5th Cir.) (en banc) cert. denied 137 S. Ct.
236 (2016). Thus, “[b]ecause Batamula was already
deportable … before he pleaded guilty …, it would not
have been rational for him to proceed to trial in the
hopes of avoiding deportability[.]” Id. at 243.
The Fourth Circuit has similarly held that a
defendant advancing a similar claim as Respondent
could not establish prejudice because his “substantial
rights were unaffected because he was an illegal alien
and therefore his guilty plea had no bearing on his
deportability.” United States v. Sinclair, 409 F. App’x
674, 675 (4th Cir. 2011). The Tenth and Eleventh
Circuits are broadly in accord.1 No federal circuit has
ever reached a contrary result, and the Supreme Court
has refused to disturb this consensus by repeatedly
denying certiorari.

1

The Eleventh Circuit held Strickland’s prejudice requirement
was not satisfied because the defendant “never obtained legal
status, and thus continued to be subject to removal[.]” Gutierrez v.
United States, 560 F. App’x 924, 927 (11th Cir.) cert. denied 135 S.
Ct. 302 (2014). The Tenth Circuit held that Strickland’s deficientperformance requirement could not be satisfied because “unlike
the petitioner in Padilla, Defendant’s guilty plea did not render
him removable.” United States v. Donjuan, 720 F. App’x 486, 490
(10th Cir.) cert. denied 139 S. Ct. 590 (2018).

252a
These federal appellate courts are hardly outliers.
As one law review article has explained, “a nearly
unanimous line of authority” has “concluded that
because ‘a guilty plea does not increase the risk of
deportation’ for undocumented defendants, such
defendants are categorically incapable of establishing
the legal ‘prejudice’ that Padilla requires in order to
obtain relief.” Daniel A. Horwitz, Actually, Padilla Does
Apply to Undocumented Defendants, 19 Harv. Latino L.
Rev. 1, 3–4 (2016) (citation omitted). Indeed, courts
adopting the same reasoning as the federal circuit
courts include:
• The Tennessee Supreme Court;2
• The Texas Court of Criminal Appeals;3
• State appellate courts in Michigan and Florida;4

2

Garcia v. State, 425 S.W.3d 248, 261 n.8 (Tenn. 2013) (“[C]ourts
have consistently held that an illegal alien who pleads guilty
cannot establish prejudice” under Padilla.) (collecting cases).
3

State v. Guerrero, 400 S.W.3d 576, 588-89 (Tex. Crim. App. 2013)
(“Unlike Jose Padilla, appellee was an undocumented immigrant
and was deportable for that reason alone, both in 1998 and today.
Had appellee gone to trial with counsel and been acquitted he
would not have been transformed into a legal resident.… The
prospect of removal therefore could not reasonably have affected
his decision to waive counsel and plead guilty.”)

4

See People v. Gomez-Perez, No. 319745, 2015 WL 1227721, at *2
(Mich. Ct. App. Mar. 17, 2015) (“[D]efendant was subject to
deportation whether he pleaded no contest or proceeded to trial
and was either acquitted or convicted. Thus, even if defense
counsel had failed to warn defendant about any risk of being
deported, defendant cannot establish any prejudice”); Rosario v.

253a
• At least nine federal district courts.5

State, 165 So.3d 672, 672 (Fla. Dist. Ct. App. 2015) (“[P]rejudice
cannot be established if the defendant was present in the country
unlawfully or was otherwise subject to removal”).
5

United States v. Aceves, No. 10-00738, 2011 WL 976706, at *5 (D.
Haw. Mar. 17, 2011) (“Removal therefore should not reasonably
have affected his decision to plead guilty, and he cannot show
prejudice flowing from that plea[.]”); Cadet v. United States, No.
11-113, 2012 WL 7061444, at *2 (N.D. Ga. May 29, 2012) report
and recommendation adopted as modified, 2013 WL 504821 (N.D.
Ga. Feb. 8, 2013) (“Movant cannot show that he was prejudiced …
because Movant was subject to deportation as an illegal alien
regardless of whether he was convicted in this case.”); United
States v. Gutierrez-Martinez, No. 10-2553, 2010 WL 5266490, at *4
(D. Minn. Dec. 17, 2010) (“As his guilty plea had no bearing on his
deportability, the information about the immigration consequences
of his guilty plea would not have affected his decision whether to
plead or go to trial.”); Mudahinyuka v. United States, No. 10-5812,
2011 WL 528804, at *4 (N.D. Ill. Feb. 7, 2011) (agreeing with
District of Minnesota); United States v. Perea, No. 11-2218, 2012
WL 851185, at *5 n.4 (D. Kan. Mar. 8, 2012) (“In light of the fact
that defendant was already subject to deportation, he has not
shown how he could have rationally rejected the plea
agreement[.]”); United States v. Perez, No. 8-296, 2010 WL
4643033, at *3 (D. Neb. Nov. 9, 2010) (“Perez could very well be
subject to deportation even without his conviction at the federal
level[.]”); United States v. Serrato, No. 12-2018, 2012 WL 2958249,
at *1 (S.D. Tex. July 18, 2012) (“Defendant’s substantial rights
were unaffected by counsel’s alleged failure to advise because
Defendant is an illegal alien and therefore his guilty plea had no
bearing on his deportability[.]”); Medina-Marquez v. United States,
No. 12-080, 2013 WL 12230792, at *6 (W.D. Tex. May 31, 2013),
report and recommendation adopted, 2013 WL 12230717 (W.D.
Tex. Aug. 15, 2013) (“[G]iven Petitioner’s present status as an
illegal alien unauthorized to be in the United States, the Court
finds no prejudice as Petitioner would be have been deported with
or without pleading guilty”); Artica-Romero v. United States, No.

254a
The panel dissent notably cited no less than six of
these contrary decisions. State v. Nunez-Diaz, 1 CA-CR
16-0793, 2018 WL 4500758, at *3 ¶14 (App. Sept. 18,
2018) (Morse, J., dissenting). But the majority did not
distinguish them or explain why they were incorrectly
decided. Nor did the majority cite their agreement with
the sole contrary precedent cited by the dissent, the
unpublished, non-precedential decision in United
States v. Arce-Flores, No. 15-0386, 2017 WL 4586326
(W.D. Wash. Oct. 16, 2017).6
This Court should join the vast majority of other
courts in holding that prejudice under Strickland is
categorically barred in these circumstances.
II. Because Respondent’s Identity Is Not
Suppressible, He Cannot Establish Prejudice
Under Strickland
The holding below suffers from another
foundational defect. Respondent’s deportability
ultimately arises from a fundamental fact that is not
the product of any legal advice he received and is
beyond the power of the Superior Court to remedy: his
identity as an alien not lawfully present in the United
3:17-CR-44-J-34, 2019 WL 447881, at *7 (M.D. Fla. Feb. 5, 2019)
(“Because Artica-Romero was illegally present in the country and
already subject to removal, unlike the petitioner in Padilla who
was a lawful permanent resident, she cannot establish prejudice
under Padilla”)
6

The Supreme Court of Iowa has also adopted the same reasoning
as the panel majority. See Diaz v. State, 896 N.W.2d 723 (Iowa
2017). That decision does not appear to have been cited by the
parties or the court of appeals.

255a
States before he committed any of the drug crimes at
issue. Because of that identity, the absence of prejudice
under Strickland is even more apparent.
The Supreme Court has made clear that identity
evidence is unique: “The ‘body’ or identity of a
defendant or respondent in a criminal or civil
proceeding is never itself suppressible as fruit of an
unlawful arrest, even if it is conceded that an unlawful
arrest, search, or interrogation occurred.” INS v. LopezMendoza, 468 U.S. 1032, 1039 (1984). For that reason,
“the simple fact of who a defendant is cannot be
excluded, regardless of the nature of the violation
leading to his identity.” United States v. Del Toro
Gudino, 376 F.3d 997, 1001 (9th Cir. 2004). Indeed,
“‘Identity evidence is inherently different from other
kinds of evidence,’” and courts have thus “refused to
suppress the defendant’s identity … even if it was
“‘obtained as a result of an egregious constitutional
violation.’” United States v. Ortiz-Hernandez, 427 F.3d
567, 577 (9th Cir. 2005) (citation omitted).
Thus, even if Respondent had been illegally
arrested, and the arrest was even an “egregious
constitutional violation,” Respondent would still be
deportable based on his identity; no court could provide
him any relief. Here, however, the legality of
Respondent’s arrest is apparently unchallenged. There
is no reason that Respondent (who was lawfully
arrested) should fare better those immigrants whose
arrest is concededly and egregiously unlawful.
Respondent was thus subject to deportation
following his lawful arrest and before he received even
a single word of legal advice. Respondent’s subsequent

256a
receipt of allegedly deficient immigration-law advice
does not change at all Respondent’s deportability based
on his identity alone. As a result, Respondent cannot
establish prejudice under Strickland because the
counsel he received in no way affects his identity—i.e.,
the lawfulness of his presence in the United States.
Ultimately, “the simple fact of who a defendant is
cannot be excluded, regardless of the nature of the
violation leading to his identity.” Del Toro Gudino, 376
F.3d at 1001. And here the alleged constitutional
violation (deficient counsel) is not even arguably a link
in the causal chain leading to discovery of Respondent’s
identity (and all of its resulting consequences for
deportation). And because Respondent’s identity is not
suppressible—and is a fully sufficient basis for his
deportation—Respondent’s Sixth Amendment claim
necessarily fails.
CONCLUSION
The Court should reverse the decision below, and
Respondent’s guilty plea and conviction should be
reinstated.
RESPECTFULLY SUBMITTED this 8th day of
April, 2019.
MARK BRNOVICH
Attorney General
State Bar No. 14000
/s/ Drew C. Ensign
Drew C. Ensign
Deputy Solicitor General
2005 North Central Avenue

257a
Phoenix, Arizona 85004
Telephone: (602) 542-3333
Facsimile: (602) 542-8308
drew.ensign@azag.gov
Attorney for Mark
Attorney General

Brnovich,

258a

APPENDIX O
ORAL ARGUMENT
Tuesday, May 7, 2019
En Banc

COURTROOM

Scott Bales, Chief Justice
Robert M. Brutinel, Vice Chief Justice
Ann A. Scott Timmer, Justice
Clint Bolick, Justice
Andrew W. Gould, Justice
John R Lopez, IV, Justice
9:30 AM
CR-18-0514-PR
NUNEZ-DIAZ

STATE

OF

ARIZONA

v

10:15 am
CV-19-0033-CQ

SKY HARBOR HOTEL
PROPERTIES v PATEL
PROPERTIES

10:50 AM
CV-19-0034-CQ

MORRISANDERSON
&
ASSOC v REDEYE II LLC et
al

